<html>
<title> - AIRPORT SECURITY</title>
<body><pre>[Senate Hearing 107-1121]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1121

                            AIRPORT SECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


89-745 PDF           U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2001...............................     1
Statement of Senator Allen.......................................     4
Statement of Senator Boxer.......................................     7
Statement of Senator Breaux......................................     5
Statement of Senator Brownback...................................    47
Statement of Senator Burns.......................................     2
Statement of Senator Carnahan....................................    44
Statement of Senator Cleland.....................................    45
Statement of Senator Edwards.....................................    42
Statement of Senator Hollings....................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Inouye......................................     5
Statement of Senator Kerry.......................................     8
Statement of Senator McCain......................................     2
Statement of Senator Nelson......................................     6
Statement of Senator Rockefeller.................................     9
Statement of Senator Stevens.....................................    40
Statement of Senator Wyden.......................................     2

                               Witnesses

Barclay, Charles M., President, American Association of Airport 
  Executives on Behalf of the American Association of Airport 
  Executives and Airports Council International-North American, 
  prepared statement.............................................    63
Dillingham Gerald L., Director, Physical Infrastructure Issues, 
  General Accounting Office, prepared statement..................    52
Garvey, Hon. Jane F., Administrator, Federal Aviation 
  Administration.................................................    16
Hudson, Paul, Executive Director of the Aviation Consumer Action 
  Project, prepared statement....................................    67
Meenan, John, Senior Vice President, Air Transport Association...    73
Mineta Hon. Norman Y., Secretary, Department of Transportation, 
  accompanied by Michael P. Jackson, Deputy Secretary............    10
    Prepared statement...........................................    13
Woerth, Captain Duane, President, Air Line Pilots Association, 
  International, prepared statement..............................    57

 
                            AIRPORT SECURITY

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2001

                                        U.S. Senate
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m. in room 

SR-253, Russell Senate Office Building, Hon. Ernest Hollings, 
Chairman of the Committee, presiding.

         OPENING STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. I welcome our witnesses from the Department 
of Transportation. We want to get immediately to the questions, 
so we will ask all to try to limit their opening statements, 
but mine is a suggestion, or question, Mr. Secretary. Rather 
than Reagan National being a safety problem, why not make it a 
safety demonstration airport, an opportunity, in the sense that 
we know about the security of the cockpit, the need for air 
marshals and the federalization of security personnel at the 
airports, so why not immediately tell the--you do not have to 
do it all at once--tell those in the shuttle business out there 
that it is important to air transportation and the airlines 
themselves to say, all right, secure the doors on those craft, 
we have got the money to do it, and order it done, and along 
with that order say, never shall a door be opened in flight 
ever again, so that no longer can a domestic flight be used as 
a weapon of mass destruction.
    Once the doors on those shuttle planes are fixed, in the 
next couple of weeks, by that time we ought to get enough 
security personnel to check them in and out for those shuttle 
flights and put air marshals on all of them coming and going, 
so that is my question. We have got to move, and we are going 
to wait on meetings upon meetings upon meetings and 
consultations.
    I think it was Jack Kennedy years ago that quoted the Navy 
captain who said, if he waits for his ship to be fit, he never 
puts to sea. If you get those doors secured where there is no 
chance of hitting a Government building on takeoff or on 
landing, you cannot get inside, and that is the main thing. 
There is no difference. After all, we remember that the Dulles 
flight was the one that hit the Pentagon. I have flown in and 
out of Dulles since that time, so we have allowed flights at 
Dulles. For goodness sake, do not cancel it. You cannot be 
absolutely sure, but we can be mostly sure.
    Let me yield to our distinguished Ranking Member.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. I am going to be 
very brief, because we need to hear from our witnesses very 
badly. This is a very serious situation, to say the least. I am 
working with you and Senator Kerry, Senator Hutchison and 
others, so that we can develop a piece of legislation in order 
to ensure aviation safety and security.
    This probably entails federalization of airport security 
personnel. It requires cockpit security. It requires better 
technology. It requires a broad range of activities, and 
actions, in order to do our best to see that airport security 
is at a level that the American people can feel some safety and 
confidence in.
    I am looking forward to hearing from our Administrator of 
the FAA and our Secretary of Transportation. What we need from 
you is a list of recommendations and priorities. We need that 
very badly, and we need it quickly. Many of these issues have 
been discussed in this hearing room in the past, and so many of 
them are not new issues. What we need is your priorities and 
your recommendations as the actions that need to be taken both 
short-term and long-term, so we can put it into a legislative 
package and get it to the Congress as quickly as possible.
    Mr. Chairman, I look forward to working with you and other 
Members on shaping that legislation as quickly as possible. I 
thank you, Mr. Chairman.
    The Chairman. Very good.
    Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman. I will associate 
myself with the words of the Ranking Member, and also the words 
you said. I think this is not a time for long statements. We 
all realize the agenda of this country has changed as of 9/11/
01, and I look forward in working with everybody with regard to 
security, because I think that is going to go a long way in 
building the confidence back and get the people back in the air 
again.
    Thank you.
    The Chairman. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I, too, will be 
very brief. As a member of the Aviation Subcommittee, I have 
been studying this issue in some depth, and I think it is 
important to note that there has been a 15-year pattern on this 
aviation security issue, and that pattern is as follows.
    There is a horrible aviation tragedy. Second, there is 
tremendous outrage in the Congress and in the country. Third, 
there are various recommendations issued by commissions and 
blueprint studies, and then fourth, there is slow motion 
implementation of those recommendations, and I think what I 
have heard from you, Mr. Chairman, and I am so pleased to see 
it, is that this time it is going to be different in the United 
States Congress.
    This time, we want to make the changes so that in 6 months 
or a year we do not have Members of Congress back on the floor 
in a somber procession talking about how there was another 
tragedy.
    I would wrap up, Mr. Chairman, by way of saying--and I 
outlined this in a floor speech yesterday--that we ought to 
have a to-do list made of the recommendations that the General 
Accounting Office and the Inspector General have issued. 
Senator McCain is absolutely right in talking about a priority 
list, and I just suggest in closing, we have got it. The 
General Accounting Office and the Inspector General have issued 
these recommendations again and again. You, Mr. Chairman, were 
warning years ago that they were not being implemented.
    There are a few additional areas we can look at, such as 
technology, and of course this general aviation question that 
is not really regulated, but I think you were right, Mr. 
Chairman, years ago when you said we ought to implement the 
recommendations of the General Accounting Office and the 
Inspector General. That is, I would submit, our to-do list, and 
like our colleagues I look forward to getting it done this time 
and getting the job actually accomplished.
    The Chairman. Thank you. Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I want to thank you, Mr. Chairman and 
Senator McCain, as the Chairman and Ranking Member of the 
Committee. Working with Senator Rockefeller and myself as the 
Chairman and Ranking Member of the Aviation Subcommittee, we 
are already a way down the road on a security package. All of 
us have talked to Secretary Mineta and FAA Administrator Garvey 
about the high priorities. I look forward, Mr. Chairman, to our 
passing a bill by next week and sending it to the President for 
airport security.
    I think we have a short-term issue and a long-term issue. I 
want to commend all of the executive branch Secretaries, who 
are contributing to what I see as an immediate response. I am 
seeing a supervision of the screeners in airports throughout 
our country. I am seeing air marshals already on airlines that 
are detailed from other law enforcement agencies.
    I think we are going to build the confidence of the flying 
public on a short-term basis because of these actions, but in 
the long-term, I think we need a division of security in the 
FAA that would have control of the screeners and the air 
marshals. I think there should be a career track so that we 
attract people that want to stay in this business, and with 
that experience it will upgrade the quality of the product. I 
think we will be able to act together.
    I just want to say that I think, short term we are in the 
process, and I commend you for that, but long term it is our 
responsibility, and I think we can act quickly because of the 
Chairman and the Ranking Member's early efforts to get us 
together and make a team.
    Thank you.
    The Chairman. Thank you. Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, for holding this 
Committee hearing. Senator McCain, I also want to commend your 
leadership, and that of Senator Hutchison over the years. I am 
a rookie up here, but I have watched over the years and have 
been researching what has gone on in previous years, similar to 
what Senator Wyden has talked about.
    This is a very important hearing, and I want to thank our 
witnesses for being here. I would like Secretary Mineta and 
Administrator Garvey to express our thanks to each and every 
person in the Federal Aviation Administration, who have been 
unsung heroes, working long hours diligently, effectively, and 
patriotically to get the flights down and to try to resume as 
best we can safe air travel in this country.
    People pay attention to those rescue workers and 
firefighters and police, and they are heroes. But so are all 
the men and women who we do not see, but are working very 
diligently for us.
    Mr. Chairman, we have a duty to make sure that no plane 
ever again in this country is taken over and used as a weapon 
of destruction. I associate myself with all your remarks on the 
things we will need to do, whether that is sky marshals or 
using new technology.
    The cockpit has to be as secure as a vault, never able to 
be opened. The only people to determine whether it is opened or 
closed should be the pilots. We have a new paradigm, obviously, 
for our pilots.
    We also need to understand, as the Chairman stated, the 
economic impact of all of this, and the devastating effect of 
all of this on our very important airline industry, whether 
that is general aviation or commercial aviation. That is a part 
of our economy. It is part of our freedom of travel, and our 
way of life in this country.
    We have seen the layoffs of tens of thousands of people. 
Small businesses, tourism and general aviation, especially in 
small markets, have been adversely affected. I would like to 
hear testimony in that regard.
    Insofar as Ronald Reagan National Airport is concerned, you 
are right, Mr. Chairman, we ought to use the Nation's capital 
airport as a model of security. We should put into effect 
whatever you think the best practices are for security, not 
just in the cockpits, but on the ground, and in all the 
security aspects. I would say to Secretary Mineta, first and 
foremost, I empathize with the tough decisions and confluence 
of concerns you have.
    We all care about security, and I know the President is 
going to address the Nation tonight. First, I am sure he will 
try, to the extent he can, to talk about the actions we will 
take militarily against those culpable for these vicious 
terrorist attacks. I know he also has a concern about our 
economy, and making sure that we return as best we can to 
normalcy, and make sure America is open for business again.
    The Nation's airport, Ronald Reagan National Airport, is 
the Nation's capital airport. It would give everyone a good 
boost if you could somehow give us a relatively certain date 
when Ronald Reagan can be open for business again so Americans 
can join us here in the capital more easily, whether as 
tourists or for business matters.
    The Nation knows that the only airport still closed is the 
Nation's airport, Reagan National. Setting a date for the 
reopening of Reagan National suggests confidence in the future. 
I think that would be appropriate for tonight's address, but 
you all make those decisions yourselves. I look forward to 
working with you all and hearing your recommendations, and 
working with my colleagues in this very important aspect of our 
economy and our American way of life.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I thank you for scheduling 
these hearings. The outcome of these hearings will have a 
direct impact upon our economy. I believe it should be noted, 
Mr. Chairman, that 92 percent of the cargo that goes to and 
from Hawaii is by air transport, and 95 percent of the people's 
travel are also done by air transport. Therefore, it is very 
important to us.
    I wish to commend Secretary Mineta and Administrator Garvey 
for their leadership during these trying moments. Thank you 
very much.
    Mr. Chairman, thank you.
    The Chairman. Thank you. For the record, we have now a 
quorum, so I want to confirm the appointment, without 
objection, of Marion Blakey of the National Transportation 
Safety Board, Joseph Clapp, Administrator of the Federal Motor 
Carrier Safety Administration, Read Van de Water to be 
Assistant Secretary for Aviation and International Affairs at 
the Department of Transportation.
    Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you, Mr. Chairman, and thank you, 
Senator McCain, for so promptly responding to an obvious 
security crisis in the aviation industry by having these 
hearings. They are obviously very timely, and extremely 
important.
    I think we all can agree that transportation is the real 
key to economic security in this country, and that is all forms 
of transportation, whether by rail or by ship, and of course, 
particularly important is the transportation economic benefits 
of the aviation industry. If we do not have an aviation 
industry in this country, we do not have a strong and secure 
country. It is just very obvious.
    I think what is also very obvious is that Americans 
obviously feel very vulnerable right now. They are scared to 
fly. They are scared to use aviation as a means of 
transportation both for business as well as for pleasure, and 
that has a huge economic impact in a very negative fashion on 
this country. It is our job, and particularly in this 
Committee, to do everything we can to reestablish that 
confidence that Americans used to have in the aviation system 
that serves us all, and that is not an impossible task. We can 
do it, and we will do it.
    But you know, talk is cheap, and obviously now is the time 
for action. As Senator Wyden has said, we have been studying 
this for years, and we have always talked about the problems, 
but obviously now is the time to take all of those studies and 
take them off the shelf and out of the library and start 
implementing them, and doing it as quickly as we possibly can. 
I think this Committee will do that.
    Thank you.
    The Chairman. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I went to two of Florida's 
major airports yesterday, and I am convinced that it is safe to 
fly, that the security operations are working, and I saw a 
number of the things that were confiscated yesterday. However, 
that was not the case last Friday.
    The sheriff of Broward County at the Fort Lauderdale 
Airport, in order to test the security, had law enforcement 
officers go through the security checkpoints to see if they 
were working. They were not, and I want to show you what the 
sheriff has sent me to show this Committee, what law 
enforcement officers of the sheriff's department were able to 
get through security last Friday.
    I might point out that since then they have continued to 
test the system, and it has worked. They have been able to 
detect the items, but it just underscores the point that the 
security checks of passengers need to be put in the hands of 
highly trained, highly skilled people in order to give the 
public the assurance.
    Now, I believe that the public should have that assurance. 
I flew Monday night. I flew again last night, and I believe it 
is safe, but let me show you how the system broke down last 
Friday at the Fort Lauderdale International Airport. This was 
able to get through undetected by the magnetometers. It is an 
all-purpose tool. It folds up, the knife-blades fold up, the 
pliers fold up, and it fits into that little case, which is 
held together by velcro, but you can see in addition the 
officers were able to get through the box-cutters, the very 
same tool that we have been told has been utilized by the 
terrorists in last week's terrible tragedy.
    The Chairman. Senator, that is why we had this hearing. It 
was tested on September 11, and the Committee will take 
judicial notice that we have not had sufficient security. That 
is why we are having the hearing.
    Senator Nelson. That is why I thank you so much, but I will 
tell you, I was impressed, Mr. Chairman, yesterday with the 
security I saw at two of the major airports, and I thank you 
for having this hearing, and the legislation we are going to 
do, because it is absolutely essential to the economy of this 
country that the airlines, indeed, are functioning, and the 
American public is flying.
    Thank you, Mr. Chairman.
    The Chairman. Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you very much, both you 
and Senator McCain. I will be quite brief.
    First, I want to thank Secretary Mineta. I want to thank 
Jane Garvey for shutting down when you did on September 11. We 
have every reason to believe we could have been facing more 
death and destruction had you not acted, and I want to thank 
you for that.
    I also want to note that every single plane that was 
hijacked was headed for California. I note that only to say we 
are grieving for our Californians and for every single person 
who died, and I have been phoning the relatives of the victims, 
and it is indeed something you just cannot--it is hard to 
bounce back from it, but I am honored that I am on this 
Committee so that I can do something to help you, Mr. Chairman 
and our Ranking Member, to be bipartisan, and get something 
done here.
    I want to make some very quick points. I agree with Senator 
Wyden, when he talked about how many studies have been done. 
Mr. Chairman, this is just a few of them. They are all filled 
with recommendations that we never followed, and we need to do 
that, and I am convinced we will.
    The other point I would make is that there is a role for 
the FAA, there is a role for the airlines in safety, safety in 
the skies, safety in the way the planes are put together, et 
cetera, et cetera, but Mr. Chairman, protection from criminals, 
it seems to me, is a different question. I may be the only one 
that feels this way, but I just think we are missing the boat 
here. I think the security, we need to look at giving that back 
to our law enforcement people.
    The President has shown extraordinary leadership here, 
saying, in essence, we are at war. There is no declaration of 
war, but we are at war, figuratively speaking, with terrorism, 
and if we are, we ought to look at the laws and see if on a 
temporary basis we could fill in sky marshals with people who 
are trained in the military at this time, until we have been 
able to train them.
    I frankly feel, and again I may be the only one--I think I 
may be, because I have tested it out. I think there ought to be 
air marshals on every plane, not just random, on every single 
plane. We have been warned, and I think that is the way to get 
back the confidence of the people.
    A last point, and California's number 1 economic asset is 
tourism. We are like Hawaii, in many ways we are like other 
States. We are not going to get back on our feet unless people 
get back in the planes. That is as simple as it is, so I think 
we need to do everything that we can. I was hoping some of the 
funding we voted for would go to make our airports safe, our 
airlines safe. I trust that the money is there, but I just 
feel, frankly, if we do not do every single thing that we know 
needs to be done, not random air marshals, but air marshals on 
every plane, and something else happens, we will never get 
people back in the air. This is our moment. We are being 
tested, and I hope we rise to the test.
    Thank you very much.
    The Chairman. Thank you very much.
    Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thank you very much. Thank you 
for having this hearing.
    Mr. Chairman, you have been there before on this issue. You 
started talking about some of the needs to do this several 
years ago. Senator Wyden just said to me, he has just been back 
for 15 years over the proposals. There is no mystery here. The 
fact is that every single one of us knows, and the airline 
industry knows, people within the Commerce Department and the 
FAA and others know there are a whole series of steps that are 
available, that have been available for a long period of time, 
which we could take, and there has been an absence of 
willpower, and absence of the sense of urgency, and that is why 
we have not done it.
    There has also been a cost consideration. The airlines have 
been responsible for the cost, and the airlines, as we all 
know, because we are talking about a major bail-out, are in 
financial trouble. If your financial bottom line is affected by 
your security cost, then your security is affected, and it has 
been. Every one of us knows that.
    The folks at the security line, good people, well-intended, 
are earning less than the folks in the fast-food restaurants in 
those airports, and the training is less. We have got more than 
100 percent turnover in airline security personnel in some of 
our airports, more than 100 percent, and the supervisors are 
there, many of them, for only a matter of months, so we have an 
extraordinary responsibility to make clear to the American 
people we are prepared to make flying foolproof, essentially.
    I can guarantee you there is a simple answer to how you 
prevent ever again having an airplane used as a weapon. You may 
be able to have somebody go in and blow it up, I do not know, I 
would hope not, but you can certainly prevent anybody from ever 
getting into a cockpit.
    There is an aerospace company that developed a cockpit door 
impervious to bullets, knives, axes. The company has yet to 
sell a single door, but last week that company got a lot of 
inquiries from some of the airlines. The fact is, you can have 
a policy where a hijacker and everybody in the world knows that 
under no circumstances will there ever be access to a cockpit 
unless the pilot wants there to be. There are ways to do this, 
and if a terrorist decides they want to blow up 100 people, 
they can walk into a restaurant or any other place, as well 
know, very easily today and make that choice.
    Mr. Chairman, the other part of the problem is, there is a 
law enforcement component here. I remember when I became an 
assistant district attorney, the practices were considerably 
backward. State police did not talk that much to the locals, 
and certainly not to the Feds, and the exchange of warrant 
information county to county, let alone State to State, was 
nonexistent.
    If you enter the United States today, your passport goes 
through a scanner, and customs can tell whether you are on the 
watch list, how many countries you have traveled to, the money 
spent, and so forth. The same kind of capacity of exchange of 
information must exist in airlines, and there is no way for a 
private company to manage that kind of effort.
    You cannot know whether someone has warrants outstanding, 
you cannot know where they have traveled previously, you cannot 
know whether they have been on a watch list, and all of these 
things in a virtual world, with the computer capacity we have 
today, is discernible. Look how fast the FBI has discerned it 
in the aftermath of this event.
    Much of the kind of clearances and much of the process 
could be done ahead of time, Mr. Chairman, if we have a Federal 
capacity for airline security, and we have to be prepared on 
this Committee and in this country to guarantee to our citizens 
that we are going to make flying safe.
    Everyone knows, if you have flown on El Al, you go through 
a 45-minute interview, and there is a separation of different 
folks based on the various ways in which they do their 
screening. Needless to say, it is inconvenient to business, and 
that is one of the reasons why it has not happened, facility, 
but I think Americans want to know they can get on a plane and 
be safe, and I know there are adequate numbers of proposals 
already made to empower us to be able to make that guarantee to 
them, and we need to just embrace it, and make it happen here 
soon.
    One final thing I want to say, Mr. Chairman, I am for 
helping to bail out the airlines. I think all of us are. They 
were in trouble before this event took place, and we all know 
that, but I am not going to do that without a resolution of the 
problem of rail. We have been fighting for several years now to 
help resolve this issue, and we have had some $321 billion 
invested in the last years into airports.
    We have had about $15 billion or so, excuse me, into roads, 
about $15 billion into airports. Less than $1 billion, about 
$1/2 billion has been put into railroad stock, and what we 
learned in the last days that if terror takes place, and if 
there is terror in the skies, Americans need an alternative 
transport system and they turn to rail, and it was there for 
them, and we need to resolve that issue as we do this bail-out, 
and I am going to insist that we do that.
    Thank you, Mr. Chairman.
    The Chairman. Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I would hope the Senator from 
Massachusetts would not vote no on airline safety and airline 
financial viability unless he gets what he wants. I have a long 
list myself. This is a different time in our country. I think 
we have to face the fact that we have faced failures, but we 
have not faced fault. Fault lies with the terrorists. Failures 
lie with us, and if there is any silver lining out of Tuesday, 
and I cannot think of any, it is that all of the talk that 
others proceed to talk about over the last number of years on 
aviation issues generally, much less security and financial 
viability, we have been talking about this for a long time. We 
have been doing nothing about it. That is because the political 
will has not been there, and the public demand has not been 
there.
    It is now there. This is an absolutely golden opportunity 
to take enormous numbers of steps to federalize certain 
security aspects, and to do other things that will put our 
whole aviation system on a basis that people can come to trust 
it and get back onto airplanes.
    Like Senator Nelson, I flew commercial aviation twice this 
weekend. I wanted to make the point that it was safe. 
Unfortunately, I was virtually the only person on the airplane, 
so my message did not get very far, but we have to do these 
things to create the normalcy which is the American instinct, 
to get back to normalcy, so if we act wisely and prudently and 
quickly, I am convinced that we can do these things to provide 
for safety, to return the sense of trust and normalcy, which is 
so vital for one of the largest economic sectors in our entire 
country.
    I thank the chair.
    The Chairman. Senator Stevens.
    Senator Stevens. Mr. Chairman, I apologize for being late. 
I have no opening statement.
    The Chairman. Thank you very much.
    It should be noted that El Al, the best on airline security 
in Israel and around the world, of course, the safety director 
was invited to attend, but because of Rosh Hashanah he begged 
off, but will be with us at the first of the week. Otherwise, 
if some are watching, wondering why we are not asking questions 
at this particular hearing about finances, we have a hearing at 
2 o'clock.
    With that said, we welcome Secretary Mineta, the Secretary 
of Transportation, Ms. Jane Garvey, the Administrator of the 
Federal Aviation Administration, and Mr. Michael Jackson, the 
Deputy Secretary of Transportation.
    Secretary Mineta.

        STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY, 
         DEPARTMENT OF TRANSPORTATION, ACCOMPANIED BY 
              MICHAEL P. JACKSON, DEPUTY SECRETARY

    Secretary Mineta. Mr. Chairman, thank you very much, and 
other Members of the Committee. It is with both sadness and 
resolve that Deputy Secretary Jackson, Administrator Garvey and 
I appear before you today. Let me also, before I start my 
testimony, thank you for the expeditious handling of our 
nominees for positions within the Department.
    Mr. Chairman, I join all Americans in my sadness and anger 
about the lives that were lost during the heinous, cowardly 
terrorist attack of September 11, and I also follow President 
Bush with a firm, unfaltering commitment to help our Nation, 
and specifically our transportation system, to respond, 
rebuild, and recover. Though we will never overcome the sorrow 
we feel for the families and friends who lost loved ones, we 
will ensure public safety, and protect economic vitality, and 
while it may take time to recreate comfortable confidence in 
air travel, let me assure this Committee that we can and we 
will enjoy a transportation system that is safe, secure, and 
stable.
    I also want to express my gratitude publicly about the 
pride I have in the work of the Department of Transportation 
and all of the employees throughout this crisis, and I would 
like to call particular attention to the professionalism that 
was displayed by the Federal Aviation Administration from 
Administrator Jane Garvey, Deputy Administrator Monty Belger, 
on down. The FAA performed magnificently, as have other crucial 
players in our Department, including the Coast Guard and those 
who worked with the well-prepared Department of Transportation 
Crisis Management Center.
    On the morning of Tuesday, September 11, I was in my office 
with Isabel Durant, the Deputy Prime Minister of Belgium, who 
is also the Minister of Transport, talking about United States-
European noise issues. I was then interrupted, by the chief of 
staff, who came in and said, ``Mr. Secretary, may I see you?'', 
and so I stepped from the conference room into my office, and 
on the television was the scene that everybody is familiar 
with, the smoke billowing from the World Trade Center. He said, 
``I am not sure, the reports are about an explosion.'' So I 
said, ``Well, keep me posted.'' I went back into the meeting, 
and within 3 or 4 minutes, my chief of staff returned and said, 
``Mr. Secretary, may I see you?'' So I came back out, and was 
watching the smoke billowing out, and he said, ``It has been 
confirmed, it is an airplane that went into the World Trade 
Center.''
    And as I am sitting there watching the television, I see 
this gray object coming in from the right, and then all of a 
sudden this billowing orange cloud that comes out of the side 
of the building, so I went in and told Mrs. Durant I would have 
to be excused, and by that time I had gotten a call from the 
White House to get over to the White House immediately, so I 
went to the White House, went into the situation room, and was 
briefed by Mr. Richard Clarke from the National Security 
Council, and he said, you have got to be over at the operations 
center with the Vice President, and so I went over there.
    By this time, of course, we knew that there were two 
airplanes that had gone into two separate towers of the World 
Trade Center, and we shortly after that heard about an 
explosion at the Pentagon. The Vice President and I were not 
sure what that was. There was some talk about it being a 
helicopter, then it became apparent it was a commercial 
airliner.
    Like anything else, when one of something occurs, it is an 
accident, when two of the same thing occurs, it is a pattern, 
and when three of the same thing occurs, it is a program, so I 
immediately called the FAA and told them to bring all the 
airplanes down ``right now.''
    All that we have learned since that fateful morning leaves 
me convinced that this unusual order was the right thing to do, 
and thanks to thorough preparation, the Department of 
Transportation's Crisis Management Center took only minutes to 
kick into action. The various modal administrations within the 
Department secured thousands of transportation facilities, and 
the United States Coast Guard secured our harbors and 
waterways, while also readying its rescue capabilities.
    As we look to the future, the administration is already 
moving to restore public confidence in our transportation 
system and infrastructure. On September 13, I announced the 
gradual restoration of mobility within the national air space 
system. We took immediate steps to develop heightened security 
measures to ensure the security and the safety of airline 
passengers as well as people on the ground.
    As all of you know, all the country's major airports, with 
the exception of the Ronald Reagan Washington National Airport, 
have resumed air service operations. Now, because safety is of 
paramount importance, I required that heightened security 
measures, including a thorough search and security check of all 
airports and airplanes be in place before any air service 
resumed last week.
    In addition, we discontinued curbside check-in at every 
airport, and passengers are now required to go the ticket 
counter to check baggage. We also discontinued off-airport 
check-in. Only ticketed passengers are allowed to proceed past 
airport screeners. Well-wishers must stay out of the secured 
areas, and there will be no exception.
    Now, consistent with the strict security measures that have 
been imposed upon startup last week, I announced on Sunday the 
creation of two rapid response teams consisting of FAA 
employees to offer specific recommendations for the further 
improvement of security within the national air space system. 
One team is focusing on ways to increase security at our 
Nation's airports. The other is focusing on aircraft integrity 
and security, with specific attention to cockpit access and an 
expanded Federal Air Marshal program. Both teams are meeting 
regularly and with urgency, and their reports are due on 
October 1 at the latest.
    These internal teams will have input from a distinguished 
group of Americans with a wide range of expertise. Please note 
the need for a broad perspective as we address both security 
and commerce. The events of September 11 have focused media and 
public attention almost exclusively on aviation, which is 
understandable.
    However, our responsibility is to be equally concerned 
about other modes of transportation. Under authority from the 
Ports and Waterway Safety Act, we have taken action to control 
the movement of all vessels in the navigable waters of the 
United States. All ports and waterways have remained open and 
secure since September 12, and we put pipeline operators on 
alert. As we restore America's confidence in our ability to 
maintain the mobility and general freedoms that we hold dear, 
Congress, the executive branch, and the American people must 
not loose sight of the sobering need for heightened vigilance. 
We cannot allow this enemy to destabilize our political system, 
our economy, and our way of life, and we will not.
    As I am sure this Committee understands, the economic 
viability of the United States airlines is now also an urgent 
and critical matter, as all of you have stated. Given the 
crucial role of air carriers, and the role of the terrorist 
attacks in this economic drama, immediate action is mandated.
    As soon as we get all of the approvals, we hope to submit a 
proposal that will include $3 billion for airlines to offset 
new costs because of heightened and tightened security, $5 
billion in economic relief, authorization for use of the war 
risk insurance program at the President's discretion in the 
domestic as well as the international arena, and limited 
modification to certain aspects of collateral liability in 
order to avert a near-term threat to continued availability of 
insurance.
    Now, these modifications will provide a brief time in which 
to resolve that threat for the longer term. Additional 
recommendations that we made include credits and loan 
guarantees. Those are details that still have to be looked at, 
and to be worked out.
    As all of you have already noted, time is of the essence 
for these proposals. Therefore, I hope the measures that I have 
outlined will move forward as soon as possible. We would then 
have the time necessary to consider and consult with all of you 
about additional measures that may prove to be necessary.
    I would like to close by noting my own firm commitment to 
working with the legislative leaders here today. You already 
deserve our thanks for the swift bipartisan action that you 
took last week to provide supplemental appropriations that 
helped get action underway across the Federal Government in 
these traumatic times.
    I look forward to the honor of working closely with all of 
you as we face the complex and crucial challenges that lie 
ahead.
    Mr. Chairman, I ask unanimous consent that my written 
statement be made a part of the record, and my colleagues and I 
would be happy to answer your questions.
    The Chairman. It will be included.
    [The prepared statement of Secretary Mineta follows:]

        Prepared Statement of Hon. Norman Y. Mineta, Secretary, 
                      Department of Transportation
    Mr. Chairman, Members of the Committee, it is with both sadness and 
resolve that I appear before you today. Obviously, our lives, and the 
life of our nation, changed dramatically as a result of the terrible 
attack of September 11.
    Though we will never overcome the sorrow we feel for the families 
and friends who lost loved ones, we will be able to ensure public 
safety.
    And, while it may take time to recreate comfortable confidence in 
air travel, I assure this Committee that we can--and will--enjoy a 
transportation system that is safe, secure, and stable. The effort 
being expended by the government, the carriers, airport authorities, 
local police forces, and others on behalf of aviation will continue, 
and the traveling public can count on this.
    That is the President's commitment, and I will marshal all 
resources of the Department of Transportation to accomplish that 
fundamental goal.
    I should begin by taking this public opportunity to express my 
profound gratitude and pride in the performance of the employees 
throughout the Department of Transportation. I want to emphasize 
particularly my appreciation for the professionalism displayed by the 
FAA from top-to-bottom since the attack. From Administrator Garvey on 
down, the FAA has performed magnificently, as have other crucial 
players in our Department, including the Coast Guard and all those who 
worked with the well-prepared DOT Crisis Management Center.
    I hope here briefly to outline some of the key activities of our 
Department on September 11 and then to move to essential plans for our 
future.
    On the morning of September 11th, on first word of the attack, I 
moved directly to the Presidential Emergency Operations Center in the 
White House. As soon as I was aware of the nature and scale of the 
attack, I called from the White House to order the air traffic system 
to land all aircraft, immediately and without exception. That was an 
unprecedented step. But with the risk of additional flights that might 
be used as terrorist weapons, I believe that it was the right and 
necessary step to take.
    In the moments that followed my call, countless brave, tough, and 
smart Federal air traffic controllers worked with courageous and calm 
pilots and flight crews to land over 4,500 aircraft. Though all these 
emergency landings were entirely unplanned, they were safely and 
successfully accomplished. That was an historic feat in crisis 
management, and it illustrated the magnificent skill of key players in 
our transportation systems.
    This Committee should also be aware of the extraordinarily rapid 
response achieved with respect to all modes of transportation 
throughout our country on September 11th.
    Thanks to elaborate simulation and preparation, the Department of 
Transportation's Crisis Management Center took only minutes to kick 
into action. The first crash occurred at 8:46 am, and the Crisis 
Management Center was fully operational--with secure lines of 
communication, initiation of security procedures, and key contacts on 
line--by 9 am. Then, in a pre-planned fashion, the Department rapidly 
secured thousands of transportation hubs and corridors across the 
United States--including bridges and rail lines, roads and harbors.
    Of course, as we move forward, we must dramatically alter our 
approach. As President Bush has said: the world has changed. I add: so 
too has the very nature of our national transportation system.
    The events of the past several days require us to take new steps to 
move people and commerce safely and efficiently, despite the fact that 
the nature of the threat has clearly changed. It is a mission we cannot 
afford to leave for a later time.
    This Administration is already moving to restore and enhance our 
air transportation system. On September 13th, I announced the gradual 
restoration of flights within the national airspace system. We took 
immediate steps to develop heightened security measures to ensure the 
safety of airline passengers as well as people on the ground.
    All of the country's major airports have resumed scheduled domestic 
commercial and cargo service operations, with the exception of Reagan 
National Airport, which remains temporarily closed. Scheduled passenger 
airline service is operating at about 78 percent of normal levels. 
General aviation operations have also resumed except for visual flight 
rules operations in the immediate vicinity of our nation's 30 largest 
airports. We are currently increasing access to international 
commercial and general aviation flights.
    Because safety is of paramount importance, I required that 
heightened security measures be in place before any air service 
resumed. A thorough search and security check of all airplanes and 
airports took place before passengers are allowed to enter and board 
aircraft.
    We discontinued curbside check-in at every airport. We discontinued 
off-airport check-in. We no longer allow passengers to check in for 
their flights at hotels or other locations. All passengers are now 
required to go to the ticket counters to check baggage. Only ticketed 
passengers and authorized personnel are allowed to proceed past airport 
screeners--well-wishers must stay out of the secured areas.
    Let there be no doubt: we will soon be taking additional steps to 
increase security beyond those already taken.
    Now we must deal more broadly with the aftermath of September 11th. 
We have already turned toward development of long-term, sustainable 
security improvements within our airports and on our aircraft to ensure 
American passengers are provided with the highest possible levels of 
safety.
    Consistent with the strict security measures imposed upon startup 
last week, I announced on Sunday the creation of two Rapid Response 
teams to make specific recommendations for the further improvement of 
security within the national aviation system. Their conclusions are due 
October 1, at the latest. One team is focusing on ways to increase 
security at our nation's airports. The other is focusing on aircraft 
integrity and security. Among those areas that will be addressed will 
be making airport screening a more credible deterrent, expanding the 
Federal Air Marshal program, and enhancing cockpit security. Both teams 
are now undertaking their tasks with a sense of urgency.
    As they work on these teams, our own experts at the Federal 
Aviation Administration and Department of Transportation will have 
input from a distinguished group of Americans with a wide range of 
expertise in many different aspects of air transportation and law 
enforcement.
    I understand the complexity of these issues, and I know there have 
been numerous studies on many of these issues. Yet the larger context 
has changed dramatically. We now face a different security threat not 
only in transportation, but in all aspects of American life. We have to 
be willing to meet that changed threat with additional counter-
measures, and still find ways to keep our transportation systems the 
efficient and vital circulation system of our economy. We must 
therefore judge our security options in a different light than we might 
have judged them in the past.
    What I expect now are good, unambiguous answers to the new 
questions and heightened risks. The Department of Transportation has 
acted promptly in response to the changed circumstances, and we will 
take further actions promptly.
Broader Security Concerns
    We also need to keep a broad perspective as we address both 
security and commerce. The events of September 11th have focused media 
and public attention almost exclusively on aviation , which is 
understandable. Yet, as Vice President Cheney has noted, the odds are 
good that terrorists may use entirely new lines of attack. The 
Department I am honored to direct is focusing on all modes of 
transportation, including but not limited to airplanes and airports.
    Thus, under authority from the Ports and Waterways Safety Act, we 
have taken action to control the movement of all vessels in the 
navigable waters of the United States.
    All ports and waterways have remained open and secure since Sept. 
12 with very limited exceptions. We put pipeline operators on alert. 
And with the resources provided to the U.S. Coast Guard, it has 
performed with monumental efficiency.
    In the New York City area, our employees have worked selflessly for 
days to bring services back, provide alternative means of access to the 
City, and, at the same time, guard against possible further acts of 
terrorism.
    I want to emphasize the over-arching threat we now face. The new 
security measures we have already implemented--and those we will 
implement both publicly and discreetly--are not designed simply to deal 
with threats of further attacks like those of September 11th.
    For example, the President has asked our Department to help protect 
the integrity of our nation's entire transportation infrastructure. And 
that is what we are doing. But we also have to recognize that we have 
to meet the challenge of new and different security threats not only in 
transportation, but throughout our society.
    We will have to take precautions in transportation that we have 
never taken before, and we will have to do the same in virtually every 
aspect of American life. We will find ways to preserve the best of our 
transportation systems--the freedom of movement, the safe and efficient 
movement of goods and people that is so necessary to our economy. We 
will find ways to accomplish both heightened security and the benefits 
of efficient transportation system.
Economic Response
    I turn now to another critical topic--maintaining the air 
transportation system in the face of severe financial problems. The 
current situation in the airline industry is that access to credit 
markets is greatly restricted and revenues dramatically diminished.
    I would emphasize that the task at hand is not to prop up one or 
another of the carriers. It is not to ``make whole'' the industry as if 
September 11th had never occurred. Rather it is to recognize that this 
key part of the economy of this country requires new foundations in 
security and confidence as solid as they were once before. I believe 
the Federal Government has a responsibility for the safety of the 
public, airline passengers and crews in particular, and to ensure the 
foundation of security, insurance, and other necessities that will help 
this key part of the U.S. economy function. This nation needs a vital, 
viable, and competitive airline industry.
    Accordingly, we are proposing on an expedited basis an initial 
package to provide strength, security, and confidence in air 
transportation.
    Our proposal includes:

  <bullet> $3 billion to airlines to help offset the substantial new 
        costs they are incurring because of tightened security 
        requirements.

  <bullet> $5 billion in direct and immediate payments to airlines, 
        roughly in proportion to their size.

  <bullet> Authorization for the War Risk Insurance Program to be 
        invoked, at the President's discretion, in the domestic arena 
        as well as the international.

  <bullet> Limited modifications to certain aspects of collateral 
        liability, in order to avert a near-term threat to the 
        continued availability of insurance coverage. The main purpose 
        is to give us a brief period of time in which to try to resolve 
        that threat.

    We have additional steps under consideration, some of would take 
additional time to fully sort out. We believe that on the measures we 
are now proposing, time is of the essence. We believe these proposals 
should move forward immediately, and we would then have additional days 
to consider and to consult with you on additional measures that may be 
needed.
    I would like to close by taking this occasion to thank this 
Congress for its swift, bipartisan action last week in providing needed 
supplemental appropriations to get action underway across the 
Government. I look forward to of working closely with each of you as we 
face and meet the challenges ahead.
    This completes my prepared statement. I would be pleased to respond 
to the Committee's questions.

    The Chairman. Ms. Garvey, do you have a statement?

   STATEMENT OF HON. JANE F. GARVEY, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Ms. Garvey. Mr. Chairman, I will be very brief.
    Mr. Chairman, Senator McCain, Members of the Committee, let 
me first of all join the Secretary in offering our heartfelt 
condolences and prayers, and those of everyone at the FAA, to 
the families and friends of all of those victims of last 
Tuesday's terrible tragedy, and also if I could take a public 
moment to express my profound gratitude to the FAA staff as the 
Secretary has done, and particularly to the air traffic 
controllers.
    One editorial writer who was on a plane that landed safely 
wrote in an editorial that in a life and death situation that 
might have been even more catastrophic, the controllers, the 
system people and management supporting them did their jobs and 
brought tens of thousands of Americans back to earth safely.
    It is for me a singular honor to be associated with them in 
this time that has been extraordinarily difficult. As the 
Secretary has noted, in the aftermath of last Tuesday, the 
President called on America to begin to return to normal as 
quickly as possible. For those of us at the FAA, that has meant 
we have needed to focus on two principal areas. First of all, 
to work with the airports and to work with the airlines to put 
in place very stringent security measures, and we have done 
that. We have worked very, very closely with all aspects of the 
aviation community. The Secretary has mentioned those in some 
detail.
    I will only add that I think when you look at all of those 
security measures, as some of you have mentioned, you really 
have to think of them as a series of redundancies within the 
system. Some of those initiatives, as many of you know, are 
very similar to those that were in place during the gulf war, 
others are a further step. I do want to add a note about the 
Federal air marshals, and again to join the Secretary in his 
comments.
    We are extraordinarily grateful to Congress. You allowed us 
in the last several days to move very quickly on this air 
marshall program to enhance those numbers, to beef up those 
numbers, and we have done that really because we know the money 
that is in place to do exactly that. We are also 
extraordinarily grateful to the Attorney General, who has added 
forces from Treasury and Justice so we can proceed quickly and 
expeditiously in a program that we believe is very, very 
important.
    The second focus for us at the FAA obviously has been to 
restore the system. We have done that, again, in very close 
collaboration with the airports and with the airlines. We have 
done it, we believe, methodically and deliberatively. The 
system still is not fully up and operational, but we have done 
that in a way that I think allows the airlines and commercial 
aviation to transition in a thoughtful way.
    Airlines are moving throughout the system. They are 
operating at about 60 percent capacity, in some cases slightly 
more than that. The load factors are still very light, as some 
of you have suggested from your own travels, but in talking 
with the CEO's yesterday we are beginning to see some increase 
in passenger numbers, and that is very good news.
    Let me just close by also mentioning, as the Secretary has 
mentioned, that the incidents of last Tuesday have caused all 
of us, airlines, airport operation, and public policymakers, to 
rethink the balance of responsibility for civil aviation 
security. We must simply think differently about this issue. 
Civil aviation has been forever changed, which really leads me 
to my last point.
    The Secretary spoke about the rapid response teams. We are 
very actively engaged in producing those recommendations. My 
direction to the staff has been based on my conversations with 
the Secretary. The actions must be implementable. They must be 
implementable in the short term, in the long term. This is no 
time for study. This is no time for review. This is really a 
time, as the Secretary has told all of us, it is a time for 
action.
    One final last personal note, I will tell you in the last 
week there have been many moments at the FAA when despair has 
set in, but I will tell you that in every one of those moments, 
overriding despair has been an absolute resolve, and an 
absolute determination to work around the clock, if that is 
what it takes, to do everything that we can to restore public 
confidence in aviation.
    I am really proud to be associated with the people who have 
done that, and I am proud to be here today in front of you and 
thank you all for your help and your confidence and your 
support.
    The Chairman. Mr. Michael Jackson has been heading up for 
the Secretary the Task Force on Security, and I invited him to 
also join us at the table. Do you have a prepared statement?
    Mr. Jackson. I do not, Mr. Chairman. I am happy to be here.
    The Chairman. Well, we welcome you.
    Mr. Secretary, again, I am trying to get safety ahead of 
money, but it looks like this crowd can work quicker on money 
than they can on safety. What is the matter with Reagan 
National? When it comes to air operations, there is no 
difference in proximity than Baltimore or Dulles, and the plane 
that hit the Pentagon, everyone knows, of course, came from 
Dulles.
    In fact, I do not know that the Afghans have got an air 
operation, but an Afghan plane landing at Baltimore could turn 
and come and hit the Committee room here or going to Dulles 
could turn, and so you have got that threat and everything 
else, but not from the commuters, the shuttle flights, and 
while I am dillying I am putting them out of business.
    Now, we have had 10 days, and I suggested last week, when I 
told you of this hearing, let us go with Reagan right now. Tell 
me why not.
    Secretary Mineta. Mr. Chairman, Ronald Reagan Washington 
National Airport is closed because that decision really is not 
in our hands.
    The Chairman. If it is in the Secret Service's hands, it 
will never get open.
    Secretary Mineta. It is in the hands right now of the 
National Security Council, and specifically the U.S. Secret 
Service.
    The Chairman. That is what I was afraid of. Can you explain 
the facts of life and the reality that we can make it secure, 
and tell those commuters those shuttle planes to order one of 
these Kevlar doors and get them in there in the next 2 weeks? 
We can move, and once we secure the cockpit, you have got the 
marshals, you have got the personnel to federalize it, so what 
are they going to wait on? Just keep it closed and make sure 
the airlines go broke.
    Secretary Mineta. We have made all those points, Mr. 
Chairman, and I recognize that one of the airlines is in a very 
precarious state, and I even made the statement that if we do 
not open DCA within 10 days one of the major airlines will be 
going under, but their concern is the security issue.
    The Chairman. Well, I have got the record of the hearings 
with respect to the federalization of personnel at the 
airports, the security personnel, that is from Secretary Pena 
back 5 years ago, but rather my hope is to help and not to nag 
and to prove my point or everything else of that kind. I still 
cannot understand why the National Security Council is dillying 
around. Tell them, let us move and order the doors, and get the 
personnel out there, and get the marshals on those particular 
planes, and let us get this country moving.
    If you are at war--and I will never forget, when we had 
World War II come on there was a little lieutenant colonel from 
the Army Corps of Engineers that broke ground for the most 
massive manufacturing facility in the world, Building Number 1 
outside Marietta, Georgia, covering 73 acres. By the end of the 
war, they were spitting out five B-29's a day. Ground was 
broken on February 1, 1942, and by March 1, 1943 it was 
producing planes at that time.
    This country, if we are really going to war, has got to get 
moving up here. We seem to be the problem, studying and 
continue to study, but that point has been made.
    Secretary Mineta. Mr. Chairman, I can only speak to my 
activity since the 25th of January, when I was sworn in to be 
the Secretary of Transportation.
    The Chairman. Well, Mr. Jackson, you have been moving over 
there, and you used to work with Andy Card. Can you not get 
Andy moving?
    [Laughter.]
    The Chairman. Tell him, let's go, come on.
    Mr. Jackson. I think there is a strong commitment to work 
through this issue, Senator. We have two elements we are 
pursuing aggressively, as the Secretary has instructed us. 
First, a series of issues, related to air traffic control 
patterns and how best to insulate the security risk there, and 
in addition, as you yourself have suggested, a series of----
    The Chairman. It can be done in steps.
    Mr. Jackson. We are actively involved in that conversation. 
This is not an issue the Department or the FAA is at all 
insensitive to, or sitting back on our heels on, so we are 
absolutely working this with the security agencies, at the 
Secretary's strong urging.
    The Chairman. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Secretary Mineta, 
I want to say, with regards to Reagan National Airport, I would 
like to see it open, all of us would for convenience, but I 
will not only respect but support whatever decision is made by 
the experts who are responsible for this Nation's security, and 
safety is obviously paramount, and if that means that Reagan 
National Airport stays closed forever, I will not only respect 
it but support it.
    Mr. Secretary, in your list of financial recommendations, 
you leave out loan guarantees. Have you considered that option? 
Is that part of your package, or what?
    Secretary Mineta. That was part of our recommendations as 
we talked out these issues. At the present time that has not 
been included in the package at the White House--I think it is 
still an open question, but let me turn to Mr. Jackson on the 
latest since he was in a meeting as late as 9:10 this morning 
on this.
    Mr. Jackson. Senator, as the Secretary has said, the 
industry came to us and asked for a variety of actions. We are 
trying to get a first tranche of support into the system this 
week, and we are hoping to work with the Congress to move that. 
We know that there are a series of second tranche issues to 
look at.
    Senator McCain. The airlines view this as a first tranche 
issue, as far as their financial viability is concerned. I 
think we need to visit that issue very carefully, and not 100 
percent, maybe only 80 percent, but I have talked to no one in 
the industry that does not believe that loan guarantee is a 
critical item first tranche, so I hope we can work on that.
    Secretary Mineta, do you believe we need to federalize the 
airport security forces?
    Secretary Mineta. We have looked at that, and I suppose if 
it would be a question of whether or not--when you say 
federalize, I assume this is referring to the screening 
operation at the airports.
    Senator McCain. Airport security personnel.
    Secretary Mineta. If we are to federalize that, we feel it 
would probably take in the range of about 28,000 FTE's, full-
time equivalents. When you take salary, equipment, retirement, 
all of the cost involved, we are looking at somewhere around 
$1.8 billion, so there is an alternative that we are pressing.
    Senator McCain. Well, if we do not do that, what are the 
other options?
    Secretary Mineta. The alternative is something advocated in 
the past such as Senator Kay Bailey Hutchison's bill relating 
to security, giving to the FAA the authority to increase the 
standards and to increase the training requirements, do things 
on background investigation, and that has already been passed. 
We have the regulations prepared on that. The problem is that 
there was a hold put on the regulations going forward by OMB 
until our task forces come back with their specific 
recommendations on airport security.
    Senator McCain. Ms. Garvey, do you have a view on the 
federalization of airport security?
    Ms. Garvey. The first point is, it has to be fundamentally 
changed. Federalization is one option, as the Secretary said, 
the cost to it is about $1.8 billion, but that is certainly one 
option. Another option that has been proposed, that the rapid 
response team is looking at, is a not-for-profit corporation 
with a board of directors, with a dedicated part of the ticket 
tax, or a dedicated part of the PFC. I think the principle is 
that aviation security must be fundamentally changed, and 
whether it is federalized or not-for-profit corporation, those 
are two alternatives.
    Senator McCain. Mr. Secretary, the rapid response task 
force is going to report to you on October 1. How quick are you 
going to have a legislative package up for us after that?
    Secretary Mineta. Even though, Senator McCain, the task 
force report will come to me then, every day we are staying in 
touch with those task forces in terms of their recommendations, 
so it is not that I am waiting until October 1, but as soon as 
that report comes in, we will have specific legislative 
recommendations where they are necessary. Some of it may 
already be possible, given present law and given the 
appropriations that was passed last week.
    Senator McCain. Ms. Garvey, do you believe there is 
anything within reason that the FAA could have done to prevent 
the tragedy that happened last Tuesday?
    Ms. Garvey. I have asked myself that every single day, 
Senator. I think we always, whenever there is a tragedy like 
this, you have to ask yourself that question, are there things 
that you could have done differently. I do think in the face of 
an individual who was willing to commit suicide, in the face of 
an individual who was willing to use a plane as a weapon, it 
was a very difficult situation. It has changed the way we think 
of our own security, all of our security directives, and I 
spoke with Ken Mead about this at length yesterday.
    All of our security recommendations in the past have been 
geared toward explosive. If you look at many of the 
recommendations that the IG has put forward, and the GAO, and 
our own, it has had to do with combatting explosives. This was 
a whole new world for us.
    Senator McCain. Let me point out in September 1996 the Gore 
commission asked that security screening companies develop 
uniform training procedures for all security screening 
personnel. In its 2000 report, the Inspector General for the 
Department of Transportation discussed the test that he 
conducted in which the Inspector General sent an armed 
individual through secure areas in airports, in some cases 
illegally boarded an aircraft. We have had study after study, 
commission after commission come before this Committee and 
issue reports and recommendations that called for significant 
changes.
    Ms. Garvey. To the screeners in particular, Senator.
    Senator McCain. On a broad variety of areas, and in all 
candor, many of those recommendations were either not taken 
seriously enough, or not implemented.
    Ms. Garvey. Senator, just one note on the screeners. As the 
Secretary mentioned the training requirements are ready to go. 
Quite honestly, we have pulled all those back and said, given 
what we have seen now, are those really the right requirements 
we want to put in place.
    Senator McCain. Do you have aviation security equipment now 
sitting in warehouses because of a lack of funds for 
installation?
    Ms. Garvey. We have had some difficulties with the 
equipment, yes.
    Senator McCain. Thank you, Mr. Chairman.
    The Chairman. Senator Burns.
    Senator Burns. I think the Administrator has struck upon 
something, because whenever you get a person that is willing to 
die, and use themselves, no matter what kind of screening we 
have, you are almost faced with an impossible situation. How 
close does the Department of Transportation work with our 
intelligence people about the traveling public?
    Secretary Mineta. Senator, every morning I get a briefing 
from the CIA about threats, about things that are going on in 
the intelligence world, and again, if I were to look back at 
all the reports since I have been there on January 25, and I 
get briefed every day, every morning, and I ask the CIA, 
including our own security people, Admiral Underwood, if you 
took all those things that we know now, is there a matrix, with 
that information that we had, that would have pointed to 
anything close to what happened on September 11, everyone says 
no. You just cannot do it.
    So the first time we had a commercial airliner turned in to 
a lethal weapon, people boarded with plastic knives, that can 
be as sharp as metal knives. They had box openers with a blade 
this long, razor-sharp, and under the then-existing threshold, 
those passed security. That is why we have the heightened 
security requirements and screening requirements.
    But I do get intelligence briefings every day.
    Senator Burns. Well, I want to submit to you that there is 
probably something on each one of us here this morning in this 
room that could be used as a lethal weapon. I sit right next to 
a man right here that was using one, and that is a regular pen. 
This is a lethal weapon. It can be used as a lethal weapon. It 
does not have to be a knife, or anything like that. I guess us 
old farmers, we have always carried a pocket knife. Now I am 
going to have to keep a pocket knife in Montana and one here, 
because I ain't gonna get one in between.
    But around this table, this broken glass could be used as a 
lethal weapon, and that is hard to guard against.
    I guess where I am going with this is that here was an 
operation that was in the planning process for, I would say, as 
much as 2 years, and no one had a clue, not one leak, or had a 
clue that this thing was in process, and I find that really 
disturbing, that somewhere along the line involved was 50 to 
100 people, but there was no indication anywhere that this 
operation was being planned, so what I am saying is that I 
think we should, number 1, look at our intelligence, and how we 
fund it, and the information we collect, and also in the area 
of civil defense.
    World War II taught us a mentality on how to think about 
how we defend our country, and it gave us the mind set that we 
survived the cold war. This incident now gives us a mentality 
on what we are going to need as far as civil defense, and a 
mind set to defend ourselves against these kinds of actions, 
and so I have got to think we have to start changing our mind, 
our process a little bit on what we fund, how we fund it in the 
security, because if a person wants to be a human bomb, there 
is nothing we can do about that.
    A person can walk into a restaurant, I mean, it goes on 
around the world, and there is very few things we can do about 
it in a free society, so our equipment, I think we are going to 
have to have a visible, visible uniformed security screeners in 
airports to put the confidence back in the American people that 
it is safe to fly. They want to see some visibility where there 
is security, and with that we have to show some signs, kind of 
like it is a duck on top of the water that looks pretty 
comfortable, and not doing much, but underwater we have got to 
be paddling like the dickens with our intelligence and our 
security and the way we do business now, and the way we watch 
the movements of people, and I have no recommendations. It is 
going to take somebody smarter than I am, but I think we can 
throw good money after bad if we operate in the same mind set 
that we thought about security prior to 9/11/01, so that is why 
I say, are you in touch with the CIA, and do they brief you on 
the movements of people, and of course I think we are in a 
different kind of a situation.
    I thank the Chairman. I look forward to other questions 
that might be asked by this Committee.
    The Chairman. Senator Wyden.
    Secretary Mineta. Mr. Chairman, if I might just respond.
    The Chairman. Surely.
    Secretary Mineta. There is no question that what happened 
on September 11 has changed the world for all of us. Normalcy 
is trying to restore economic vitality and part of this whole 
process, I think, is that all of us, all American people are 
going to have to show patience, and that patience is a form of 
patriotism that they are going to have to exercise, because 
life is not going to be as it was on September 10.
    So the mind set for all of us is vastly different in terms 
of how we approach issues, the urgency with which we deal with 
issues. I know this, since I have been there trying to get 
rules and regulations out of the Department, pushing to try to 
reduce that time line, and to deal with issues in terms of what 
we do as a Department differently than we have in the past. You 
are absolutely right, it requires a mind set that is totally 
different from where we have been in the past, and I believe in 
our agency, in the Department of Transportation and in the 
Federal Aviation Administration, as well as all our other 
modes, we are in a different mind set today.
    Senator Burns. Well, hindsight is always 20/20, and we have 
got to turn it around.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Secretary, in recent days I have outlined a 15-year 
pattern of inaction on this issue, even on the certification 
question. In 1987, the General Accounting Office issued those 
recommendations to tighten up the screening procedures, and 
here we are today, and it still has not been done, and I will 
tell you, today I am not interested in the blame game. There is 
plenty to go around, but what I would really like to hear, Mr. 
Secretary, from you is that this time the Government's response 
is going to be different.
    I do not think, for example, that we can wait till October 
1. I mean, we are hearing once again the pattern of 
recommendations and various efforts to study this. I think what 
the public wants to hear is that this time, not just our mind 
set, but the Government's response is going to be different, 
and you are going to break the spiral of more tragedies, 
outrageous recommendations, and then slow-motion 
implementation, and I would like to give you the opportunity to 
tell the public this morning that this time you are going to 
break that 15-year pattern and things are going to be 
different.
    Secretary Mineta. I think it was broken at about 9:15 a.m. 
on Tuesday, September 11 when I subsequently ordered down over 
4,500 aircraft, and the skill of the air traffic controllers 
and the pilots and the flight deck crews across the country 
brought those airplanes down safely in less than 2 hours. From 
that moment on, we have been trying to rebuild the system, 
including with different rules, new rules. We did that because 
the President wanted to restore the aviation system, and I said 
on that Tuesday that I hoped to have it back in the air by 
12:00 noon on Wednesday.
    There were a lot of practicalities that prevented us from 
moving to be able to open up the system by 12:00 noon, because 
there were going to be new procedures that were going to be 
required right then and there, and we could not put those 
procedures in place to ensure the security and the safety of 
the system by 12:00 noon. To recap, the first plane went into 
the World Trade Center at 8:48. By 9:15, 9:20 we were looking 
at a different world. I apologize if that was too slow, but we 
are making differences in the system in rules and procedures, 
we are not laggards, and I will put my record on the line at 
this time.
    Senator Wyden. Mr. Secretary, again, I am (a) not 
interested in any blame game, and (b) I think what you did in 
the specific instance you described was very welcome. What I am 
interested in, though, is knowing whether the Government is now 
going to be persistent and relentless in making the changes for 
the long term. For example----
    Secretary Mineta. The answer is yes.
    Senator Wyden. That is what I wanted to hear. That is what 
we are interested in working with you on.
    The second question I wanted to explore with you, Mr. 
Secretary, is the matter of general aviation. It is very clear 
that there are significant vulnerabilities there. They are 
described in the news media. Apparently in many respects you 
can just put your money down and walk on out, and nobody really 
knows much of anything with respect to security risk there. In 
your view, how serious are the problems there, and what is it 
that again you want to do with a new approach to change it?
    Secretary Mineta. Well, as you know, general aviation is 
not just someone getting in a Piper Cub and deciding to fly 
around. It also includes corporate aircraft and others. It 
includes, say, a wide range of different aircraft. They were 
not allowed to fly until, I believe it was on September 14th 
that we allowed general aviation IFR flying--instrument flight 
rules, which requires a filing of a flight plan. It also 
requires an airplane to have a transponder. We allowed IFR 
flying, I believe, to proceed on Friday.
    General aviation VFR flying was kept on the ground until 
early today, and yesterday we forwarded our recommendations on 
general aviation with VFR flying to the National Security 
Council. The recommendations we made were modified by the 
National Security Council. There are some 30 airports around 
the country, major airports in which they will not be able to 
fly. There are a number of general aviation types that will not 
be able to operate, and so there have been a number of 
restrictions that have been placed on the general aviation 
community by the National Security Council in their condition 
to approve what we recommended to them.
    Senator Wyden. Let me ask you just one last question, if I 
might, because I do think on general aviation and cargo, I 
mean, Federal Express pilots, for example, are asking for 
changes in rules with respect to cockpit doors, and I hope that 
again this is something that you will stay with.
    I want to wrap up by asking you a question about 
technology. We have heard, for example, that there are new 
technologies out there that could create a sort of auto pilot 
function that would make it essentially impossible to fly into 
a building. I would like to know whether you think that that is 
credible, whether those technologies are credible, and that we 
should be working with you to promote them.
    Secretary Mineta. Well, this is an area I think in which I 
would be very reluctant to see us legislating certain 
solutions. There have been a lot of suggestions as to how the 
security of the airplane might be accomplished. One of the 
things that happened in this instance, the first thing they 
were ordered to do, or if the hijackers, the terrorists took 
over the airplane, the first thing they did was turn off the 
transponder. The transponder gives us speed, altitude, and the 
identity of the aircraft.
    The question was, should we make it impossible for the 
pilots to turn off the transponder, or maybe when it rotates 
off the runway it becomes an auto switch that cannot be turned 
off. The problem is that as I understand it, if there is an 
electrical malfunction, they want to be able to turn off the 
transponder if that is the source of where the malfunction 
might be so that it does not affect the rest of the aircraft. 
You could also do that by pulling the circuit breaker.
    But in any event, these are technological items that are 
being looked at. There is just a whole array of items, 
technologically. Kevlar doors. There are doors in which, when 
you close it, pins go into the bulkhead. A lot of pilots say 
one of the reasons that they want to bust out the door is to 
deal with fires. In the case of doors, there is a ventilation 
panel not so that they can breathe in there--so that if there 
is sudden decompression there is an ability of the cockpit to 
maintain structural integrity.
    Now, there are maybe ways to provide decompression panels 
in the bulkhead between the cockpit and the cabin of the 
aircraft, but that can have drawbacks. I suppose somebody could 
go in with gas and put it up against the vent, but I cannot 
understand why anyone would do that, knock out the pilots, 
because the plane would go down.
    In any event, we are looking at all of the requirements 
that might be imposed, and that is why our team is an internal 
team, with input from the chief engineer on the 777, also a 
person who was an active pilot in the airlines, so we have got 
people who are advising our FAA people who are trying to 
identify new rules and regulations, and they are trying to 
figure out those rules and regulations as they go along, not 
waiting till October 1, so that I can say, okay, go. I am 
seeing those every day in terms of recommendations as to what 
direction they are going, and they are getting practical, real 
world, real life opinions from people who have to deal with 
these situations.
    So sure, ``too little, too late,'' maybe, but we are 
working at this, the people in the Department and people in the 
private sector, trying to figure this out as quickly as 
possible.
    The Chairman. Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman. Mr. Secretary, 
I am pleased that you said we are going to address aviation 
security, but we are not going to just fight the last war. You 
are also looking at securing our waterways, our mass transit 
systems, our buses, our Amtrak trains, which are now serving so 
many of the traveling public, but today we are talking about 
aviation security.
    Ms. Garvey, the Secretary mentioned my legislation that was 
passed by Congress last year, that would require better 
training and education for screeners. You just said that those 
rules probably will not come out because of other things you 
would like to add. However, the traveling public is still 
working within the system that we have. What are you doing to 
assure that there is better supervision and better screening at 
the airports of our country?
    Ms. Garvey. Let me clarify the first point. The rules may 
still come out. We want to look at them very carefully. I got a 
very helpful call yesterday from OMB, from the fellow who heads 
the Rules Office, and he said, look, I want you to know we have 
got a team ready. We ought to all take a look at those rules, 
but we will make changes, and as the task forces or other 
recommendations are coming forward, we have got a team ready to 
spring right into action so we can get whatever needs to be 
done, done quickly.
    In the short term, you are absolutely right, even if we put 
the increased training in place, that is going to take a little 
hit of time just to train people and get them up to speed. In 
the short term, right now, just about all the major airports 
and most of the midsize airports as well I think really, nearly 
all of the airports are using local law enforcement officials, 
state police in some cases, county officials, National Guard. 
We have supplemented, in any case, where the airport has asked, 
with some Federal forces at those local screening points and 
checkpoints.
    The Secretary had talked with us the other day about even 
expanding the use of AIP money, and I think this gets a little 
bit to Senator Wyden's question as well, that in the short 
term, you can use those AIP moneys perhaps to reinforce and to 
reimburse some of those local officials, so in the short term 
you can beef up those security checkpoints.
    In addition, in a conference call on Monday, we asked all 
of the major airports to pull together at each one of the 
airports the station managers and the security companies. Again 
the security companies are hired by the airlines, but at the 
local level bring together the security companies, the station 
managers, go through the guidance, make sure that if there are 
questions still remaining, get those answered, so we are trying 
to work at not just the national level, but from the local 
level as well.
    Senator Hutchison. Will the FAA monitor those State and 
local efforts at the major airports of our country to assure 
that there is more being done at the screening than has been 
done before?
    Ms. Garvey. We have directed our security officials to do 
exactly that. I have to also, though, be realistic and say that 
right now there are a number of other security issues, so they 
are doing a lot of things. I spoke with the Inspector General 
the other day about using some of his forces as well, and so we 
will do that, and we will draw on other Federal offices to help 
us in that.
    Senator Hutchison. Okay. Let me ask you this. When we are 
talking about aviation security, we are talking about airport, 
and we are talking about aircraft. We are talking about 
federalizing the screening process and the air marshall system, 
but there is also the patrolling function at airports, 
especially outside the screening area. What is your 
recommendation about a Federal role to take over all airport 
security, or leave that to the local law enforcement officials 
with better coordination?
    Ms. Garvey. That is exactly the issue. That is exactly one 
of the points that the rapid response teams are discussing 
today, and very early this morning I met with some of them, and 
one of the points was something you had raised earlier. Might 
it make more sense, for example, to combine these screeners 
with the air marshals, with the other forces at the airport, 
and combine that into one security unit so that you have a 
sense of career progression, for one thing, and you have a much 
more robust force. I think that is something we have to look at 
very, very carefully, and I know that is going to be one of the 
considerations that will probably be forwarded to the 
Secretary. I think that is something that is well worth looking 
at, because it may not be enough.
    We are focused on screeners. We started the discussion 
around screeners, but it may be important to go a little 
further. I am anxious to hear from some of the experts, airport 
officials as well on that.
    Senator Hutchison. Well, of course, we want to put that in 
a bill that would be going through Congress this week and next 
week, and I think a career track could really enhance the 
quality and the experience level of the screeners and also, of 
course, the air marshals.
    Also, Ms. Garvey, we have been talking about the aviation 
system in our country. Are you considering it to be a 
requirement of any foreign carrier that would have access to 
our airports to require an air marshal, to provide this space, 
and to allow an armed police officer, if we request it, to be 
given a seat on their aircraft?
    Ms. Garvey. Yes, we are. Yes, we are, Senator.
    Senator Hutchison. Let me just ask----
    Ms. Garvey. Let me just add one other note to that. In the 
past, our whole focus with the air marshals has been much more 
international, because that has been a concern, so there have 
been discussions and similar arrangements with foreign carriers 
in the past.
    Senator Hutchison. Before giving them the ability to land, 
we ought to set certain requirements. My time is about up, but 
I just want to say one other thing. I have talked to all the 
airline CEO's with Senator Rockefeller, all of you have as 
well, but I do not want to forget the airports, and their role 
in this, their concerns, their loss of revenue, as we are 
talking about shoring up the aviation system, because it is so 
important to our economy. We must also include the role of the 
airports in that security and in the financial health of the 
industry.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Administrator 
Garvey, I want to thank you for last Thursday afternoon's 
meeting with so many people in this entire region concerned 
about Reagan National Airport. I think you are well aware that 
this is a concern to our area.
    Every Member of this Committee understands and shares 
security concerns. I think you recognize that there are over 
10,000 people who now can apply for unemployment benefits just 
from Reagan National Airport, and the multiplier effect is five 
to seven times greater, as far as jobs lost, or the economic 
implications in this region.
    I would also add that while everybody looks at it as Reagan 
National Airport, it is really managed with Dulles Airport, and 
to the extent that Reagan National Airport is closed, that has 
a direct impact on Dulles. It is part of Dulles Airport in the 
way the Metropolitan Washington Airports Authority handles not 
just paying off the billions of dollars in bonds for the 
renovations a few years ago, but also for the even more 
significant improvements being made at Dulles Airport.
    That needs to be considered, and we know that millions of 
dollars are being lost every single day. As Secretary Mineta 
mentioned, there is a particular airline that may go under. We 
all know the trouble they were in, based upon your statements, 
and obviously the Chairman's as well.
    I would ask you, Secretary Mineta, whether you have an 
update for us as to when a decision will be made by the FAA and 
the Department of Defense and the Department of Transportation 
and the Secret Service regarding this airport, Reagan National 
Airport? Do you have any idea when you will all make a 
decision?
    Secretary Mineta. I cannot give you a date.
    Senator Allen. Do you have a range?
    Secretary Mineta. We are working every day with the 
National Security Council on this issue, to come up with 
alternatives. Remember, one of the conditions for reopening 
Reagan National Airport is that there would only be approaches 
from the south and departures to the south, which is fine to 
say, but there are laws of airlift physics. You cannot fly as 
safely if the wind is not coming into you, so something in the 
range of 35 percent of the flights that had previously been 
operational at DCA would be able to continue on to the future.
    So there are requirements there that from a practical 
airport, airline operational perspective, that we are working 
every day with the National Security Council about, what about 
this, what about this, but I cannot give you a date as to when 
an approval might be coming.
    Let me turn to Administrator Garvey and see if she has got 
a crystal ball.
    Ms. Garvey. I wish I did have a crystal ball. I can tell 
you that yesterday the air traffic staff was with the NSC all 
day long working on what the options are, and I really do 
believe that they want to see a resolution on this as quickly 
as possible, but as Senator McCain said, we want to make sure 
we are addressing all of the security issues as well.
    I do understand they brought in some additional outside 
threat experts and I think that is welcome. We can use all the 
help, of course, that we can get.
    Secretary Mineta. One of the suggestions I had made is we 
put an air marshal on every departure out of DCA, and every 
arrival coming into DCA. Now, that alone involves something 
like 830 flights. That is a lot of air marshals just to tie up 
for one airport.
    Senator Allen. That is with the reduced demand for air 
travel, and some of the flights that have been canceled.
    Secretary Mineta. But every day we have something like 
5,000 air carrier operations. That is not including general 
aviation. That is a lot of air marshals.
    Senator Allen. If some of those ideas are what it will 
take, I think there are many of us who are saying that that is 
alright.
    Actually, what I would like to see, along with the general 
public, is some technical or operational case made of why you 
would distinguish Reagan National Airport compared to other 
urban center airports, such as Logan or La Guardia. You need 
some factual basis why there is a security threat.
    Secretary Mineta. Let me turn to Deputy Secretary Jackson.
    Mr. Jackson. Senator, I would just volunteer that we 
understand the importance of this issue, and particularly your 
ability to bring together the community in the Northern 
Virginia area to focus on these issues is most welcome, and we 
would volunteer to meet with you on an ongoing basis as these 
plans evolve, and discuss options with you. We have tried to 
stay in touch with the head of the airport authority as well in 
this regard, but I would personally be happy to make certain 
that we stay very closely in touch with you as we explore these 
options.
    Senator Allen. When you talk to the Secret Service folks, 
do you talk about the concept in light of what you just said--
the concept of a phased-in approach that was advanced at that 
meeting Tuesday afternoon?
    Secretary Mineta. Yes, sir, that has been an integral part 
of the discussion.
    Senator Allen. That would be a good first step, if you can 
get them to agree to it.
    Secretary Mineta. The question about flights within 500 
miles, or 300 miles, and all of those options have been talked 
about in terms of expanding operations incrementally so that 
the shuttle might be the first to be reinstituted. But we 
recognize that this is not just a Reagan National Airport 
issue, because if you do not operate out of here, you do not 
operate out of Martinsburg, West Virginia, you do not operate 
in Charlotte, and you do not operate in a lot of places, so it 
is not just about National. It is national in scope; it is more 
than just Reagan National Airport.
    Senator Allen. My time is up. Thank you, Mr. Chairman. I 
will have further questions later----
    The Chairman. Senator Inouye.
    Senator Inouye. Mr. Secretary, I would like to ask a few 
parochial type of questions. The State of Hawaii is a rather 
unique State. It is separated from the mainland by an ocean. 
The State itself is made up of seven inhabited islands. When 
your order was issued to ground all aircraft, several things 
happened that would not happen elsewhere. For example, we were 
not able to carry two donated kidneys for kidney transplants 
from one island to another. There were other, similar type 
emergencies that we were not able to cope with. Would your 
agency favor any sort of special waiver for the State of 
Hawaii?
    Secretary Mineta. Well, I think in all instances now, like 
that, would be able to proceed today, even after we had the 
order to have no aircraft operations, we must have granted, I 
would guess a couple of hundred exceptions on Wednesday, 
Thursday, Friday, until September 14th when we opened up 
general aviation IFR.
    We had requests for exceptions, and we looked at those on a 
one-by-one basis, and we did grant them.
    Today, I think that most operations are allowed, except for 
specific general aviation operations as they relate to flight 
schools, VFR flight training operations, towing operations, 
site-seeing flight operations, traffic watch flight operations, 
airship and blimp operations, news reporting operations. In the 
30 major airport areas, those aircraft are excluded, and I 
think now most are now able to operate.
    Let me turn to Administrator Garvey, because I think those 
are the only exclusions as relates to class B air space.
    Ms. Garvey. Senator, the Secretary is right, most of the 
general aviation restrictions have been limited, or lifted, 
many have been lifted, but I would underscore that in the case 
of a medical emergency, even last week, waivers were given, so 
I apologize if you made a request and it was not honored. It 
absolutely should be. Medical emergencies should be absolutely 
honored. There were some specific issues in the State of 
Alaska, that is also dependent on aviation, too, that we had to 
deal with in those early hours and first few days.
    Senator Inouye. On the VFR operators, there is some 
uncertainty as to certain types of activities. We have been 
told, for example, that the scenic tour helicopters are still 
grounded. Why?
    Ms. Garvey. Senator, we are working very closely with the 
NSC as we sort of phase in the elements, and that was one that 
there was still a level of discomfort about it. There have been 
some difficulties, I think, from their perspective.
    But again, we are working this every day. That list of 
restrictions was put in place last night, so many of the other 
operations that people have been clamoring for will be able to 
resume, or did resume as of last night. We will continue to 
work those issues with the Security Council, continue to work 
those issues among the aviation communities and just will keep 
in very close touch with your office to make sure that you know 
as those restrictions are lifted.
    Senator Inouye. I realize that these matters are not of 
great concern when you look at the problems of this Nation, but 
I hope you will also look at hang gliders. I cannot see that 
national security has concerns for hang gliders, but that is 
restricted, is it not?
    Ms. Garvey. That one I am going to have to go back and 
check. I actually thought that category was allowed.
    Secretary Mineta. I think that would be permitted outside 
of what we call the enhanced class B air space, so if someone 
is over in Kona, wanting to do ultralights and hang gliding----
    Senator Inouye. The only place you can do hang gliding as 
of this moment I believe is Nehi, Lanai, and Molokai.
    Secretary Mineta. I would say that under what we have 
authorized and given the fact that it is not class B air space, 
it would be allowed.
    Senator Inouye. I am grateful if you will look at all these 
little problems for us.
    Secretary Mineta. I will look at that specifically and get 
back to you, sir.
    Senator Inouye. Thank you, sir.
    The Chairman. Thank you. Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman. I thank the panel 
for being with us.
    Senator Kerry and I were talking early on, when the hearing 
first started, that while today we concentrate on aviation 
problems, you know, if we were in a terrorist group it would 
probably be the last area that we would go to for a second hit 
on this country, and we have been looking at other ways to 
create havoc on the American public, and I think that other 
areas of transportation obviously also has to be considered, 
railroads, for instance, which the security of getting on a 
train is almost nonexistent, as an example, or passenger ships 
that have thousands of passengers that leave every day from 
ports in Miami and New Orleans, and on the West Coast as well.
    These are all areas that I think under the umbrella of the 
Department of Transportation we are going to have to take a 
look at, and with the Chairman's permission, the Surface 
Transportation Subcommittee is going to have a hearing on 
security at railroads in particular, and also on ships, which 
carry thousands of people.
    I will tell you what I am for. I am for the Government 
doing the inspections at the airports, inspection of the 
passengers when they come on, doing the security on the tarmac 
and around the airport. We should not be concentrating on how 
cheap we can do it, but how good we can do it, and not only do 
I think it gives us a better result, it goes a long way to 
bringing about the confidence that the American people need to 
regain in order to start flying again, so I think the 
Government should do it.
    I think we should consider arming the pilots, not 
necessarily with pistols, but certainly at least with stun guns 
that are capable of incapacitating a potential hijacker.
    I think we ought to have sky marshals on planes that are 
going from vulnerable airports, potentially vulnerable, that 
also are at least armed with stun guns to disable hijackers if 
one should happen to try and take over a plane.
    And finally, I think we ought to secure the cockpit. I 
mean, whether it is with metal or steel or titanium--I mean, we 
make tennis rackets and golf clubs out of titanium. Certainly 
we can make a cockpit door out of something that cannot be 
pried open with a fork or something even less strong as a fork.
    We talked about what could have been done. Had we had a 
secure cockpit door, the chances are those hijackers could 
never have gotten into the cockpit, and I think the science 
today is certainly capable of providing us a secure cockpit 
door that can be opened from the inside by the pilots when they 
have to get out, but it cannot be opened by passengers.
    Does that put the passengers at risk? Maybe so, but at 
least the pilot could get the plane down, and they would not 
have the ability to crash it into the World Trade Center.
    So I think those are things that I am for, and you know, 
talking about the security, I have always been sort of 
mystified, and maybe you can give me just a rationale, and I am 
not asking this question to be a Monday morning quarterback, 
but when we have passengers going through all of the security 
to make sure you do not have a penknife or a pocket knife or a 
gun, or the tool that Senator Nelson pointed out, it is 
interesting that after you get on the airplane, certainly if 
you are sitting up front in first class, when they serve you 
the meal, they give you the napkin, and wrapped in the napkin 
is a metal fork, a metal spoon, and a metal knife. We actually 
give passengers knives on airplanes. What is the rationale?
    Why do I have a knife? You just told me I could not bring 
one on the plane, and then when I get on the plane, they give 
me one.
    Secretary Mineta. Senator Breaux, have you been on a plane 
since?
    Senator Breaux. Not since Monday, but I mean, up until that 
time.
    Secretary Mineta. You will not get one.
    Senator Breaux. I understand, but for years we allowed 
that. What was the rationale for that? It is our fault. It is 
your fault. It is all of our fault. We gave knives to 
passengers.
    Secretary Mineta. You will not get a knife. I do not know 
how I am going to eat that steak, or whatever, but there ain't 
going to be a knife there.
    Senator Breaux. The other point is, in looking at all of 
these options, there is an article, Mr. Jackson, and maybe you 
could answer this, too, on the front page of USA Today on one 
of the sections, I guess the money section, that says an 
official at the General Services Administration says that the 
very task force you all have set up is illegal, because it does 
not comply with the Federal Advisory Committee Act of being 
diverse in the makeup of the Committee. It says that the 
Federal Advisory Committee Act requires that membership of an 
advisory committee be fairly balanced in terms of the points of 
views represented. Is that a problem?
    Secretary Mineta. I do not know. I'm not sure why GSA would 
even get into that, for one thing.
    Senator Breaux. The guy that says this is Jim Dean of the 
General Services Administration. His job is to ensure that 
Government advisory groups comply with Federal laws.
    I am glad you have got it. I support what you are doing, 
but I am concerned.
    Secretary Mineta. We checked with our general counsel. This 
does not come under FACA, the Federal Advisory Committee Act. 
That is why this is an internal employee rapid response team, 
with our ability to talk to experts from the private sector, 
and we cleared this to make sure that we did not have a FACA 
problem.
    Senator Breaux. GSA says you do.
    Secretary Mineta. I hope I made that clear.
    Senator Breaux. I support you on this. I think you ought to 
have the advisory committee that can give you the advice that 
is helpful to you, but General Services is challenging you on 
that, and I hope that we take steps.
    Secretary Mineta. They had better stick to renting 
buildings.
    Senator Breaux. Mr. Jackson, do you have a comment on that?
    Mr. Jackson. The Secretary is right. We have worked with 
our counsel, and we are certain we are operating effectively, 
and we will double back with the individual you mentioned.
    Senator Breaux. If you need help from Congress, I am sure 
there will be people willing to try and make sure that DOT is 
all right on that particular issue.
    Mr. Jackson. Thank you. We will obey the law and get the 
job done fast.
    Senator Breaux. Thank you all. Thank you very much.
    The Chairman. In deference to the remaining Members of the 
Committee, Secretary Mineta has to leave at 12:00, so let us 
try and shorten the questions.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, Madam Administrator, I certainly embrace the 
recommendations that have been made here, and on the basis of 
what I learned yesterday, I want to give you a couple more 
recommendations.
    At both Orlando and Tampa, with the aviation directors, 
they both made the case to me that we should reopen curbside 
check-in, because they felt that it was as safe as the at-the-
counter check-in, because those employees, the sky caps at the 
curbside, go through all of the security checks and the 
training with regard to the bags as much as do the counter 
personnel of the airlines. That was what was stated to me 
yesterday, and that was at two major airports. I wish you would 
consider that.
    Second, the question of airports being put into different 
categories, category X, which Orlando is, Tampa is a category 
1, Fort Lauderdale, that I mentioned about the weapons coming 
through, is a category 1.
    If, by virtue of an administrative decision about a 
different categorization of the airport, that there is a 
lessened security, which the implication to me yesterday was 
that there was--and I will give you an example. Anybody going 
to the ramp in Orlando had a badge that had a computer chip, 
that in order to get access from the terminal out to the ramp, 
for example, the baggage handlers, that badge was swiped, and 
up came the employee's image, their picture on the computer 
screen. That was not the case in the Tampa airport, which was 
the category 1.
    So if there is a difference on the security, particularly 
with regard to, for example, catering personnel--Monday night 
on the flight to Florida, the flight attendant said to me, 
look, I have been here 25 years with this airline. They have 
done checks on me completely. What about the catering employee 
that has been hired for 2 weeks that has access to the 
airplane.
    And so the question of the security there, and then 
furthermore, I would respectfully ask that the Committee and 
you all consider that as we federalize the security people that 
allowed that knife to come through that I showed you last 
Friday, and I can give you the details--and by the way, it did 
not happen just in one terminal. It happened in several 
terminals. They were ticketed. The law enforcement people of 
the Sheriff's Office were ticketed passengers. They did not 
board the plane. They did it at several checkpoints.
    All of the security failed Friday, after the Tuesday 
disaster. Since then, however, things have gotten tighter, but 
the question is, who ought to perform that function? What we 
have heard here today is that it should not be the airlines 
contracting for that function, that in order to get to a 
greater security degree--everybody here has talked about 
federalizing it. Well, what about the aviation authorities 
themselves, who has a security force in place with high 
standards that they monitor from a central control room? What 
about possibly them doing it, instead of federalizing it?
    The idea is to get a greater degree of security to catch 
those kind of lethal items I showed you a few minutes ago.
    Secretary Mineta. There is no question about that. I cited 
an example to Administrator Garvey of an airport where the 
crews did not go through security on Sunday. I said, tell your 
FSM's, your Federal security managers to be thorough. You see, 
one of the concerns I had as we were implementing this is, just 
as when I was chairing the aviation Subcommittee in the House, 
we had airplane mechanics who were ``pencil-whipping'' as to 
whether or not they checked something on an aircraft. They go 
right down the line, checking yeah, yeah, yeah, yeah.
    I said to Administrator Garvey, make sure, because your 
FSM's are good friends of airport directors, that they do not 
just sit there and pencil-whip, that those airports were doing 
certain things, that they were adhering to the new security 
measures. This is because I have this example of the person who 
phoned me and said, ``Norm, I never went through airport 
security, yet it is a requirement that everybody goes through 
airport security.'' So yes, there are those things where we 
have got to ``plug the hole'' to make sure that our own people 
are adhering to these standards, and you know, we are trying to 
monitor those and stay on top of them as much as possible.
    On the earlier example, this is what Tampa does. Does Tampa 
also have a finger print machine, or a retina examination 
procedure? No, because each airport determines what they are 
going to use as a screening device, following standards that we 
establish. The question of how those standards are fulfilled at 
each airport is the responsibility of each airport, and then it 
is the responsibility of our Federal security manager to make 
sure that the airport is adhering to those standards.
    Security standards are uniform across the board, except for 
maybe general aviation airports, and even that has become a 
concern to me. If I go somewhere and get on a charter, am I 
going through security? Are my bags checked? We are looking at 
that now. Maybe I could have Administrator Garvey expand on 
that whole issue about security by categories of airport.
    Again, catering personnel as you mentioned. Absolutely, 
there are a lot of people on the ramp under the new stringent 
measures, that have got to be properly badged, and if they are 
not badged, they ain't on the ramp anymore. Again, those are 
the rules and regs we set out there. Is anyone observing them? 
Well, we want to make sure that our Federal security managers 
are on top of those kinds of things so that you do not come to 
me and say, well, guess what happened, here is a leatherman 
that got through, as you did here.
    I carry a leatherman. I do not any more, but I used to, in 
my briefcase. I had one all the time.
    Ms. Garvey. Three very quick points. One is, the Secretary 
is right. We have basic standards, and airports can add to them 
if they like. We have always felt that category X airports were 
higher risk airports, Therefore, we have a security manager at 
those airports, but you are right, I heard from Fort Lauderdale 
yesterday who asked whether we can consider putting a security 
manager there. We are looking at that, because we do believe 
that is important.
    The issue of the caterers--anyone who is in the secure area 
must have an approved badge. We are asking--more than asking, 
we are requiring airports and airlines to validate those 
badges. I will not get into a lot of detail because of the 
security implications, but let me simply say they are 
validating those badges. If you have access to the secure area, 
you must have a badge that has been validated by the airline or 
the airport.
    The Chairman. Very good. Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Mr. Secretary, Madam Administrator, I know you both really 
well. I guess I had one strong request that I wanted you to 
keep in your mind. You do not have to write it down, because it 
is not a specific improvement, because I agree with so many of 
them that have come out, and I have talked to you about that. 
It is an attitude and a mind set that I think Senator Wyden is 
trying to get at.
    I want to know when you are sitting across from the 
President, when you are sitting across from the Vice President, 
that there is only one thing in your head, what happened on the 
11th, and how to make sure it does not--I do not want you to 
think about, well, what will it cost, and Norm, I know you well 
enough that when you talk to Senator Allen and said well, one 
idea is to put a marshal on every flight going in and out of 
Reagan National, you kind of rolled your eyes, because I know 
you, and you sort of said, gee, that is 800 flight marshals, 
and please, we voted--I never saw a vote as strong, $40 billion 
as the first vote, putting all other concerns aside.
    How much of that money is going to go to make our airports 
safe? I was voting for it believing that a lot of it would do 
that. It will cost $2 billion to put an air marshal on every 
plane. That is what we have calculated. Maybe it is three, 
maybe it is four, and I believe we are going to see fewer 
flights. I think Senator Allen is right on that. Once this 
thing all gets around, we are going to see fewer flights, and I 
think that is okay as long as our airlines can be healthy and 
run fewer flights, and run them full, but all I want to know 
from you--and I am not even asking the question.
    I am asking you to think about this, that those people will 
have died in vain if some bureaucratic mentality takes over, or 
some budgetary consideration lets someone from OMB yell about 
it, but I want you both to be there saying, I have calculated 
this, I know it is a lot, but I cannot look the American people 
in the eye unless I know that it is going to take me X billion 
a year, and I am going to spend it right, and here is how I am 
going to do it. I need to know that you will do that.
    I want to get into something--I want to talk about Reagan 
for just a second, because I hear the frustration of my 
Chairman because his people are left in the lurch, and that is 
an economic nightmare, and I understand it, and I am wondering 
whether you have looked at ways to put some of those shorter 
hops out of other airfields around this area. I will tell you 
the reason.
    I do not think you need to be a genius to know what these 
terrorists did to us. They hit an economic symbol in the World 
Trade Center, and Jay, you and I, you remember, and John, where 
we were when we watched it happen. They hit a military symbol 
at the Pentagon, and I believe they wanted to hit a political 
symbol. I could be wrong, I do not know. I am thinking that may 
be it, so I understand why there is a great concern around the 
NSC for air traffic right over our heads. I understand that. 
Frankly, I am glad they have control.
    But I differ a little bit with my esteemed Chairman on the 
point, because I think you are under a lot of pressures that 
they are not under, frankly, but I would love to see us do 
something pretty soon to save the people who are relying on 
Reagan National, and I am wondering if you have looked at how 
to get some more gates up and running for those people who rely 
on Reagan National. Have you looked at that issue?
    Secretary Mineta. Well, first of all, US Airways has, I 
believe, transferred seven shuttle flights from National to 
Dulles. Part of the problem is, we do not have enough gates 
right now at Dulles, but airlines are looking at what 
alternatives they have.
    Senator Boxer. Are we helping them? Are we helping them 
look? In trying to figure out how to do that?
    Secretary Mineta. Absolutely, in terms of air space 
allocation, in terms of gate space allocation. We're not in the 
command and control system where we can say, Delta, move over 
here.
    Senator Boxer. I am glad you are helping.
    Secretary Mineta. But whatever their needs are, we are 
helping. This is what the President said to me.
    Senator Boxer. I only have time for just one more. I want 
to get to one other area, then I will stop. I just feel so bad 
for those people who rely on--it is not my people, but it is a 
lot of people, and so I hope we can help.
    Last question. I want to deal with the cockpit issue, 
because I feel the frustration, because--but I will not get 
into the past. Right now, today, while we wait, figuring out if 
we can use a type of door, et cetera, we could put a heavy 
bolt. It will not cost that much, and yet I read, Mr. 
Secretary, that you did not want to put out any rule, because 
you are waiting to hear, and so on, and I would encourage you, 
we need to take action today to secure that cockpit, so I hope 
you will think about a cheap and simple way, a heavy bolt door, 
and whether the bolt will cost $1,000 or $5,000 or $500 is 
something I do not know. That ought to be coming down from you, 
and I would like you to comment on that.
    And last, do we have video cameras in the cockpit that give 
the pilot a chance to look at what is happening in the cabin, 
and if not, maybe this is an inexpensive way to do something 
tomorrow to buy an inexpensive type of machine that if somebody 
in the--if there was a disturbance, or somebody took out that 
camera, the pilots would have a sense that something was wrong. 
Can you comment on those rather inexpensive ways to act now, 
rather than wait for your commission and your committee?
    Secretary Mineta. It is not a commission. It is not a 
committee. These are FAA employees. I do not know what I have 
to do to explain this better.
    Senator Boxer. It is not funny, because I think we can----
    Secretary Mineta. Of course it is not funny. I am the one 
who ordered these planes down.
    Senator Boxer. I was not talking about you. I am talking 
about the people out there.
    Secretary Mineta. In terms of the cockpit and the video 
camera, again, we are looking at every plausible alternative, 
and we are not the only ones involved. Airlines are involved in 
this process, airline pilots.
    Senator Boxer. Have you looked at a video camera and a 
bolt, that you could order?
    Secretary Mineta. A video camera used to be in the American 
Airlines cockpit.
    Senator Boxer. Looking at the passengers.
    Secretary Mineta. They had their eye on the runway.
    Senator Boxer. I am talking about--let me just repeat, and 
maybe I should ask Mr. Jackson, have you looked at--or Jane 
Garvey, doing this right away, a heavy bolt to go on the door, 
and a camera in the cockpit that looks out at the passengers 
and at what is happening in the cabins?
    Ms. Garvey. The bolt is one of the issues the pilot and 
flight attendants have suggested, and that is under 
consideration. Frankly, FAA is looking at what the logistics 
are, how to do it and so forth.
    Secretary Mineta. How long would it take to get a type 
certificate changed to do that, and to retrofit?
    Ms. Garvey. That is what we have to do, determine just that 
thing.
    Secretary Mineta. One of the things we are doing is saying 
that, whatever the airlines do out of that money that you 
appropriated last week, those are eligible expenses for 
reimbursement.
    Senator Boxer. Well, that is exactly what we wanted.
    Secretary Mineta. Well, you got it. We are just waiting 
right now for someone, whether it be an airline, or for the 
Rapid Response Team--as I said, I am not waiting for October 1 
to come with these actions. I am waiting for----
    Senator Boxer. And the answer, have you considered a camera 
that looks out at the passengers?
    Secretary Mineta. Yes.
    Senator Boxer. Thank you. I am sorry I took so much time.
    The Chairman. That is all right. Senator Kerry.
    Senator Kerry. Thank you very much.
    Mr. Secretary and Madam Administrator, let me begin by 
complimenting you, and I think the decision you made was an 
extraordinary decision. It was the right decision. You executed 
it effectively, and there is some evidence that there may well 
have been other mischief that was diverted because of it, and 
you deserve our thanks for that, and I wish you would convey, 
Madam Administrator, to all of the controllers and those in the 
system how proud we are of the job that they did. It really 
showed a discipline and a capacity, I think, that was 
exceptional.
    I think for better or worse, this kind of situation 
obviously has a lot of people afraid. There is even a little 
panic in the air, and there should not be. There is no question 
in my mind it is safer today to fly in the United States of 
America than it has been in months, if not years, and clearly 
the events of the 11th and the steps you have taken since have 
heightened security levels. I do not think any American should 
fear in the current construct getting into an airplane. I just 
do not believe that.
    Terrorists always seek out the next weakness, and they 
will, and the greater concern for the United States is going to 
be thinking about the things we have not thought about. It is a 
terrible way, fighting the last war, fighting the last 
campaigns, it is always the next one that comes to bite you. To 
that end, I think you have no choice but to federalize, and 
there are ways we can clearly make it safer even as I say, I 
believe it is safe to fly today, and I absolutely believe that.
    But we can make it foolproof. We can make it safer. We 
certainly can guarantee that never again will an aircraft be 
used as a weapon, directable into a building, and the doors are 
obviously one component of that, and I understand and 
appreciate the certification issues and the need to do that 
correctly, it can be done, I think, relatively fast, and with 
respect to Reagan Airport, you know, one of the strongest 
responses to terrorism is defiance, and I think we need as an 
act of defiance not to consider shutting Reagan Airport.
    I also think, as a matter of safety, I agree with what 
Senator McCain said. If there is an issue of safety, I am with 
Senator McCain, as we all would be, but most of the pilots 
flying those aircraft, the aircraft in the United States are 
ex-military pilots, United States Air Force, U.S. Navy, and the 
concept that you have a pilot risk is inconceivable. There is 
not a pilot in America who has not said they would have to kill 
me, tie me up, as they did, in order to take control of the 
plane.
    If you do not have access to the cockpit, you cannot make 
it a weapon, and if the pilots controlled that, it may be tough 
as a matter of policy, but we have to be tough. If a terrorist 
knows there is no access, no terror in the cabin is going to 
open that door, then they will start thinking about different 
things. Does that mean the plane could go down? Yes, it does, 
but so could the restaurant explode, and so could this Capitol 
under certain circumstances, and we all know that.
    The next thing we would say about Reagan is that the 
screening, if you combine the lack of access to cockpit with a 
significantly augmented capacity and screening, and even 
marshals, whether it be on every flight or not, to be 
determined, then the North River route fears that we all 
understand really disappear, and there is no reason to panic 
and not recognize our capacity to provide security. You could 
even have a preferred pilot system. You could have all the 
pilots who are eligible to fly into Washington precleared.
    I mean, there are all kinds of ways to approach this. Even 
on charters, fixed-base operators become part of the system. 
Fixed-base operators might even be considered to be licensed, 
certainly clearance checks. They become part of the process. I 
do not know many charters in America where the people who get 
on the charter do not know each other, and where in many cases 
they are not U.S. companies that are preclearable and so forth 
and so on. All of this is manageable, if we kind of stay with 
common sense and thoughtfulness.
    Now, with respect to the real issue here, airport security 
and the clearance issue, it is true, is it not, that the 
companies that currently are utilized bid, do they not, and the 
bid process encourages low bid, does it not?
    Secretary Mineta. It does, that is correct.
    Senator Kerry. So if you have a low bid, bid process, which 
is hiring minimum wage employees with minimal training, we are 
not providing the kind of screening, are we, that we have 
potentially?
    Secretary Mineta. We recognize that as well.
    Senator Kerry. Having recognized that, and recognizing that 
it is also a law enforcement issue, I mean, this is not just a 
matter of screening somebody. If an airport has information 
about potential people on a watch list, or certain kinds of 
people or screening, that is an FBI-shared information. It is a 
CIA-shared information. It is a process of intelligence, which 
is perhaps the single biggest gap in the United States today 
with respect to any war on terrorism, and I do not know how one 
can contemplate an adequate screening process that allows us to 
get on with the business of moving the country forward 
economically by making the airways safe without having a 
standardized system with accountability, with capacity to share 
information between law enforcement agencies, with procedures 
that apply at every single airport, and with accountability at 
their chain of command that gives the American people 
confidence. Now, is that not a fair statement of the benefits 
of federalizing?
    Secretary Mineta. It is, sir, and those are, in terms of 
standardization, levels of training, all of these issues are 
paramount with us in terms of standards to be met as a 
screener.
    Senator Kerry. And a final question. Is it not fair to say 
that if you have that level of screening, and you have a 
cockpit impregnability, a plane cannot become a weapon again?
    Secretary Mineta. I would like to think so.
    The Chairman. Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. I thank all 
three of you very much.
    I agree that flying is safer than it has ever been. I also 
agree that, in a post-last Tuesday psychology, this country and 
its people and all of us to some extent focus exactly on what 
happened at the World Trade Center and tend not to think about 
all the other things that might happen in the way of terrorist 
attacks.
    I mean, I happen to believe that one of the, again, silver 
linings, if there were any of last Tuesday, were the two great 
unknowns, one hidden and one simply ignored. That is, aviation 
security, aviation as an important factor in our national 
economy, financial viability on the one hand and intelligence, 
particularly human intelligence. You know, that attack did not 
go through a series of human discussions, not conducted on the 
Internet between people. Had we had people penetrating in 
there, then we could have known this, so that all of us on 
these two issues, one taken for granted, the other simply not 
understood, rose to the top of the national agenda, along with 
national security as a whole.
    Now, having said that, and having said that I think 
aviation is safer than it ever has been, we are talking about 
improvements. In the conversation that Senator Hutchison and I 
had with a number of the CEO's and a number of other people, 
there was this feeling that, for example, on the doors, on 
modifications within the cockpit, do you put a lavatory, for 
instance, within a cockpit so the pilot does not have to come 
out, or that there is a warmer inside so that the lunch or 
dinner does not have to go in, and people do not see that, that 
there are some 7,000 commercial airliners in the air, or 
potentially in the air, and that this cannot be done at all 
quickly.
    I would like to get your sense of how quickly do you think 
we could begin to move, once you have made the decision between 
Kevlar, whatever else it might be, adequate cockpit aspect 
security, that we could proceed to make those changes, pay for 
those changes, see them happen, because that will directly 
affect, because it will be reported on extensively, public 
confidence, which in turn will put people into airplanes, which 
in turn will satisfy some of the problems we are going to be 
discussing this afternoon, financial viability. Seeing the 
improvements happen, as opposed to saying, 7,000, that is too 
much, we can only do that on new airplanes that we build later, 
we cannot reconfigure now.
    I welcome your thoughts.
    Secretary Mineta. First of all, on securing the cockpit, 
there is in this legislation that will be coming up to the Hill 
a certain amount of money that will be able to go to the 
airlines for the retrofiting of their aircraft for the 
heightened security requirements, including things like a 
hardened door, including maybe modification of the electronics 
to deal with the transponder, or to deal with the 
communications systems so someone doesn't come in and say, turn 
off your radio and your transponder. It is going to be out of 
their control.
    Those modifications are going to have to be done--and I 
would have to defer to Administrator Garvey as to what the time 
schedule will be. I think we can compress that schedule as 
quickly as is practicable, but you know, everyone sort of cites 
El Al as an example of an airplane that may be the least 
vulnerable, but I believe their door does not meet FAA 
standards, or it is not certified by the FAA, so even if we 
were to say, hey, man, that El Al door is really good, and say, 
put it in every U.S. aircraft, I do not believe it is certified 
by the FAA as an acceptable approach right now.
    Now, I believe, and I will have to defer to Administrator 
Garvey, but she would have to talk to the time line on whether, 
how quickly we could do this, but our direction from the 
President on down is, whatever has to be done, get it done as 
quickly as possible as it relates to, again, safety, security, 
and the stability of the aviation industry.
    Senator Rockefeller. Not waiting for the convenience of new 
airliners to be built. Okay, a second question, last question, 
so that everybody gets a chance to talk with you both, and that 
is on technology.
    I know that there is a lot--you have your explosion 
detection system, there are a lot of other types of 
technologies which could be enormously rapid in terms of 
airport safety and passenger safety, check-in, and getting on 
biometrics, for one, eye or facial recognition, finger prints, 
things of this sort. What I wanted to get was that when we look 
at what we are going to do in terms of inspecting people, as 
well as baggage, that it is not simply going to be the best of 
what we currently have, but that there is an ongoing sense of 
research and development now, much-enhanced, to make sure that 
we have more rapid ways of data collection, data comparison, 
face, eye, all the rest of it, so that you could match things 
together much more quickly and resolve matters more quickly.
    Secretary Mineta. We are exploring all of these 
possibilities. Whether it be a person putting in their hand for 
finger-print imaging, that then gets run through FBI in a very 
short period of time, whether it be retinal examination, what 
kind of technology might be there, all of those are being 
explored, and some of them are already available off-the-shelf 
for utilization, and for the airlines it may mean cost so that 
they get--they may take a look at it, take a second look at it, 
but again, under the legislation that we are looking at, those 
kinds of heightened security measures I am quite sure would fit 
for reimbursement from the moneys that you folks are 
appropriating.
    Senator Rockefeller. Thank you, Mr. Chairman.
    The Chairman. Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman.
    Each of you, Mr. Secretary and Ms. Garvey, have brought us 
experience from the past administration, and we are proud of 
you. As a matter of fact, we would not be sitting here--based 
on information I have received we would not be sitting here 
today, Norm, if you had not said, pull them all down, so I 
think any implication here from anyone that might think that 
you have not already thought about all of the things we have 
discussed so far I think is wrong. We know you and we trust 
you, and I want you to know that I personally am grateful to 
you for what you did to try and recognize the situation in 
Alaska and Hawaii as quickly as you did.
    I do have a couple of questions, though, about that, so I 
would like to get right to it.
    First, there is no relief that has been suggested for the 
part 135 operators. Their losses are small compared to the 
others, but enormous compared to their size, and I would hope 
that we would somehow or another catch up with them before this 
is over.
    For the benefit of some of my colleagues, the President 
does not have $40 billion, he has $10 billion. The next $10 
billion comes 15 days after we have received the plan. The next 
$20 billion comes as each individual bill is passed to make it 
available, so we have got a lot of time ahead of us to review 
some of the things that you can do, and I do hope you get 
access to as much as possible of that $10 billion. That was our 
intention.
    As a matter of fact, we wanted to make the full $20 billion 
available, but there were some people that wanted to review 
plans and take time, and it will take time, but I certainly do 
not think you ought to be criticized for taking the time you 
have taken so far.
    I do have a little problem about one reg, and that is, you 
have now really totally prohibited our Combi operations in 
Alaska, combination cargo and passenger. Aircraft such as the 
737-200's serve our regional hubs. That means that they can go 
from Seattle and go out to Bethel or out to Nome; without them, 
we can have intra-Alaska hubs, but we cannot have the large 
hubs. I think it is going to increase the cost to our rural 
areas. I would urge you to take a look at that. I do not need 
your comments about that now, but I would urge you to take a 
look at it.
    Secondly, the FAA now requires, Ms. Garvey, background 
checks for pilots but not for students. I would urge you to 
take a look at that.
    Ms. Garvey. We are, sir.
    Senator Stevens. I knew you would, but it does seem to me 
we ought to be doing more about it. I am going to get to that 
also. You have got another order, I do not know how extensive 
it is now, about pilot training. In my State, as you know, more 
than 75 percent of all travel is by air. Our average age for 
pilots is in excess of 50 years now, and as a matter of fact we 
believe that of those that are flying twin-engined planes, more 
than 60 percent of them are over 55.
    Unless we have a pipeline of trained pilots coming at us, 
we are going to be in real trouble. I would urge you to look at 
that restriction on pilot training. It makes no sense, in view 
of the increased demand now from the Air Force to call up the 
reservists. They are going to disappear from our commuters and 
our intra-State flights within days. I would urge you to take a 
look at that.
    Lastly, and I am not going to take all of my time. I am 
going to see you again this afternoon, as a matter of fact, at 
the joint House and Senate hearing. I would urge you to 
consider one thing. I have had to bother you, too, and some of 
your assistants so many times the last few days here, since the 
11th. Can you not give some of the regional people a little bit 
more discretion to deal with the exemptions such as Senator 
Inouye mentioned?
    We had organs for transplant in the air that were put down. 
We had medevacs that were grounded. We had problems getting the 
school teachers out to the schools. We had to get exemptions 
for so many things from headquarters, eventhough the regional 
people know us best. We are dealing with flights from Seattle 
north, only.
    I guess Hawaii has a similar problem with intra-State 
aviation, too, but I would urge you to give those people more 
discretion to make the common sense exemptions on the spot for 
emergencies, for traditional uses of aircraft such as medevacs. 
They are our ambulances.
    My last comment would be, I do not know that there have 
been any restrictions on taxis in New York. There have not been 
any restrictions on buses in New York. There have not been any 
restrictions on planes going in and out of New York, but guess 
what, we do not have any of those. We are totally dependent, in 
a State one-fifth the size of the United States, on aviation, 
and we just need a little bit more understanding of that as we 
move forward, particularly in terms of some of the costs that 
people seem to think can be easily absorbed by airlines. We 
have people still flying World War II planes on a daily basis. 
They cannot be modernized that fast, and I do think that when 
we are dealing with intra-State aviation, and we are dealing 
with planes that obviously cannot become a bomb, that we ought 
to have some greater flexibility without coming to your desk.
    I thank you, each one of you, for what you have done to 
help us, and again I congratulate you, Norm. I think that 
decision you made saved more lives than most people will ever, 
ever know. When you called and said, bring them down, you made 
the decision that saved a lot of us, and I thank you again.
    The Chairman. Mr. Secretary, let me associate myself with 
the praise and the thanks of Senator Stevens, but can you give 
us time for Senators Edwards, Carnahan, Cleland, and Brownback?
    Secretary Mineta. Yes, sir. Could we take a little break 
here before we proceed?
    The Chairman. Yes, we can take a little break. The 
Committee will be at ease here just for a minute.
    [Recess.]
    The Chairman. Senator Edwards.

                STATEMENT OF HON. JOHN EDWARDS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Edwards. Thank you, Mr. Chairman.
    Mr. Secretary, I want to thank you, too. I want to thank 
you for the important service you have provided for us over the 
course of the last 10 days. The truth of the matter is that we 
have collectively, all of us, let our guard down, and I think 
it is important that we not just address this attack, but that 
we prepare for the next attack, and it seems to me we ought to 
have some basic principles, broad, comprehensive, basic 
principles in preparing for that.
    One is to have the right people in place, two is to have 
the right technology, the right and best technology in place, 
and three is to be forward-looking.
    One of the concerns I have is, we have had lots of 
discussion about some very important measures, some of which 
you have already taken, some of which are already being 
discussed, including the security of the cockpit being one, 
putting marshals on planes being another, but the reality is, 
we have to prepare for the next creative attack that these 
terrorists are working on right now, and whether, in terms of 
getting the right people in place, whether we federalize it or 
not, which a lot of my colleagues seem to support and I think 
makes some sense, it is critical that those people have proper 
education and training, no doubt about that.
    Second, it seems to me we ought to take advantage of the 
best cutting-edge technology that is out there in this process, 
but third, and the thing that I think concerns me the most, is 
that we be forward-looking. I think many of us have been 
concerned not about this specific kind of attack, but about 
attacks of this kind for some kind, and for example, chemical 
and biological weapons is one example, a mode of attack that I 
think we need to be prepared for.
    I would like to first get your comment on those principles, 
on making sure that we take a broad look at this issue, and not 
be overly focused on the specifics of what happened last 
Tuesday, although obviously we need to prepare for that, too, 
but that we also be creative and forward-thinking about what 
may happen in the future, which I think is a critical component 
of whatever policy we develop as a response. I would like your 
response to those issues first, and then I want to ask you a 
couple of specific questions about potential attacks that have 
not yet occurred.
    Secretary Mineta. Well, first of all, as it relates to your 
three basic principles about the right people in place and the 
right technology in place, there is no question that that is 
what we are trying to do.
    When you are talking about, in terms of forward-looking, 
again I think that would have to really be done in the context 
of a closed, secured hearing in terms of what and where, 
because again, as I said earlier, with all the information we 
have got, could we have built a matrix to give a hint about 
what happened last Tuesday, everyone says no.
    Everyone has got bits and pieces of information, but to try 
to focus all those elements and have it pointing in one 
direction in terms of mode of what would happen and how it 
would happen, very little, and so the very question you are 
asking is something that, because we have pipelines and rail 
and all these other modes, we are thinking about what the 
future threat is. In terms of getting someone to patrol 
pipelines with helicopters, whatever, those things are getting 
done right now. Those things started a week ago last Tuesday, 
the Coast Guard, in terms of checking on passenger cruise 
vessels, checking on bulk ships, whatever.
    But this whole issue about forward-looking is the part that 
is probably the most difficult, and it is something that 
Admiral Underwood in our shop, working with the CIA and all the 
intelligence agencies, FBI, we keep probing and thinking about. 
I am looking at these reports day-in and day-out. Jane Garvey 
is, as well as her security person, and so in terms of forward-
looking we are trying to make sure that all the modes are 
thinking about these things in terms of what is the best way to 
deal with it, dealing with the railroads, dealing with the oil 
companies, dealing with the pipeline companies, dealing with 
the ports, whomever.
    Senator Edwards. You agree, though, with the notion that 
these basic principles make sense, making sure we have got the 
right people, making sure we have got the right technology, and 
making sure that we are engaging in forward-looking thinking?
    Secretary Mineta. Absolutely, and as you say, federalizing 
may be part of that.
    Senator Edwards. Ms. Garvey.
    Ms. Garvey. I would absolutely agree with both your 
statements and the Secretary, and I believe that we are doing 
exactly that, focusing on those principles.
    The Chairman. Very good. Senator Carnahan.

               STATEMENT OF HON. JEAN CARNAHAN, 
                   U.S. SENATOR FROM MISSOURI

    Senator Carnahan. Thank you, Mr. Chairman.
    I think clearly the goal of the terrorists last week was to 
instill a crippling fear in America. They wanted, literally, to 
bring us to our knees economically and politically. We have had 
others who have tried to do the same. They did not succeed, and 
nor will these. I think our response needs to be twofold. We 
must act quickly to see that these attacks never happen again, 
and we must act quickly to restore public confidence.
    Mr. Secretary, obviously the new security measures are 
important to protect the safety of the flying public, but these 
measures are also important so that Americans regain confidence 
and continue to buy airline tickets.
    I understand that after the gulf war, that Barbara Bush 
took a ceremonial commercial airline flight to instill this 
kind of reassurance. Are there things you think that we can do 
today, such as to have, perhaps, a much-publicized celebrity 
flight, or to have a professional sports team take a flight to 
demonstrate their confidence? In fact, perhaps you could take a 
highly publicized flight and perhaps come to Missouri. We would 
enjoy that.
    Secretary Mineta. In fact, this is something that 
Administrator Garvey and I had talked about, taking what I 
called a whistle-stop, barnstorming commercial flight just 
coming in somewhere, having a press conference, talking to the 
local air traffic controllers, to the local press, getting on 
another plane, going on to somewhere else, and doing the same 
thing, just barn-storming.
    Senator Carnahan. Let me know when you do that. I would 
like to join you.
    Secretary Mineta. We were thinking about having Members of 
the House and Senate accompany us, as well as press. We have 
not finalized those plans, but somewhere in my stack is the 
series of airports we would visit and things we might consider 
doing.
    Senator Carnahan. There is one other question, Mr. 
Secretary, I want you to address, if you would, as sort of an 
auxiliary question, because you will not be here this 
afternoon.
    Secretary Mineta. I will be before the Appropriations 
Committees, a Joint House and Senate Appropriations Committee 
meeting.
    Senator Carnahan. But you will not be here for our Commerce 
Committee meeting. As you know, we are currently considering 
providing financial relief to assist the Nation's airlines with 
their efforts to overcome their financial troubles associated 
with last week's terrorist attack.
    I am convinced we must pass a comprehensive financial 
stabilization measure for the airline industry that would 
address the liability question in a meaningful way, but I also 
believe that any relief package for the airlines must include 
an additional component to provide assistance to displaced 
workers.
    This Congress must demonstrate that while we stand ready to 
bolster the airline industry, we are also committed to 
supporting the men and women who are the heart and soul of the 
industry. I am working with a number of my colleagues to craft 
a proposal that would provide trade adjustment assistance 
benefits to these displaced workers from the airline industry.
    News reports this morning indicate that the administration 
has come out with a proposal for an airline relief package, but 
I have not heard mention of aid for any of the displaced 
workers. What are your thoughts, or the thoughts of the 
administration on including such a provision in an overall 
stabilization package.
    Secretary Mineta. As a result of what happened on September 
11, a DCPC was set up, a Domestic Consequences Policy 
Committee, because there are a lot of consequences that impact 
on a domestic basis, rather than the foreign policy or military 
policy issues. The President has very clearly talked about 
making sure that present programs relating to unemployment 
compensation, trade adjustment assistance, or retraining 
programs be part of the whole consideration of what we are 
doing, and that is not in the jurisdiction of the Department of 
Transportation, but those are on the President's menu of things 
that the Domestic Consequences Policy Committee is doing.
    Senator Carnahan. Thank you very much. I appreciate hearing 
that.
    The Chairman. Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman and 
Members of the Committee, distinguished panelists. I have been 
listening to what our colleagues have been saying here, and 
trying to think how I could add to the discussion. I will say 
that I took my own whistle-stop tour. It was on a train, on 
Friday, going back to Atlanta, but I came back on Delta Tuesday 
afternoon. I spent a good deal of time at Hartsfield talking to 
the management there, the security people there, passengers 
there.
    This is my conclusion. I think we have to dramatically 
upgrade our technology and our people to do the screening at 
our airports or else we will basically fail in our main mission 
here, and that is to increase the confidence of the flying 
public in our commercial aviation system. The clock is ticking 
on our airlines, as we well know.
    The phrase that FDR had a number of years ago, in 1933, 
comes to mind. The only thing we have to fear is fear itself, 
blind, unreasonable fear, and there is blind, unreasonable fear 
out there in American hearts today about flying on American 
commercial airliners. We have to address that fear. We have to 
do some confidence-building measures, and I think there are two 
that we ought to zero-in on, two that have to do with what the 
GAO has really called our weakest link. The GAO called our x-
ray process at the screening points our weakest link, but I 
think we have another weak link, and before I get beyond the 
question of technology, I would just like to point out that 
Senator Edwards is correct, Senator Kerry is correct, and 
Senator John Breaux is correct. We need to think maybe about 
the next attack.
    In that regard, we can think about biological chemical 
warfare. Georgia Tech has invented a sensor just that can 
detect chemical and biological residue. This is the kind of 
technology that I think we are going to have to instill in our 
screening process.
    Secondly, I think we are going to have to dramatically 
upgrade our people. Sadly enough, according to the National 
Academy of Sciences, there are about 18,000 screeners that work 
in the United States that cover some 700 security checkpoints, 
but the DOTIG has reported high turnover rates, anywhere from 
100 percent to 400 percent, and that 400 percent is at the 
busiest airport in the world, Hartsfield, I am sad to report. 
What do they make? Anywhere from $5.25 to $6.75 an hour, 
without benefits.
    The sad news, as I have discovered here, Mr. Secretary, is 
that our screeners look at going to work for Cinnabon as a 
promotion. We cannot have that kind of culture now as our first 
line of defense. I favor, as would Senator Kerry, Senator 
Breaux, and some others, the federalization of our screening 
process. I think that is the only way we are really going to 
get at this problem of instilling some confidence of the 
American people and providing the technology, providing the 
capability to really get the job done. I asked our security 
people at Hartsfield exactly what they recommended, and that 
seemed to be the unanimous opinion.
    What do we have now? Unfortunately, we have a security 
company that covers 17 of the 20 largest airports in the 
country where two of the four hijacked planes originated. That 
company pled guilty to allowing untrained employees, including 
some with criminal backgrounds, to operate checkpoints in 
Philadelphia. The parent company was fined over $1 million.
    It is also pled guilty to falsifying test scores for two 
dozen applicants, hiring at least 14 security screeners with 
criminal backgrounds ranging from aggravated assault and 
burglary to drug and firearm possession, and the highest 
advertised job paid $8 an hour.
    Now, we can do better than that. We are going to have to do 
better than that. Congress, the presidential commissions, the 
GAO, the Inspector General, the DOT, all over the last number 
of years have indicated that we have to do better on that 
screening process. The GAO looked at five other countries that 
do screening at airports, and they found all of those five had 
more extensive qualifications and training for screeners and 
higher pay and benefits for screeners, assigned responsibility 
for screeners to the airport, or to the National Government, 
and had in place more stringent screener checkpoint operations.
    As a matter of fact, the British in the wake of the 
Lockerbie, Scotland airline disaster, where the plane was blown 
up in flight, have installed very highly sophisticated x-ray 
machines, and I think this kind of upgrade in technology, 
upgrade in people is a tangible way to begin reinforcing the 
view that it is safe to fly on American commercial air.
    Mr. Secretary, do you favor--are you prepared to share with 
us today your view that you favor this kind of federalization 
of the screening process?
    Secretary Mineta. I have not come to a real determination 
as to federalization, because there are various meanings for 
that term--whether these are Civil Service employees, or does 
federalization mean making sure that our private operators are 
going to be required to meet new standards?
    Senator Cleland. I am thinking like a domestic customs 
service. We have the customs service to look at people coming 
into the country.
    Secretary Mineta. As I said earlier, yes, we have looked at 
that. It is one part of the things we are looking at. It would 
be the equivalent, as I said earlier, of 28,000 plus full-time 
equivalents at a cost of close to $1.8 billion. If the Congress 
is willing for us to do that, of course we would do that, but 
again there are a number of items on that menu about how to 
deal with the screening and the ultimate answer may be Civil 
Service of that screening operation, but I have not come to the 
conclusion yet that that is the best way to go.
    The Chairman. Senator Brownback.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman. I want to thank 
the panel for the work you have done here recently under a 
very, very difficult atmosphere and thank you for taking 
aggressive action and taking it quickly. Administrator Garvey, 
if I could, I'd like to direct questions to you, if I might, on 
general aviation. You've been to my state. You've been to 
Wichita I think twice.
    Ms. Garvey. Three times, actually.
    Senator Brownback. That's even better. To the 
manufacturers, you know the concentration of general aviation 
manufacturing that is taking place there. Boeing is also there 
and has announced 30 percent layoffs, so it has a major impact. 
I understand your concern on visual flight--limiting those 
flights right now. I can see the tension that you've got about, 
``should we allow some of these or shouldn't we given the 
potential problems.'' I'm wondering in particular what your 
thinking process is that you're going through on flight 
schools. Those are the largest users of general aircraft, 
general aviation aircraft and as I understand, generally they 
operate under visual flight rules and they have not been 
released, as I understand it. You've got a timetable that 
you're thinking of in viewing this because obviously at some 
point and time these need to get going again so that we can 
train pilots.
    Ms. Garvey. Senator, as you know, last night, yesterday 
actually, we worked through a number of these issues with the 
NSA and with the Secretary's approval and go-ahead last night, 
we lifted many of the restrictions that we had in place for 
general aviation. But you're absolutely right. Flight schools 
were still an issue where the regulations or the restrictions 
had not yet been lifted. I heard an excellent suggestion today 
that perhaps if we looked at some of the, or did a background 
check on some of the students, I think given some of the 
history of the hijackers, there has been some concern but I 
took note of that recommendation and that suggestion and would 
like to bring that back. Perhaps if we could do something like 
that, we might be able to lift that restriction. And, again, 
this is in consultation with the NSC who are, of course, 
looking at some of the security issues involved. But I know of 
the concern, not only in your state but in a number of other 
states as well, that flight schools are very important and a 
number of them are very small businesses and this has an 
enormous impact. So, it was a good suggestion. We'll look at it 
and see what we can do.
    Senator Brownback. Well, if we can put those students 
through some kind of a test or screening so that we can see, 
then that might give us clues or leads on potential problems. I 
think this is one we need to try to work out together because 
clearly there's a tension here. I don't want to get people in 
training that could be potential terrorists or use a general 
aviation aircraft for some sort of a bomb delivery device as 
well. So, we need to look at that very carefully and I agree 
with doing that. It is just we're also going to have to find a 
way that we can train pilots and we're going to need to get 
some of these general aviation aircraft back up in the air. Do 
you anticipate, then, that you will be doing this within the 
next week or two?
    Ms. Garvey. We are continuing to look at these issues every 
day with the NSC. There are a whole series of issues that we 
are working through every day, and I'm going to go back and 
talk to staff. This suggestion that was made here at this 
Committee today may be something that would sort of break that 
one loose. So, we'll aggressively pursue it. I do understand 
it's a real concern.
    Senator Brownback. And I thought, I mean Senator Stevens 
thought about giving some discretion on other general aviation 
work to more regional administrators and some of these calls 
might be worth taking a look at. We cannot breach security 
issues. I think those have to be at the top and paramount for 
us but, situations do differ in differing areas and general 
aviation is a very important thing in my state and many regions 
of the country. Secretary Mineta, if you've had particular 
thoughts about this as well?
    Secretary Mineta. Sir, many of the things that we do have 
to be cleared through the National Security Council. So, even 
if we delegated to a regional office, it would still have to be 
cleared through the National Security Council and that's why 
we've held it here, but these things that we're doing right now 
are not engraved in marble. We go back every day and say, okay 
now, what about this? You know, yesterday we banned this but 
can we lift it today? So, it's an ongoing process.
    Senator Brownback. If I could, before my time is up, are 
you going back through the list of pilots or people that have 
taken flight training? I presume everybody's going through 
those now to see about potential other problems.
    Secretary Mineta. The FBI is doing that primarily.
    Senator Brownback. Do we have good records on individuals 
that have gone through flight training or do those records need 
to be upgraded?
    Secretary Mineta. We could give you a classified briefing 
on that issue if you need it.
    Senator Brownback. Thank you, Mr. Chairman.
    The Chairman. Very good. Mr. Secretary in thanking you on 
behalf of the Committee and Administrator Garvey and Deputy 
Secretary Jackson, normally, one, with respect to affording the 
federalization of security personnel, I can take a bill out 
here this afternoon and whip it through both houses with almost 
a majority vote. Why? Because in Europe, they afford the 
federalization. Those security personnel at all the airports 
are government employees. If they can afford it, we can. In 
fact, after 9/11 we must. Point two with respect to Reagan, I 
wouldn't allow any plane to fly off of Reagan unless that 
cockpit was secured. But what you're saying in having opened up 
the experts Dulles and Baltimore, it's safe enough to hit the 
White House from Baltimore and Dulles. Or, specifically, with 
respect to New York, we're really concerned abut the safety of 
the government down here in Washington but not for the people 
of the government because you can fly off LaGuardia and hit the 
Empire State this afternoon. So, let's get it with and tell 
them to make some decisions and quit dallying around. And 
finally, since you're Secretary of Transportation, nine out of 
ten containers we've added. We've been trying to get the bill 
passed. Now out of ten containers coming into the ports of the 
United States of America. Come in at New York, Bale, New 
Jersey, and taken right down to Times Square, with up to 40 
tons of anthrax and boom. And you don't have to send them to 
driver school to get that done. So, we've got a lot of work to 
do and we've got to get serious about it but we can't, while 
we're dallying around with the Secret Service, the President 
would still be down there in Louisiana. You know what I mean? 
So, let's get realistic about it and make sure you secure that 
cockpit but once that cockpit with a marshal and the security 
personnel but particularly when the cockpit is secured, then 
you can open up Reagan.
    Senator Nelson. Mr. Chairman, may I just add that we have 
been hit with the issue of the flight schools in Florida so 
much and I would just add to that the simulators because they 
were people that just didn't go out and learn to fly two engine 
airplanes. They were people that had pinpoint accuracy at high 
rates of speed, accounting for wind direction and a lot of 
that's got to come from either the aircraft itself or a 
simulator. And that's where we need the background checks as 
well.
    The Chairman. Senator Rockefeller and then Senator Wyden 
and then we've go to go.
    Senator Rockefeller. Mine is real fast. Everybody at the 
hearing this morning and virtually all who considered this 
matter have made it an article of faith assumption that 
screeners will be federalized. It was unanimous. When the 
Senator from Georgia asked you what your view was, Mr. 
Secretary, you said you hadn't made up your mind and I was 
stunned by that. I'm asking for a response.
    Secretary Mineta. Again, we have got all these items on the 
menu and even though I may be the Secretary of Transportation, 
I'm also still the assistant to the President or staff to the 
President, and there's OMB, and NSC, offices, that we have to 
clear it with. So, to that extent I'm talking about these at 
the DCPCS we had and I will continue to do that.
    Senator Rockefeller. I hope you will mention to them your 
discomfort at not being able to ask or answer on nation 
television something that the American people I think feel very 
strongly about and surely we do because of the usual processes 
of clearance.
    The Chairman. Senator Wyden.
    Senator Wyden. I'll be very quick. Mr. Secretary, the point 
that the Chairman and Senator Rockefeller have made is 
absolutely key and the point is that the Congress wants to work 
with you so that quickly we can federalize this function and we 
don't have a situation that 15 years from now we're having more 
GAO reports. We want to work in partnership with you so that 
quickly a bill that comes actually gets done and I think that 
has been sort of the theme of this hearing--to work with you in 
partnership so we don't have 15 years of these reports once 
again. And I thank you, Mr. Chairman.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Our next panel will 
be good for asking questions on remote guidance of aircraft and 
so forth. I would say that Senator Wyden, hopefully, our 
Subcommittee can have a hearing on the use of automatic ground 
control systems. But let me follow up on the issue of general 
aviation. I'm glad that in all but 30 areas, VFR is now open, 
at least as of last evening. That means a great deal to under-
populated or smaller areas. How do you envision this industry 
changing in the future? When it gets back to where you might 
consider relatively normal, how do you see general aviation 
changing in the future, after this tragedy?
    Ms. Garvey. Well, I think we're already starting to hear 
from officials of the associations in general aviation and from 
members of general aviation as well that they want to look at 
their own security, look at the issue of security with us. I 
give a great deal of credit to the fixed based operators who in 
a number of occasions over the last several days have stepped 
forward with some very specific ideas on security and I think 
that's good. I think we're going to see the industry and that 
part of the community as engaged with us on security measures 
as they have been on safety measures in the last several years. 
So, they're thoughtful; they're deliberative; they're smart. 
They care a lot about aviation and I expect we'll be working 
closely with them on ways that we can make general aviation 
which has a lot more challenges even more secure.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you. Let me just very quickly pick up 
on Senator Rockefeller's point and it gets back to what I said 
about your being at the table, looking at OMB and telling them 
this is what you want. I am sad that today you can't say, in my 
view, after all these studies and the stuff that Max Cleland 
told you I'm sure you know about, people checking out bags who 
are criminals, who look at it as a step up to working in the 
donut shop, that you could say to us you are intent upon making 
sure that as in other countries in the world that these 
screeners have steady jobs, get the respect and the training, 
and your answer is basically at this day, well, you know, I'm 
the President's, I work for the President and I have got to sit 
around with OMB and everybody else. What I want you to tell me, 
and you haven't and you won't, and that's just the way it is 
and I would sacrifice my whole future if I felt we weren't 
doing every single thing we could do. And this screening issue 
is absolutely crucial here. So, I just hope after this hearing 
to take away anything is that colleagues here are really ready 
to go. We want to work with you. We want to make sure that the 
flying public is safe because I could tell you, if they aren't 
then we'll try to re-roll this tape and we'll all say at that 
moment, did we really rise to the occasion. Mr. Chairman, I 
feel so strongly about this because I think it is the turning 
point today, right now, what we all do together. And I just 
want you to be strong in those meetings, Norm,. And I say the 
same to Administrator Garvey, if you're not, if this isn't your 
only concern, the safety, then we haven't done much today and 
that's what I'm worried about.
    The Chairman. Norm will be strong.
    Secretary Mineta. I don't want you to have the feeling that 
I'm for the status quo. It is going to be enhanced. It is going 
to be a hell of a lot better than it is right now but I can't 
guarantee you sitting here that these are going to be civil 
servant employees doing the job. If that's the definition of 
federalization, if it is the definition of federalization, I 
don't think Jane is ready or Michael is ready to say let's make 
it a civil service program.
    Senator Boxer. But aren't there federal standards now?
    Secretary Mineta. No, there are not. That was Senator 
Hutchison's bill that gave to the FAA the ability to come up 
with new training requirements, new screening requirements. As 
Senator Cleland said, so that we know the company.
    Senator Boxer. And you would call that federalization?
    Secretary Mineta. What is that?
    Senator Boxer. Having better standards in place.
    Secretary Mineta. It is a form of federalization.
    Senator Boxer. And then leaving it up to the airlines and 
leaving it up to the airlines to decide who those people are?
    Secretary Mineta. Based on our standards, we could still do 
the screening, making sure that----
    Senator Boxer. That sounds to me more like the status quo. 
I've taken up too much time. I am sorry.
    Secretary Mineta. It is absolutely not. I'm sorry. To think 
about the screeners as we know them today, absolutely not. This 
is going to be substantially different but if you're asking me 
is it going to be a federal civil servant doing this work, I 
can't give you that answer right now but it will be enhanced. 
It will be a hell of a lot better than it is right now.
    The Chairman. Making them civil service is really the only 
way to get competent personnel and to get the pay up and 
everything else. But that having been said, thank you all, 
three of you, very, very much and we ask Panel Number II to 
please come forward as quickly as they can.
    Mr. Gerald Dillingham, the Director for Physical 
Infrastructure Issues at the GAO; Mr. John Meenan, the Senior 
Vice President of the Air Transport Association; Captain Duane 
Woerth, President of the Airline Pilots Association; Mr. 
Charles Barclay, President of the American Association of 
Airport Executives; and Mr. Paul Hudson. We want to know him as 
Executive Director of the Aviation Consumer Action Project. 
Now, gentlemen, the committee apologizes, but you can 
understand the interest and that's what we have every time when 
we organize a committee. We tell the leadership, wait a minute. 
We used to have 8 and 7 and 15 on the committee and that's the 
only way to get thoroughly into the questioning and finding out 
from the panel where the witnesses, and they've give us 23. And 
we've got plenty of other questions I wanted to ask and others 
and, of course, the record is open. That being the case, we're 
going to ask you to file your statements here in full with the 
committee and let me yield for the questioning of the members 
here and then any add-ons you gentlemen would wish because 
you're under pressure too.

    [The prepared statement of Mr. Dillingham follows:]

    Prepared Statement of Gerald L. Dillingham, Director, Physical 
            Infrastructure Issues, General Accounting Office
    Mr. Chairman and Members of the Committee:
    A safe and secure civil aviation system is a critical component of 
the nation's overall security, physical infrastructure, and economic 
foundation. Billions of dollars and a myriad of programs and policies 
have been devoted to achieving such a system. Although it is not fully 
known at this time what actually occurred or what all the weaknesses in 
the nation's aviation security apparatus are that contributed to the 
horrendous events of last week, it is clear that serious weaknesses 
exist in our aviation security system and that their impact can be far 
more devastating than previously imagined.
    We are here today to discuss the vulnerabilities that we have 
identified throughout the nation's aviation system. Our testimony is 
based on our prior work and includes assessments of security concerns 
with (1) aviation-related computer systems, (2) airport access 
controls, and (3) passenger and carry-on baggage screening, including 
how the United States and selected other countries differ in their 
screening practices. Our testimony will also offer some observations 
about improving aviation security in these various areas.
    In summary:

  <bullet> As we reported last year, our reviews of the Federal 
        Aviation Administration's (FAA) oversight of air traffic 
        control (ATC) computer systems showed that FAA had not followed 
        some critical aspects of its own security requirements. 
        Specifically, FAA had not ensured that ATC buildings and 
        facilities were secure, that the systems themselves were 
        protected, and that the contractors who access these systems 
        had undergone background checks. As a result, the ATC system 
        was susceptible to intrusion and malicious attacks. FAA is 
        making some progress in addressing the 22 recommendations we 
        made to improve computer security, but most have yet to be 
        completed.

  <bullet> Controls for limiting access to secure areas, including 
        aircraft, have not always worked as intended. As we reported in 
        May 2000, our special agents used fictitious law enforcement 
        badges and credentials to gain access to secure areas, bypass 
        security checkpoints at two airports, and walk unescorted to 
        aircraft departure gates. The agents, who had been issued 
        tickets and boarding passes, could have carried weapons, 
        explosives, or other dangerous objects onto aircraft. FAA is 
        acting on the weaknesses we identified and is implementing 
        improvements to more closely check the credentials of law 
        enforcement officers. The Department of Transportation's 
        Inspector General has also documented numerous problems with 
        airport access controls, and in one series of tests, the 
        Inspector General's staff successfully gained access to secure 
        areas 68 percent of the time.

  <bullet> As we reported in June 2000, tests of screeners revealed 
        significant weaknesses as measured in their ability to detect 
        threat objects located on passengers or contained in their 
        carry-on luggage. In 1987, screeners missed 20 percent of the 
        potentially dangerous objects used by FAA in its tests. At that 
        time, FAA characterized this level of performance as 
        unsatisfactory. More recent results have shown that as testing 
        gets more realistic--that is, as tests more closely approximate 
        how a terrorist might attempt to penetrate a checkpoint--
        screeners' performance declines significantly. A principal 
        cause of screeners' performance problems is the rapid turnover 
        among screeners. Turnover exceeded over 100 percent a year at 
        most large airports, leaving few skilled and experienced 
        screeners, primarily because of the low wages, limited 
        benefits, and repetitive, monotonous nature of their work. 
        Additionally, too little attention has been given to factors 
        such as the sufficiency of the training given to screeners. 
        FAA's efforts to address these problems have been slow. We 
        recommended that FAA develop an integrated plan to focus its 
        efforts, set priorities, and measure progress in improving 
        screening. FAA is addressing these recommendations, but 
        progress on one key effort--the certification of screening 
        companies--is still not complete because the implementing 
        regulation has not been issued. It is now nearly 2 \1/2\ years 
        since FAA originally planned to implement the regulation.

  <bullet> Screening operations in Belgium, Canada, France, the 
        Netherlands, and the United Kingdom--countries whose systems we 
        have examined--differ from this country's in some significant 
        ways. Their screening operations require more extensive 
        qualifications and training for screeners, include higher pay 
        and better benefits, and often include different screening 
        techniques, such as ``pat-downs'' of some passengers. Another 
        significant difference is that most of these countries place 
        responsibility for screening with airport authorities or the 
        government instead of air carriers. The countries we visited 
        had significantly lower screener turnover, and there is some 
        evidence they may have better screener performance; for 
        example, one country's screeners detected over twice as many 
        test objects as did U.S. screeners in a 1998 joint screener 
        testing program conducted with FAA.

    The events of September 11, 2001, have changed the way this country 
looks at aviation security. Last week, FAA and the air carriers 
implemented new controls that promise a greater sense of security. We 
support these actions. Yet, to further minimize the vulnerabilities in 
our aviation security system, more needs to be done. Additional 
considerations for the immediate future could include prioritizing 
outstanding recommendations that address security, developing a 
strategic plan to address the recommendations, assigning specific 
executive responsibility for carrying out this plan, and identifying 
the sources and amounts of funding needed. In establishing priorities, 
a key action needed is to complete the promulgation of the screening 
company certification regulation, which also implements the 
requirements of the Airport Security Improvement Act of 2000, enacted 
by the Congress last November. The Congress also needs to reconsider 
whether airlines should continue to bear primary responsibility for 
screening operations at the nation's airports. Aviation security has 
truly become a national security issue, and responsibility for 
screening may no longer appropriately rest with air carriers. 
Consideration of the role of air carriers in conducting passenger 
screening could be examined as part of the ongoing effort to identify 
and structure mechanisms to provide financial and other assistance to 
help the aviation industry emerge from the current crisis.
    Mr. Chairman, it has been observed that previous tragedies have 
resulted in congressional hearings, studies, recommendations, and 
debates, but little long-term resolve to correct flaws in the system as 
the memory of the crisis recedes. The future of aviation security 
hinges in large part on overcoming this cycle of limited action that 
has too often characterized the response to aviation security concerns.
Background
    Some context for my remarks is appropriate. The threat of terrorism 
was significant throughout the 1990s; a plot to destroy 12 U.S. 
airliners was discovered and thwarted in 1995, for instance. Yet the 
task of providing security to the nation's aviation system is 
unquestionably daunting, and we must reluctantly acknowledge that any 
form of travel can never be made totally secure. The enormous size of 
U.S. airspace alone defies easy protection. Furthermore, given this 
country's hundreds of airports, thousands of planes, tens of thousands 
of daily flights, and the seemingly limitless ways terrorists or 
criminals can devise to attack the system, aviation security must be 
enforced on several fronts. Safeguarding airplanes and passengers 
requires, at the least, ensuring that perpetrators are kept from 
breaching security checkpoints and gaining access to secure airport 
areas or to aircraft. Additionally, vigilance is required to prevent 
attacks against the extensive computer networks that FAA uses to guide 
thousands of flights safely through U.S. airspace. FAA has developed 
several mechanisms to prevent criminal acts against aircraft, such as 
adopting technology to detect explosives and establishing procedures to 
ensure that passengers are positively identified before boarding a 
flight. Still, in recent years, we and others have often demonstrated 
that significant weaknesses continue to plague the nation's aviation 
security.
Potential for Unauthorized Access to Aviation Computer Systems
    Our work has identified numerous problems with aspects of aviation 
security in recent years. One such problems is FAA's computer-based air 
traffic control system. The ATC system is an enormous, complex 
collection of interrelated systems, including navigation, surveillance, 
weather, and automated information processing and display systems that 
link hundreds of ATC facilities and provide information to air traffic 
controllers and pilots. Failure to adequately protect these systems 
could increase the risk of regional or nationwide disruption of air 
traffic--or even collisions.
    In five reports issued from 1998 through 2000, we pointed out 
numerous weaknesses in FAA's computer security. \1\ FAA had not (1) 
completed background checks on thousands of contractor employees, (2) 
assessed and accredited as secure many of its ATC facilities, (3) 
performed appropriate risk assessments to determine the vulnerability 
of the majority of its ATC systems, (4) established a comprehensive 
security program, (5) developed service continuity controls to ensure 
that critical operations continue without undue interruption when 
unexpected events occur, and (6) fully implemented an intrusion 
detection capability to detect and respond to malicious intrusions. 
Some of these weaknesses could have led to serious problems. For 
example, as part of its Year 2000 readiness efforts, FAA allowed 36 
mainland Chinese nationals who had not undergone required background 
checks to review the computer source code for eight mission-critical 
systems.
---------------------------------------------------------------------------
    \1\ Aviation Security: Weak Computer Security Practices Jeopardize 
Flight Safety (GAO/AIMD-98-155, May 18, 1998), Computer Security: FAA 
Needs to Improve Controls Over Use of Foreign Nationals to Remediate 
and Review Software (GAO/AIMD-00-55, Dec. 23, 1999), Computer Security: 
FAA is Addressing Personnel Weaknesses, But Further Action Is Required 
(GAO/AIMD-00-169, May 31, 2000), FAA Computer Security: Concerns Remain 
Due to Personnel and Other Continuing Weaknesses (GAO/AIMD-00-252, Aug. 
16, 2000), and FAA Computer Security: Recommendations to Address 
Continuing Weaknesses (GAO-01-171, Dec. 6, 2000).
---------------------------------------------------------------------------
    To date, we have made nearly 22 recommendations to improve FAA's 
computer security. FAA has worked to address these recommendations, but 
most of them have yet to be completed. For example, it is making 
progress in obtaining background checks on contractors and accrediting 
facilities and systems as secure. However, it will take time to 
complete these efforts.
Weaknesses in Airport Access Controls
    Control of access to aircraft, airfields, and certain airport 
facilities is another component of aviation security. Among the access 
controls in place are requirements intended to prevent unauthorized 
individuals from using forged, stolen, or outdated identification or 
their familiarity with airport procedures to gain access to secured 
areas. In May 2000, we reported that our special agents, in an 
undercover capacity, obtained access to secure areas of two airports by 
using counterfeit law enforcement credentials and badges. \2\ At these 
airports, our agents declared themselves as armed law enforcement 
officers, displayed simulated badges and credentials created from 
commercially available software packages or downloaded from the 
Internet, and were issued ``law enforcement'' boarding passes. They 
were then waved around the screening checkpoints without being 
screened. Our agents could thus have carried weapons, explosives, 
chemical/biological agents, or other dangerous objects onto aircraft. 
In response to our findings, FAA now requires that each airport's law 
enforcement officers examine the badges and credentials of any 
individual seeking to bypass passenger screening. FAA is also working 
on a ``smart card'' computer system that would verify law enforcement 
officers' identity and authorization for bypassing passenger screening.
---------------------------------------------------------------------------
    \2\ Security: Breaches at Federal Agencies and Airports (GAO/T-OSI-
00-10, May 25, 2000).
---------------------------------------------------------------------------
    The Department of Transportation's Inspector General has also 
uncovered problems with access controls at airports. The Inspector 
General's staff conducted testing in 1998 and 1999 of the access 
controls at eight major airports and succeeded in gaining access to 
secure areas in 68 percent of the tests; they were able to board 
aircraft 117 times. After the release of its report describing its 
successes in breaching security, \3\ the Inspector General conducted 
additional testing between December 1999 and March 2000 and found that, 
although improvements had been made, access to secure areas was still 
gained more than 30 percent of the time.
---------------------------------------------------------------------------
    \3\ Airport Access Control (AV-2000-017, Nov. 18, 1999).
---------------------------------------------------------------------------
Inadequate Detection of Dangerous Objects by Screeners
    Screening checkpoints and the screeners who operate them are a key 
line of defense against the introduction of dangerous objects into the 
aviation system. Over 2 million passengers and their baggage must be 
checked each day for articles that could pose threats to the safety of 
an aircraft and those aboard it. The air carriers are responsible for 
screening passengers and their baggage before they are permitted into 
the secure areas of an airport or onto an aircraft. Air carriers can 
use their own employees to conduct screening activities, but mostly air 
carriers hire security companies to do the screening. Currently, 
multiple carriers and screening companies are responsible for screening 
at some of the nation's larger airports.
    Concerns have long existed over screeners' ability to detect and 
prevent dangerous objects from entering secure areas. Each year, 
weapons were discovered to have passed through one checkpoint and have 
later been found during screening for a subsequent flight. FAA monitors 
the performance of screeners by periodically testing their ability to 
detect potentially dangerous objects carried by FAA special agents 
posing as passengers. In 1978, screeners failed to detect 13 percent of 
the objects during FAA tests. In 1987, screeners missed 20 percent of 
the objects during the same type of test. Test data for the 1991 to 
1999 period show that the declining trend in detection rates continues. 
\4\ Furthermore, the recent tests show that as tests become more 
realistic and more closely approximate how a terrorist might attempt to 
penetrate a checkpoint, screeners' ability to detect dangerous objects 
declines even further.
---------------------------------------------------------------------------
    \4\ Information on FAA tests results is now designated as sensitive 
security information and cannot be publicly released. Consequently, we 
cannot discuss the actual detection rates for the 1991-99 period.
---------------------------------------------------------------------------
    As we reported last year, there is no single reason why screeners 
fail to identify dangerous objects. \5\ Two conditions--rapid screener 
turnover and inadequate attention to human factors--are believed to be 
important causes. Rapid turnover among screeners has been a long-
standing problem, having been identified as a concern by FAA and by us 
in reports dating back to at least 1979. We reported in 1987 that 
turnover among screeners was about 100 percent a year at some airports, 
and according to our more recent work, the turnover is considerably 
higher. \6\ From May 1998 through April 1999, screener turnover 
averaged 126 percent at the nation's 19 largest airports; 5 of these 
airports reported turnover of 200 percent or more, and one reported 
turnover of 416 percent. At one airport we visited, of the 993 
screeners trained at that airport over about a 1-year period, only 142, 
or 14 percent, were still employed at the end of that year. Such rapid 
turnover can seriously limit the level of experience among screeners 
operating a checkpoint.
---------------------------------------------------------------------------
    \5\ Aviation Security: Long-Standing Problems Impair Airport 
Screeners' Performance (GAO/RCED-00-75, June 28, 2000).
    \6\ Aviation Security: FAA Needs Preboard Passenger Screening 
Performance Standards (GAO/RCED-87-182, July 24, 1987).
---------------------------------------------------------------------------
    Both FAA and the aviation industry attribute the rapid turnover to 
the low wages and minimal benefits screeners receive, along with the 
daily stress of the job. Generally, screeners are paid at or near the 
minimum wage. We reported last year that some of the screening 
companies at 14 of the nation's 19 largest airports paid screeners a 
starting salary of $6.00 an hour or less and, at 5 of these airports, 
the starting salary was the then minimum wage--$5.15 an hour. It is 
common for the starting wages at airport fast-food restaurants to be 
higher than the wages screeners receive. For instance, at one airport 
we visited, screeners' wages started as low as $6.25 an hour, whereas 
the starting wage at one of the airport's fastfood restaurants was $7 
an hour.
    The demands of the job also affect performance. Screening duties 
require repetitive tasks as well as intense monitoring for the very 
rare event when a dangerous object might be observed. Too little 
attention has been given to factors such as (1) improving individuals' 
aptitudes for effectively performing screener duties, (2) the 
sufficiency of the training provided to screeners and how well they 
comprehend it, and (3) the monotony of the job and the distractions 
that reduce screeners' vigilance. As a result, screeners are being 
placed on the job who do not have the necessary aptitudes, nor the 
adequate knowledge to effectively perform the work, and who then find 
the duties tedious and dull.
    We reported in June 2000 that FAA was implementing a number of 
actions to improve screeners' performance. However, FAA did not have an 
integrated management plan for these efforts that would identify and 
prioritize checkpoint and human factors problems that needed to be 
resolved, and identify measures--and related milestone and funding 
information--for addressing the performance problems. Additionally, FAA 
did not have adequate goals by which to measure and report its progress 
in improving screeners' performance.
    FAA is implementing our recommendations. However, two key actions 
to improving screeners' performance are still not complete. These 
actions are the deployment of threat image projection systems--which 
place images of dangerous objects on the monitors of X-ray machines to 
keep screeners alert and monitor their performance--and a certification 
program to make screening companies accountable for the training and 
performance of the screeners they employ. Threat image projection 
systems are expected to keep screeners alert by periodically imposing 
the image of a dangerous object on the X-ray screen. They also are used 
to measure how well screeners perform in detecting these objects. 
Additionally, the systems serve as a device to train screeners to 
become more adept at identifying harder-to-spot objects. FAA is 
currently deploying the threat image projections systems and expects to 
have them deployed at all airports by 2003.
    The screening company certification program, required by the 
Federal Aviation Reauthorization Act of 1996, will establish 
performance, training, and equipment standards that screening companies 
will have to meet to earn and retain certification. However, FAA has 
still not issued its final regulation establishing the certification 
program. This regulation is particularly significant because it is to 
include requirements mandated by the Airport Security Improvement Act 
of 2000 to increase screener training--from 12 hours to 40 hours--as 
well as expand background check requirements. FAA had been expecting to 
issue the final regulation this month, 2 \1/2\ years later than it 
originally planned.
Differences in the Screening Practices of Five Other Countries and the 
        United States
    We visited five countries--Belgium, Canada, France, the 
Netherlands, and the United Kingdom--viewed by FAA and the civil 
aviation industry as having effective screening operations to identify 
screening practices that differ from those in the United States. We 
found that some significant differences exist in four areas: screening 
operations, screener qualifications, screener pay and benefits, and 
institutional responsibility for screening.
    First, screening operations in some of the countries we visited are 
more stringent. For example, Belgium, the Netherlands, and the United 
Kingdom routinely touch or ``pat down'' passengers in response to metal 
detector alarms. Additionally, all five countries allow only ticketed 
passengers through the screening checkpoints, thereby allowing the 
screeners to more thoroughly check fewer people. Some countries also 
have a greater police or military presence near checkpoints. In the 
United Kingdom, for example, security forces--often armed with 
automatic weapons--patrol at or near checkpoints. At Belgium's main 
airport in Brussels, a constant police presence is maintained at one of 
two glass-enclosed rooms directly behind the checkpoints.
    Second, screeners' qualifications are usually more extensive. In 
contrast to the United States, Belgium requires screeners to be 
citizens; France requires screeners to be citizens of a European Union 
country. In the Netherlands, screeners do not have to be citizens, but 
they must have been residents of the country for 5 years. Training 
requirements for screeners were also greater in four of the countries 
we visited than in the United States. While FAA requires that screeners 
in this country have 12 hours of classroom training before they can 
begin work, Belgium, Canada, France, and the Netherlands require more. 
For example, France requires 60 hours of training and Belgium requires 
at least 40 hours of training with an additional 16 to 24 hours for 
each activity, such as X-ray machine operations, that the screener will 
conduct.
    Third, screeners receive relatively better pay and benefits in most 
of these countries. Whereas screeners in the United States receive 
wages that are at or slightly above minimum wage, screeners in some 
countries receive wages that are viewed as being at the ``middle 
income'' level in those countries. In the Netherlands, for example, 
screeners received at least the equivalent of about $7.50 per hour. 
This wage was about 30 percent higher than the wages at fast-food 
restaurants in that country. In Belgium, screeners received the 
equivalent of about $14 per hour. Not only is pay higher, but the 
screeners in some countries receive benefits, such as health care or 
vacations--in large part because these benefits are required under the 
laws of these countries. These countries also have significantly lower 
screener turnover than the United States: turnover rates were about 50 
percent or lower in these countries.
    Finally, the responsibility for screening in most of these 
countries is placed with the airport authority or with the government, 
not with the air carriers as it is in the United States. In Belgium, 
France, and the United Kingdom, the responsibility for screening has 
been placed with the airports, which either hire screening companies to 
conduct the screening operations or, as at some airports in the United 
Kingdom, hire screeners and manage the checkpoints themselves. In the 
Netherlands, the government is responsible for passenger screening and 
hires a screening company to conduct checkpoint operations, which are 
overseen by a Dutch police force. We note that, worldwide, of 102 other 
countries with international airports, 100 have placed screening 
responsibility with the airports or the government; only 2 other 
countries--Canada and Bermuda--place screening responsibility with air 
carriers.
    Because each country follows its own unique set of screening 
practices, and because data on screeners' performance in each country 
were not available to us, it is difficult to measure the impact of 
these different practices on improving screeners' performance. 
Nevertheless, there are indications that for least one country, 
practices may help to improve screeners' performance. This country 
conducted a screener testing program jointly with FAA that showed that 
its screeners detected over twice as many test objects as did screeners 
in the United States.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to answer any questions that you or Members of the Committee 
may have.

    [The prepared statement of Mr. Woerth follows:]

Prepared Statement of Captain Duane Woerth, President, Air Line Pilots 
                       Association, International
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Duane Woerth and I am the President of the Air Line Pilots Association, 
International. ALPA represents 67,000 airline pilots who fly for 47 
airlines in the U.S. and Canada. In addition, I am also here today 
representing the Transportation Trades Department of the AFL-CIO, of 
which I am a Executive Vice President.
    It is an honor to be able to speak to you today, but I sincerely 
wish that I could do so under more pleasant circumstances. Before last 
Tuesday, most of us could not have imagined the possibility of the 
horror that occurred on that day.
    Our hearts, thoughts and prayers are with the families and friends 
of those killed as a result of the four separate aircraft hijackings. 
We have lost pilots and flight attendants from our ranks who, though 
gone, will never be forgotten. The survivors of the Attack on America, 
as it has been called, must now work diligently to ensure that our 
beloved country, and its airline industry, are protected from further 
acts of terrorism.
    One of the lessons of this tragedy has been that the nation truly 
does rely upon the aviation industry as the ``wings'' of our economy. 
Without a strong airline industry, our economy is in serious peril. 
With that thought in mind, I want to inform you that we are striving to 
do all that we can to help the industry get back into the air and we 
urge the Administration and Congress to do likewise. I am certainly 
proud to inform you that union pilots and flight attendants 
demonstrated a ``can do'' spirit and a willingness to return to work 
shortly after the events of the 11th in order to get the aviation 
system running again.
General Comments
    Prior to the events of last Tuesday, the aviation security 
community was generally opposed to the concept of adopting a 
``fortress'' mentality to protect our airlines and airports. The use of 
tall security fences, highly visible armed police officers roaming the 
airport terminal, hand searches of bags, interviewers asking probing 
questions of passengers, and other such measures were thought to be 
incompatible with commercial aviation in a free society.
    It is probably safe to say that the entire aviation industry, 
including most in the government, traveling public, airlines, airports, 
and perhaps, even crewmembers, enjoyed a false sense of security before 
September 11th. I suspect that many of us believed that, although 
flawed, our security system was generally doing the job that it was 
intended to do. Unfortunately, that mind set may well have been at the 
root of what enabled the 19 terrorists to perform their acts of 
unspeakable devastation on an unsuspecting and innocent public.
    If, in fact, there has ever been a false sense of security, it most 
certainly no longer exists. We must replace that false sense of 
security with a genuine sense of security, by instituting the most 
advanced civil aviation security system in the world.
    The security improvements that I am here to recommend to you today 
range from the simple, inexpensive and quickly achieved to the 
difficult, expensive and longer term. We believe that if the 
government, working with us and the rest of the aviation industry, will 
act on them forthrightly, we will some day be able to tell our children 
and grandchildren that we turned tragedy into triumph.
    Several years ago, ALPA embarked on a campaign entitled One Level 
of Safety. That effort, as you probably know, was highly successful in 
bringing to the attention of the traveling public, elected officials 
and the aviation industry the need for significant safety improvements 
to small airline aircraft operations. As a result of those efforts, 
smaller airline aircraft now meet the same, or equivalent, standards of 
the largest aircraft in the fleet.
    This week, we must embark upon a new mission to achieve one level 
of security throughout the airline industry. The security in place last 
week was, by design, of differing levels. The rationale behind those 
disparate levels of security was that the threat posed to small 
aircraft was thought to be less than that posed to large aircraft. The 
dangers associated with operating at small airports were thought to be 
less than the risks germane to large airports. The hazards posed by 
service personnel carrying items around the screening checkpoint were, 
curiously, thought to be of less concern than those associated with 
uniformed crewmembers going to their aircraft. And for the most part, 
we even felt that the threat to domestic flights was less than the 
threat to international flights. These assumptions have been proved 
wrong.
    We now know that those assumptions must be discarded so that we can 
get about the work of preventing any further acts of aircraft piracy 
and other acts of malice. It is now clear that any size aircraft flying 
from any size airport, international or domestic, can be used as a 
human-guided weapon. Accordingly, we believe that in order to create a 
truly secure aviation system, we must start with the principle that the 
traveling public and aircraft crewmembers need one level of security, 
no matter where they fly to or from and regardless of the size of 
aircraft in which they travel. The remainder of our comments should be 
understood in that light.
    Last week's horrific acts of violence were perpetrated, as we now 
know, against a nation despised by certain Islamic terrorists. The 
weapon of choice, namely, an airline aircraft loaded with fuel and 
passengers, was viewed as a handy resource aimed at destroying our 
nation's economic viability and wracking the American people with fear. 
I am sure that you will agree with me that the terrorists will 
accomplish neither objective. But, it should be recognized by all that 
airline security must be viewed as a component of national security 
from this day forward. It is no longer feasible to expect that the 
airlines alone can protect the industry that gives wings to the rest of 
the national economy. While we are not suggesting that airlines be 
excused from all costs associated with securing their aircraft or the 
facilities that they occupy, we are saying that the federal budget must 
share in the costs of defending this national resource.
    We call upon the Administration and Congress to ensure that the 
funding necessary for fortifying our airlines and airports be made 
available so that we can boost the public's confidence in returning to 
the skies. Our economy needs a healthy airline industry and enhancing 
security immediately will be essential to achieving that goal.
A New Aviation Security Blueprint
    In the early 1970's, pilots took a strong, solitary stand against 
hijackings by demanding that the government mandate security screening 
of passengers. We were not successful in persuading the government to 
provide that protection, despite literally dozens of hijackings in 
prior years, until late 1972, when two separate incidents resulted in 
two woundings and one death.
    Thirty years later, we find that we must take another strong stand. 
The aviation security system, as constructed today, must be completely 
overhauled in order to (1) address the new risks that could harm us and 
(2) bolster the confidence of the traveling public that it is safe to 
fly again. We are promoting a new security ``blueprint'' which we 
believe will accomplish both of these goals.
Near-Term Actions
    Aviation security must be dramatically improved, and it must begin 
not next month or next year, but today. It must happen now to limit the 
amount of damage being done each day to the health of the airlines and 
our national economy. As mentioned previously, the federal government 
should provide the funding for these ``defense-related'' expenditures 
to avoid further harm to an already weakened industry.
    Following are the near-term actions that we are pursuing, for which 
we request your support and assistance. As used herein, we define 
``near-term'' actions as those that are under development now, or could 
be very shortly, and can be implemented in a relatively short period.

    1. Current cockpit doors are weak and flimsy, and can be easily 
compromised by a determined adult. There is a clear need for the 
increased security that a stronger door would provide. A dead bolt lock 
should be installed on the inside of cockpit doors that cannot be 
overridden with a key from outside; the door must be capable of being 
opened quickly in the event of a safety problem. This will offer a 
relatively small, but needed, additional margin of security over 
today's cockpit doors.

       A second, lightweight mesh net door should be installed behind 
the cockpit door on the flight deck side. This net door could be used 
as an additional protection device in the event of a security breach in 
the cabin.

    2. The development of standards for an advanced cockpit door 
technology, and research on this technology, is already under way. Such 
a door, when installed, will be capable of securing the flight crew 
against attacks by would-be cockpit intruders, armed or otherwise. The 
door system, which must be fail-safe in the event of an accident 
requiring rapid egress, should be retro fitted on current aircraft and 
installed by the manufacturers on new airplanes. This item cannot be 
accomplished immediately, but ongoing work on it needs to be expedited.

    3. Before last Tuesday, we could scarcely have envisioned calling 
for cockpit protection in the form of weapons carried in the cockpit. 
However, the world has changed and we must change with it. We recommend 
the installation of at least two stun guns as standard equipment in the 
cockpits of airline aircraft, three if there are three flight 
crewmembers.

       There are sophisticated stun guns on the market today that are 
capable of immediately incapacitating a person of any size or strength, 
without posing any health risks to the individual. The devices have 
laser sights for accuracy and are capable of being used on a person up 
to 15 feet away. Use of these guns would be done in only the most 
extreme circumstances, to protect the lives and safety of the 
passengers and crew.

    4. We are most pleased to learn that the FBI is in the process of 
creating a cadre of federal law enforcement officers to fly armed on 
airline aircraft. The FAA is also making plans to increase the number 
of Federal Air Marshals (FAMs) assigned to its contingent. ALPA has 
long been a proponent of the FAM program, because we are confident in 
its training standards and professionalism. We are also confident that 
the FBI will successfully create a professional air marshal group 
capable of defending against the types of hijackings that we saw last 
week. We recommend that the Congress provide such assistance as may be 
needed to facilitate the creation of the FBI's marshals and an 
enlargement of the FAA's FAMs.

    5. One of the most basic functions of a good security system is 
positively identifying those individuals who are authorized entrance to 
an area and keeping out all others. The absence of access controls was 
a primary factor in the downing of PSA flight 1771 in December 1987. 
Since that time, we have called for the institution of electronic means 
of positively identifying each and every employee who has authorization 
to enter secured airport areas.

       Today, the failure to require airlines and airports to verify 
employee identities is the cause of serious concerns about the security 
of flight. The reported possibility that terrorism are, or may have, 
posed as airline employees has caused us to focus our limited security 
resources on honest, trustworthy employees instead of unknown possible-
threat passengers.

       Last spring, it became public knowledge that GAO inspectors were 
able to gain entrance to 19 federal office buildings and carry weapons 
around two airport security checkpoints using phony credentials. The 
FAA is in the process of developing a highly secure Memory Chip Card 
(MCC) system to identify armed law enforcement officers (LEO's). Plans 
have been announced to install a special MCC reader at each security 
screening checkpoint in the U.S. in order to positively identify armed 
LEO's. This technology could also be used to positively screen airline 
and airport employees traversing the screening checkpoint.

       Until there is a means in place to electronically verify the 
identity of all employees and armed law enforcement officers, they 
should produce a company ID and a photo driver's license for this 
purpose. These items should be examined and validated by the airport 
police at the security-screening checkpoint. An alternative measure 
that would work for those airports having a computerized access control 
system would be the placement of a card reader at the screening 
checkpoint for use by employees.

    6. In today's aircraft, there is only one way for the flight 
attendants to talk with the flight crew when the cockpit door is 
closed, namely, by calling on the interphone. This method of 
communication is very observable when a flight attendant makes a call 
under duress. We recommend the installation of a discreet switch(es) in 
the cabin for use by flight attendants which enables them to discreetly 
notify the flight crew that there is a security breach occurring in the 
back of the airplane.

    7. All personnel seeking employment in the aviation industry who 
need access to airline aircraft in the performance of their duties 
should, effective immediately, be required to undergo a criminal 
background check. The airline industry must create and maintain the 
highest personnel hiring standards in order to protect against 
``insider'' threats. The technology for processing criminal background 
checks has advanced to the point where they can be made via electronic 
means.

    8. Related to item #5, airports and airlines should immediately 
revalidate all of their employee's identification cards using hologram 
stickers, or through card reissuance. Some airports may be able to 
electronically revalidate their cards, if they have a computerized 
access control system. The industry is going to experience significant 
layoffs and reductions in force over the next several months; this 
could lead to many unaccounted-for ID cards that could be used in an 
illegal manner.

    9. The Computer-Assisted Passenger Prescreening System (CAPPS) is 
designed to use the passenger information in airline data bases to 
determine whether the individual poses a security risk. We have 
recently learned that CAPPS is assisting the FBI in its ongoing 
criminal investigation by providing information on the travel history 
of known and suspected terrorists. If properly configured, CAPPS can 
help identify potential security risks prior to boarding. We recommend 
that CAPPS be used on all domestic and international arrivals and 
departures in the U.S., Canada, and Mexico, even after the current 
threat is diminished.

    10. It has been the experience of U.S. pilots and flight attendants 
that, depending on the carrier, airline-provided security train g is 
poor and outdated. Current training includes showing crewmembers videos 
that focus on hijacking situations faced in the 1970' s. Airline 
security training must not only be more current, it must also address 
the threats that a crew is likely to encounter. We recommend that the 
airlines enhance their crewmember training through the use of cabin 
mockups, problem solving, role-playing scenarios and other quality 
instructional methods.

    11. The FAA is in the process of updating its documentation on the 
``Common Strategy,'' which is used by FAA, law enforcement, airlines, 
and pilots during hijackings. The Common Strategy was written in the 
Cuban hijacking era, and so involves procedures for handling extortion-
types of hijackings (e.g., demands for money). It does not address 
suicidal hijackers or other such extreme hazards. ALPA recommends that 
the Common Strategy be amended to include procedures and training on 
the newest type of threats.

    12. We have a long-standing opposition to the INS's practice of 
deporting illegal aliens via airline aircraft. The agency's current 
guidance allows groups of up to 10 deportees to board airline aircraft 
without any type of escort. There have been serious incidents of unruly 
behavior and, most disturbing, the possibility exists that a large 
group of deportees may attempt to commandeer an aircraft to avoid 
deportation. Clearly, INS should find another method of deporting 
illegal aliens that does not place the traveling public at avoidable 
risk. We urge the INS to only board deportees when they are accompanied 
by two or more armed INS agent escorts.

    13. The FAA issues its pilot licenses as traditional paper and ink 
documents that could be easily duplicated or forged. Given that pilots 
use these licenses to help identify an individual who desires to ride 
the jumpseat, it is essential that they be produced in a highly secure 
format (i.e., electronically verifiable).

       The FAA decided approximately one year ago to put the names and 
addresses of pilots in public view on the World Wide Web. This 
information could be used in any number of malicious ways. We recommend 
that FAA remove the data from the Web and any other publicly accessible 
locations.

    14. We are all familiar with the long-running public information 
campaign of Smoky the Bear, a cartoon figure who reminds us that ``only 
you can help prevent forest fires.'' We believe that a similar campaign 
should be created by the government and industry aimed at educating the 
traveling public about aviation security. A better-informed public 
could serve as additional ``eyes and ears'' of security, assist 
crewmembers as appropriate, and cause fewer problems onboard aircraft. 
We recommend the slogan ``Security is Everybody's Business,'' and some 
type of cartoon figure to carry that message via advertisements, 
posters, etc.

    15. Consistent with #14 above, the industry should implement the 
recommendations of the FAA's Aviation Security Advisory Committee's 
Employee Utilization Working Group. The essence of those 
recommendations is that all airport, airline and service employees can, 
and should, receive an appropriate level of training and ongoing 
information about how to make aviation more secure. One noteworthy 
recommendation is the creation of a security reporting ``hotline'' at 
all airports for tips, suspicious behavior, abandoned bags, and the 
like.

    16. The threat information that pilots get, if any, is poor and 
usually outdated. The government intelligence community, working in 
concert with the airlines, should develop a greatly enhanced 
methodology for relaying timely threat information to the carriers, 
which can be shared with airline pilots.

    17. We must prepare today for the possibility of a chemical/
biological agent attack in our aircraft. Airlines should install full-
vision oxygen masks in all commercial aircraft to enable the crews to 
safely land during a chemical/biological agent attack. Aircraft should 
be equipped with air quality monitors that can provide an alarm in the 
cockpit if the presence of chem/bio agents is detected.

    18. The FAA should immediately develop and implement an ATC 
communication code for advising all pilots within radio contact that an 
aircraft is under duress or has experienced a significant security-
related event. The major purpose of this action is to alert crews to 
take appropriate precautionary measures to prevent a similar occurrence 
on their aircraft.

    19. The ban on all remote check-ins must include disallowing 
electronic ticketing check-in kiosks that currently let passengers 
check-in and receive a boarding pass without ever being identified by 
the carders. All passengers must check in and show identification at 
staffed check-in counters.

    20. Regarding baggage security, we recommend that the FAA impose 
standard limits on carry-on baggage in order to let security screeners 
spend more time examining each item brought on the aircraft. We 
strongly support increasing the percentage of bags subjected to search.

    21. Security deficiencies can, and currently are, impacting safety. 
One example virtually every cockpit crewmember has traditionally 
carried a small tool kit or ``combination'' tool in their flight case 
for dealing with small mechanical issues inflight. Based on the most 
recent FAA Security Directives of which we are aware, pilots may not 
carry them through the security-screening checkpoint.

       We are urging the FAA to (1) allow pilots to carry such tools 
through the screening checkpoint after their identification has been 
verified, and (2) require that the airlines place these tools in the 
cockpit as additional aircraft equipment.
Longer-Term Actions
    Following are our recommendations concerning action items that 
could be initiated fairly soon, but will take longer to implement than 
those above.

    1. In view of the unprecedented terrorist threat that may continue 
for some time, we believe that the Administration and Congress should 
consider the creation of a new aviation law enforcement agency. 
Currently, civil aviation security is but one of many responsibilities 
of the FAA. The FAA assumed the task of providing aviation security in 
the 1970's, approximately 20 years after its creation as a civilian 
agency. Although there are many hard-working, talented people at the 
FAA, it is not a law enforcement agency nor is it staffed to provide 
law enforcement support.

       Additionally, this branch of the FAA has to compete internally 
for resources and priorities within the agency's overall budget. To 
avoid this conflict and provide the law enforcement expertise which is 
now necessary, we believe that a law enforcement agency should be 
established whose sole responsibility would be to prevent and combat 
aviation-related crime. The removal of the security responsibility from 
the FAA would allow the new agency to be much more proactive. Whereas 
the FAA's focus is on the development, promulgation and enforcement of 
regulations, the law enforcement agency should be focused on countering 
existing and evolving threats. This agency would also be responsible 
for coordinating threat and other security information with other law 
enforcement agencies. ALPA is committed to work with you to create such 
an agency.

    2. The government's own inspectors, from the General Accounting 
Office and DOT Inspector General's Office, not to mention the FAA's 
security auditors, have found time and again that the U.S. security 
screening system is ineffective. The status quo, whereby airlines 
contract with the lowest bidder to perform security screening, has been 
a complete validation of the concept ``you get what you pay for.'' It 
is past tune to fix this problem using highly trained and motivated, 
wellpaid, screening professionals and the best possible equipment. A 
well-run, security-screening corporation, selected not on the basis of 
lowest bid but highest competency, should perform the screening 
function under the aegis of the aforementioned aviation law enforcement 
agency. The U.S. should borrow from successful European security 
screening systems, which employ interviewers, maintain separate ramp 
crew access and other measures in the development of the new security 
screening system.

    3. Government and industry have, as partners, made great progress 
in the development of explosive detection systems capable of spotting 
the most ingeniously disguised bombs and most minute particles of 
explosive material. However, there is much work still to be done.

       FAA is in the initial phases of researching ``Free Flow,'' a 
high-tech security screening system. We strongly support this concept 
and urge the Administration and Congress to fully fund it, ultimately 
as a means of rapidly and accurately detecting explosive devices, 
weapons, and chemical/biological agents on persons and in their bags.

    4. We have known for some tune that individuals, almost certainly 
terrorists, are stealing pilot uniforms and credentials. The imposter 
threat cannot be effectively dealt with unless there is positive, 
electronic verification of the identities of each employee authorized 
to enter the secure areas. It is past tune that we created a system 
that will prevent an airline employee imposter from fraudulently 
gaining access to our aircraft and threatening the lives of all onboard 
and others on the ground. We have long supported the development and 
implementation of the Universal Access System (UAS), an effort aimed at 
closing the gaping hole in airline employee identification. FAA has 
completed UAS standards; we urge that implementation of it begin 
immediately.

    5. Similar to the problem of employee identity verification, the 
airlines are not currently capable of positively determining who is 
getting on their aircraft. This is demonstrated when aircraft leave the 
gate with art inaccurate manifest; we know of one airline that 
routinely allows flights to leave the gate with a two-person error.

       As another example, after one accident last year, an airline CEO 
made a public request for assistance in identifying the passengers on 
his own aircraft! The security ramifications are substantial--unless we 
know that the person boarding the aircraft is the same one who bought 
the ticket, we cannot positively ascertain that the individual has been 
through the security checkpoint and is not carrying a weapon.

    6. We are aware of a technology, available today, which is capable 
of taking a photo of each person and their checked bags. The photo is 
encrypted on the airline ticket in the form of a striated bar code, 
known as two-dimensional bar coding. The ticket is machine read at the 
gate and a monitor shows the gate agent the photo of the ticket bearer. 
If the two faces do not match, the passenger is denied boarding. The 
photo of a checked bag can be used to identify it easily, if it needs 
to be taken off the aircraft subsequent to boarding, but prior to 
flight. The system also avails the ability to positively match the 
passenger with his/her bags.

       We recommend that the government investigate the various 
technologies available for positive passenger and checked baggage 
identification and begin moving toward the eventual goal of requiting 
the airlines to use it for security purposes. This identification 
system can be integrated with CAPPS for even greater synergy.

    7. In connection with the item above, the airlines should create, 
and have readily available, basic information about each passenger's 
special capabilities, if any. In the event of an emergency, the captain 
could, by contacting dispatch, immediately determine if there were any 
doctors, police, bomb specialists, etc., on the flight who could be 
requested to provide assistance. This capability would be extremely 
helpful in the event of a security breach, because the captain could 
determine whether there are onboard resources that could help resolve 
the problem.

    8. There is much discussion ongoing today about the feasibility of 
arming pilots. The events of last week demonstrated that lethal force 
could be used to advantage. We have given this matter serious 
discussion and we believe that there could be potential for making this 
possibility a reality. However, as noted above, we have a seriously 
deficient employee identification system that must first be addressed. 
We want to ensure that anyone who is armed and going through the 
security checkpoint is positively identified.

       After meeting that goal, a thorough study should be given to a 
program where airline pilots who meet strict qualifications could 
voluntarily be trained as sworn federal law enforcement officers with 
arrest authority and allowed to carry weapons in the cockpit to protect 
themselves and their passengers.

    9. The FAA should begin a program to certify flight attendants as 
safety professionals. This would enhance flight attendant training and 
formalize and reenforce their role as safety professionals. This would 
also ensure proper training for all types of emergencies. It is 
essential that flight attendant training be improved in this area.

    Thank you, again, for the opportunity to appear before you today. I 
would be pleased to respond to any questions that you may have.

    [The prepared statement of Mr. Barclay follows:]

     Prepared Statement of Charles M. Barclay, President, American 
Association of Airport Executives on Behalf of the American Association 
of Airport Executives and Airports Council International-North American
    Chairman Hollings, Ranking Member McCain and Members of the Senate 
Commerce Committee, thank you for inviting me to participate in today's 
hearing on aviation security. I am testifying today on behalf of the 
American Association of Airport Executives (AAAE) and Airports Council 
International-North America (ACI-NA). ACI-NA represents local, regional 
and state governing bodies that own and operate commercial airports in 
the United States and Canada. AAAE represents the men and women who 
manage the primary, commercial service, reliever and general aviation 
airports. I appreciate this opportunity to discuss ways that we can 
work together to improve aviation security.
    I know I speak on behalf of all AAAE and ACI-NA members throughout 
the United States and Canada when I say our thoughts and prayers go out 
to those who suffered as result of the terrorist attacks that occurred 
last week. The fact that terrorists hijacked four commercial airlines 
to carry out their attacks against the World Trade Center and the 
Pentagon is particularly troubling to our members because they consider 
passenger safety and security to be their most important 
responsibilities.
    Our hearts also go out to our friends and colleagues who work for 
the Port Authority of New York and New Jersey. The Port Authority, of 
course, operates John F. Kennedy International, LaGuardia, Newark 
International and Teterboro airports. Until last week the Port 
Authority's aviation department was located on the 65th floor of One 
World Trade Center--the first tower struck by American Airlines Flight 
11 from Boston to Los Angeles. From reports that we have received, it 
appears that most of those who served in the aviation department were 
able to escape the north tower before it collapsed. Unfortunately, 
approximately seventy of their colleagues from the Port Authority are 
still missing. Many of those are law enforcement officers from the Port 
Authority who were trying to help people evacuate the World Trade 
Center. We will never forget that they and so many police officers, 
firefighters, and office workers risked their lives in an effort to 
save others.
    In a speech that he gave at Harvard University on June 5, 1947, 
Secretary of State George C. Marshall proposed that the United States 
help to rebuild Europe after World War II. More than 40 years later, 
the United States must repair the destruction that occurred in our own 
country after terrorists struck the World Trade Center and the 
Pentagon. There is no question that we will rebuild the financial 
district in New York City and repair damage done to the Pentagon. But I 
would suggest that all of us with an interest in aviation need to work 
together on a Marshall Plan for improving airport and airline security. 
We simply cannot allow the hijackings and terrorist attacks that 
occurred last week to happen ever again.
    On Monday, Secretary of Transportation Norman Mineta formed two 
rapid-response teams to make recommendations on improving aviation 
security. One will focus on ways to improve aircraft security, and the 
other improving airport security. I am honored that the Secretary asked 
me to work on the airport team. I look forward to working with him, 
Deputy Secretary of Transportation Michael Jackson, Federal Aviation 
Administrator Jane Garvey and the other members of the rapid response 
teams to propose new security requirements to protect the safety of the 
flying public.
    But as you have been asked to do so many times before, Members of 
the Senate Commerce Committee and others in Congress will need to play 
a key role in developing solutions to the security shortfalls that we 
experienced last week. This Committee, under the guidance of Chairman 
Hollings, Ranking Member McCain, Aviation Subcommittee Chairman 
Rockefeller and Ranking Member Hutchison, has a long track record on 
improving aviation security, and all of you should be commended for 
your leadership on this issue. I am also pleased that members of this 
Committee and others in Congress are continuing to propose constructive 
ways to improve aviation security in the aftermath of last weeks 
terrorist attacks. I look forward to working with you to explore those 
and other opportunities to enhance airport and airline security.
    After the terrorist attacks that occurred last week, the Federal 
Aviation Administration (FAA) promptly closed our nation's commercial 
airspace system and issued two emergency amendments that included 
several security initiatives. I think the Administration, Secretary 
Mineta, and Administrator Garvey deserve a great deal of credit for 
their quick response during this national crisis. I also applaud the 
leadership and staffs of the nation's airports that have been working 
with Department of Transportation (DOT) and FAA officials at an 
extraordinary pace to heighten security and resume air travel.
    As all of you know, airports and airlines were required to 
implement these new security measures before being allowed to resume 
their operations. Airports, for instance, were immediately required to 
deploy more law enforcement officials and K-9 units, increase security 
inspections throughout their facilities, strengthen access control 
measures and remove all vehicles parked near their terminal buildings. 
In addition to the new security measures that were implemented in 
recent days, I think there are many other options that Congress and the 
Administration should explore in an effort enhance security at our 
nation's airports. I would like to take a moment to outline some 
proposals for your consideration.
     Use Well-Trained Security Professionals to Screen Passengers and 
Baggage: As all of you know, airlines are responsible for screening 
passengers and their carry-on baggage for weapons and explosives, and 
carriers usually contract security companies to hire and train 
screeners. The numerous shortcomings of the current system have been 
well documented. Last year, the General Accounting Office reported that 
screeners who operate checkpoints have ``had difficulty in detecting 
dangerous objects, missing as many as 20 percent during tests.'' The 
agency cited rapid turnover of screener personnel and low wages as 
major causes of poor performance.
    In light of the hijackings that occurred last week, it is now more 
important than ever that steps be taken to improve the way we screen 
passengers and their carry-on baggage. The key issue, in our view, is 
to improve the training, testing, and thereby the proficiency of those 
individuals conducting the screening of passengers and baggage. I know 
many in Congress and the aviation industry have called for federalizing 
screeners. But ultimately the more immediate need is to professionalize 
aviation security personnel. It is important to note that 
federalization does not necessarily mean hiring federal law enforcement 
officers.
    At most federal facilities today, checkpoints are operated by 
contract employees. If this option were to be exercised at airport 
screening checkpoints, there may be no significant difference between a 
screener contracted by the Federal Government and a screener working 
for a security company contracted by the airlines. One proposal is to 
have federal law enforcement conducting the screening. In any event, 
the issue is performance standards, not just responsibility for 
oversight. For that reason, we hope that any solution--whether it 
include hiring federal law enforcement officials or federalizing those 
who screen passengers and their carry-on baggage--result in adequately 
compensated screeners who are trained and tested to a level of 
proficiency much higher than currently required of commercial 
screeners.
    Deploy Explosive Detection Systems at More Airports: We also need 
to provide screeners with better equipment. There are a number of 
innovative technologies that have made detection of explosives and 
other deadly or dangerous weapons easier to identify. While these 
systems are commonly viewed as only as effective as the trained 
personnel who operate them, they are an increasingly essential facet of 
the aviation security equation. The integration of a new generation of 
Explosive Detection Systems (EDS), as called for by the 1996 
Presidential Commission on Aviation Security and Terrorism, has been an 
important addition to our efforts to improve the security of our 
aviation system. These and other new technologies must be integrated 
into the nation's airports at a much quicker pace and with increased 
attention to the resources, training and infrastructure requirements 
necessary for their effective use.
    As with any technology, planning and training are critical to 
realizing the potential of explosive and other weapons detection 
systems. A significant number of the new generation explosive detection 
systems are being used at 46 airports around the country. We need to 
deploy more explosive detection systems at airports of all sizes 
through a much more swift and coordinated process.
    The FAA, through its Security Equipment Integrated Product Team, 
has been responsible for the purchase and deployment of these systems 
throughout major airports around the country. They are commonly used 
for baggage screening of the traveling public, but a higher priority 
needs to be placed on better coordination with industry on where they 
are deployed both throughout the system and within individual airports.
    EDS baggage screening machines and other resource intensive 
security technologies come with significant infrastructure, maintenance 
and training requirements. Terminal and baggage handling areas must be 
redesigned to accommodate these systems. Airport and airline personnel 
must be trained on their proper operation and maintenance. In many 
instances, structural and electrical capabilities may need to be 
upgraded to accommodate them. All of these elements must be provided 
for in advance of their deployment, which has unfortunately not always 
been the case. If it is agreed that the best technologies must be 
deployed to combat terrorist threats, then it must be done with proper 
planning, coordination and resources.
    Use New Technology to Tighten Access to Secure Areas in and around 
Airport Terminals:  In addition to improving the screening process for 
passengers and baggage, we need to do a better job of controlling 
access to secure areas in and around airport terminals. Last year, the 
DOT Inspector General highlighted the shortcomings in access control 
technology and procedures at some airports around the country. This is 
an issue that airport operators take seriously, and we need to continue 
to improve procedures and deploy new technology to tighten the 
perimeter of secure areas. Controlling these critical access points is 
key to improving aviation security and will require capital 
improvements as well as an increase in research and development 
efforts.
    Enhanced technology should not only be applied to access control 
measures but to the process of screening personnel entering the secure 
areas as well. Understanding that the secure area of most airports is 
an operational area, this will be a daunting task. While there are 
policy measures that can be taken such as restricting the type and 
amount of personal possessions that may be carried into the secure area 
as a matter of course this may not prove to be sufficient. Ideally, 
each access point from the public to the secure area would be equipped 
with security screening equipment and trained personnel.
    Conduct Background Checks on Those Who Have Access to Secure Areas: 
Better technology is only part of the equation. Just as we need to have 
better trained screeners, we must also focus on eliminating undesirable 
behavior that can nullify even the best technology used to control 
secure areas. Toward that goal, it is essential that we concentrate our 
efforts on ensuring that only those persons who have undergone thorough 
background checks are granted access to secure areas.
    Last year, Senator Hutchison introduced S. 2440, the Airport 
Security Improvement Act of 2000. Like many on this Committee, we 
strongly supported that legislation because it called on the FAA to 
work with air carriers and airport operators to strengthen procedures 
to prevent unauthorized access to secure areas and commercial aircraft. 
The bill, which was enacted into law on November 22, 2000, requires 
criminal background checks for security screeners and others who have 
access to secure areas in the top twenty most at risk airports. The 
legislation requires background checks for those at other airports to 
be phased-in over three years. It also requires the FAA to expand and 
accelerate the Electronic Fingerprint Transmission Pilot program.
    In light of recent events, we think the FAA should accelerate the 
phase-in period for criminal history record checks and allow all 
airports to utilize the electronic fingerprint assessment technology 
immediately. It is imperative that the Federal Bureau of Investigation 
(FBI) give these background checks priority consideration and that the 
agency be given the necessary resources to process them in a timely 
manner.
    Since the aviation system has been targeted as means of carrying 
out terrorist activity, we believe that the current criteria applied in 
assessing who is allowed access to secure areas are inadequate. Airport 
operators are currently restricted by law to assessing records of 
convictions for very specific crimes, and we think that the range of 
activities subject to that assessment should be broadened. We are also 
aware that various federal agencies keep records of persons with the 
propensity to commit acts of violence and or terrorism. Airports should 
be able to submit queries to a single federal entity to have applicants 
for positions requiring unescorted access vetted against such lists. We 
believe that this federal entity should take the lead to query all 
other federal agencies with an interest in terrorist issues to ensure 
that personnel to whom we grant unescorted access are not suspected of 
or directly involved in terrorist activity.
    Increase the Number of Law Enforcement Officials and K-9 Units at 
Airports: As I mentioned earlier in my statement, the new security 
measures that the DOT issued last week required airports to increase 
the number of uniformed security patrols or law enforcement officials 
at their facilities. Visible security patrols and uniformed law 
enforcement officials have proven to be an extremely effective 
deterrent to acts of violence in airports. The mere presence of 
uniformed officers at and around screening checkpoints has reduced the 
number of passengers attempting to circumvent the checkpoint.
    Due in part because these programs have been so successful, many 
have argued for an increase in the number of trained law enforcement 
officers present in the public and the secure area of airports. 
Currently the number of officers is small, and our forces are stretched 
thin across the airport system. We believe that more law enforcement 
officials should be a permanent addition to airport security and that 
it is incumbent upon Congress and the Administration to make sure 
airports have the resources they will need to pay for the additional 
security.
    FAA certified K-9 teams are an important component of an airport's 
ability to screen passengers and their baggage. The FAA is recognized 
as having a premier K-9 program. The problem is there are simply not 
enough FAA certified K-9 units to go around. It is our understanding 
that K-9 teams from other federal agencies are trained to a different 
standard than the FAA teams and are therefore not authorized for use to 
comply with FAA security directives. We strongly believe that the FAA 
should expand its K-9 program to improve security at more airports. In 
the meantime, we hope the FAA will consider allowing airports to use K-
9 teams trained by other agencies.
    Disseminate Intelligence to a Designated Airport Security 
Coordinator: The FBI, Central Intelligence Agency and other 
intelligence agencies each play their own part in monitoring, 
identifying and assessing threats to national security. Some of the 
information processed by this intelligence community identifies 
potential threats to the safety of civil aviation, and some of this 
information is shared with offices in the DOT and FAA. However, very 
little of this critical data is shared with the front line airport and 
airline personnel responsible for implementing security procedures.
    Aviation security needs to be among the top priorities of the 
intelligence agencies responsible for identifying terrorist threats. 
Coordination of intelligence dissemination with the Secretary's Office 
of Intelligence and Security, appropriate FAA staff and finally airport 
security coordinators will dramatically increase the likelihood that 
real threats to the system are met with real local response and 
preparedness.
    As a direct result of the recommendations from the 1996 
Presidential Commission on Aviation Safety and Security, aviation 
security consortia were formed and vested with the authority to work 
cooperatively with federal regulators to meet the goals of increased 
aviation security. This increase in the level of effective 
communication and cooperation has steadily improved the baseline of 
aviation security. With the events that occurred last week, this type 
of government and industry cooperation is particularly important. 
Airport security professionals play a key role in developing, 
implementing and maintaining effective security measures, and their 
input should be used as we develop new ways to increase aviation 
security.
    Deploy Federal Security Managers at More Airports: The FAA is 
responsible for providing threat information to airports and 
establishing aviation security policies and regulations. The agency's 
Civil Aviation Security Operations Office has deployed Federal Security 
Managers to the nation's highest risk airports to assist in 
coordinating security efforts. This program was originally intended to 
give these airports direct access to the Associate Administrator for 
Civil Aviation Security in times of heightened concern. But the scope 
must be expanded to provide similar coordinated efforts at more 
airports.
    Again, these are just some options that I think Congress and the 
Administration should explore in an effort to enhance security at our 
nation's airports. Many of the proposals, such as providing a better 
screening process, would increase security at airports and on 
commercial airlines. I know many in Congress have proposed expanding 
the FAA's Federal Air Marshal program as a way to deter to air piracy. 
While airports don't play a role in the Air Marshal program, I think 
this week's announcement by the Attorney General regarding the 
expansion of the program is an extremely positive and important step.
    Mr. Chairman, I would like to make two final points. First, a 
number of the mandated security measures that I described earlier in my 
testimony have resulted in significant cost increases for the nation's 
airports. There is no question that these are important to our efforts 
to enhance aviation security and absolutely necessary given the 
horrific events that occurred last week. It is our hope that as 
Congress considers legislation to help the airline industry funds will 
also be made available to airports for compliance with the new mandated 
security initiative imposed by the FAA.
    I would also like take a moment to discuss Ronald Reagan Washington 
National Airport. Given the airport's proximity to the White House, the 
Capitol and other federal buildings and monuments in the Washington 
metropolitan area, I understand the concerns that some have raised 
about the possibility that the airport could be used for future 
terrorist attacks. Those are legitimate concerns that need to be 
adequately addressed, and additional security measures that should be 
taken by the airport and the airlines that fly in and out of 
Washington, D.C. But in the end, I hope the debate will be about how we 
reopen National Airport--not if we reopen it. As US Airways Chairman 
Stephen M. Wolf recently said, ``Closing Reagan National Airport is an 
unacceptable visible win for terrorism.''
    In what has become known as the Marshall Plan Speech, Secretary 
Marshall said: . . . I need not tell you gentlemen, that the world 
situation is very serious. That must be apparent to all intelligent 
people. I think one difficulty is that the problem is one of such 
enormous complexity that the very mass of facts presented to the public 
by press and radio make it exceedingly difficult for the man in the 
street to reach a clear appraisement of the situation.
    Those comments could easily describe the confusion that all of us 
felt after the terrorist attacks that occurred last week. But just as 
the United States successfully helped to rebuild Europe, so too can we 
can strengthen the security of our aviation system. All of us will need 
to work together, and all of us will need to make some sacrifices. But 
I'm confident that we can overcome the challenges ahead.
    Chairman Hollings, Ranking Member McCain, and Members of the Senate 
Commerce Committee, thank you again for inviting me to participate in 
today's hearing on aviation security. All of us at ACI-NA and AAAE look 
forward to working with you and others in the aviation industry during 
the days and weeks ahead on ways to enhance airport and airline 
security.

    [The prepared statement of Mr. Hudson follows:]

 Prepared Statement of Paul Hudson, Executive Director of the Aviation 
                        Consumer Action Project
    Good morning Chairman Hollings, Subcommittee Chairman Rockefeller 
and Members of the Committee.
    My name is Paul Hudson. I am executive director of the Aviation 
Consumer Action Project (ACAP), an nonprofit organization founded in 
1971 with thousands of air traveler supporters that acts as a voice and 
ear for air travelers and the general public on national aviation 
issues. ACAP has been a member of the FAA's Aviation Security Advisory 
Committee since 1991 and has advocated for stronger aviation security 
for more than 15 years. From 1989 to 1993 I was president of the 
Families of Pan Am 103/Lockerbie, and a grieving terrorist victim 
family member. I testified before Congressional committees many times 
and lobbied for strengthening aviation security, particularly enactment 
of the Aviation Security Improvement Act of 1990, which forms the basis 
of the present aviation security system. From 1977 to 1987, I was 
counsel to the New York State Crime Victims Board, and a consultant to 
the American Bar Association's Victims Committee and the National 
Institute of Justice on crime and terrorist victim rights.
    Thank you for holding this hearing ten days after the worst 
terrorist attack in history . The September 11th attacks proved that 
airliners can be used as weapons of mass destruction, something never 
anticipated or even imagined in my many discussions with aviation 
security officials and experts.
    September 11th, 2001 was certainly a day of infamy for the America 
and the world. That day also changes forever how we look at aviation 
security and terrorism. With over 5,000 dead on the ground plus about 
200 air travelers, the total destruction of the World Trade Center and 
surrounding buildings, the partial destruction of the Pentagon, the 
apparent targeting of the White House and U.S. Capitol, plus enormous 
damage to the American economy, aviation security is clearly a top 
national security priority. It must be upgraded, at least, to the 
highest standards of federal law enforcement and national security in 
the coming months. In the meantime, aviation security must under no 
circumstances allow a repeat of the September 11th attacks.
    Accordingly, we must now focus on emergency measures that can be 
done in days or weeks and not even consider things that undercut 
security, while we are still under imminent threat of this new form of 
terrorism.
Needed emergency measures
    ACAP is recommending the following emergency measures to the FAA:

1) Quickly secure airliner cockpits. Initially this will require 
    deploying armed guards or law enforcement agents or armed flight 
    crews. Later stronger cockpit doors and security barriers or 
    screens must be installed.

2) Restrict or ban carry-on baggage. Since carry-on baggage can contain 
    weapons that can be used in hijacking and the current screening 
    systems are known to be inadequate, carry-ons should be restricted 
    to one small bag with hand searching or else eliminated entirely.

     We are also calling on airline passengers to voluntarily reduce or 
eliminate their carry-on baggage. This will both improve security and 
reduce delays.
Backward Steps
    Last weekend, the FAA lifted the ban on general aviation (private 
aircraft) except within 25 miles of New York City and Washington, D.C. 
With about a million private airplanes in the United States and little 
or no security systems in place, the risk of terrorists using such 
planes with explosives to attack tall or landmark buildings requires 
temporary restrictions. ACAP recommends that general aviation be banned 
to within 100 miles of major cities or likely terrorist targets, 
without special FAA security officers clearance.
    On September 17th the FAA lifted the ban on passenger airliners 
carrying unscreened mail and cargo. This ban was only instituted last 
week. The ban was in place during the Gulf War and its aftermath. It 
should be immediately re-instituted.
    Pressure is now building to re-open Reagan National Airport. This 
step should not even be considered until a much higher level aviation 
security is in place and such systems have been independently tested 
and found to be effective with the highest level confidence to ensure 
against a repeat attack on Washington, D.C. Since airplanes taking off 
or landing at Reagan National Airport are literally seconds away from 
the White House, the U.S. Capitol building, the Pentagon and other key 
U.S. Government buildings and other national landmarks, we doubt that 
such a system is possible.
Medium term measures
    The following measures should be done in the next several months, 
but may take a year or more to complete:

1) Federalization of aviation security by establishing a separate 
    Aviation Security Agency not within the Transportation Department 
    is essential to break the cycle of incompetence and lack of 
    accountability that is endemic in the current system of private 
    security contractors and airline/airport security under FAA 
    oversight.

     While I do not wish to dwell on the past, aviation security since 
1989 has been the subject of two presidential commissions (after the 
Pan Am 103 bombing and the TWA 800 disaster), at least one major law, 
scores of rulemaking and minor legislation. As anyone who saw the ``60 
Minutes'' CBS television program last Sunday now knows, and as those 
involved with this issue have known for years, the system is broken and 
has been incapable for over a decade to bring its performance up to the 
level required by existing security regulations based on past terrorist 
attacks, much less to anticipate and effectively deal with future ones. 
Who could rationally argue we should again entrust our national 
security to private security contractors or airline and airport 
employees with FAA/DOT oversight? After in the past week losing the 
World Trade Center, four jumbo jets, part of the Pentagon and over 
5,000 lives? The airlines, aviation unions and aviation consumer 
organizations are united on this point.

2) Cockpit doors must be secured with strong doors and locks that have 
    keys that are not easily compromised. Presently such doors are 
    intentionally made of light weight materials so that they can be 
    kicked out, in case the door is jammed or locked and the crew needs 
    to make an emergency evacution.

     Beyond this, security screens or barriers need to be installed 
between the cockpit door and the passenger cabin so that hijackers 
cannot even approach the cockpit door during flight.

3) Passengers, pilots, aviation security and airport and airline 
    employees and contractors must be screened to ensure that suspected 
    or wanted terrrorists are not infiltrating the U.S. aviation 
    system. Presently persons on the FBI or INS or Customs terrorist 
    watch lists or even wanted terrorists are not flagged to be 
    apprehended by airline security, denied boarding, or even subjected 
    to extra security. It has been reported that the Computer Assisted 
    Passenger Profiling System ( or CAPPS system) operated by the 
    airlines and of which they are so proud, uttering failed to 
    identify any of the 19 suicide hijackers involved in the September 
    11th attacks, even though at least two were on the U.S. 
    Government's terrorist watch lists and they used their own names to 
    purchase airline tickets on four hijacked U.S. airliners operated 
    by American and United Airlines. Existing employees with access to 
    secure airport areas are not screened for criminal histories and 
    not required to pass national security checks. Likewise there is 
    nothing to prevent terrorists in the U.S. from obtaining pilot 
    training on airliners or jumbo jet simulators or from renting 
    private airplanes in the United States.

     Face recognition, optical fingerprint, retina, voice print or 
other personal identification technology, all currently available 
technologies, must be used to secure U.S. aviation against would be 
terrorists.

4) Flight crews must be retrained to resist rather than cooperate with 
    hijackers.

     Current training assumes that hijackers are not determined 
suicidal fanantics and. emphasizes cooperation with hijackers so as not 
to unduly upset them. Clearly this training is largely misguided in 
light of last week and flight crews must be retrained.

5) Civil defense training and public education is needed to deal with 
    21st Century terrorist threats.

     Public education directed to airline passengers should be altered 
to deal with the present threat of suicide hijackers bent on using 
airliners as instruments of mass detruction.

     Likewise, occupants and operators of skyscapers or landmark 
buildings or other large public facilities should be trained in rapid 
emergency evacuation procedures, in order to minimize casualties in 
cases of terrorist attack.

     Finally, public education campaigns should inform and encourage 
the public to report to law enforcement suspicious behavior that could 
indicate terrorist activity.
Conclusion
    I do not wish to dwell on the past (pre-September 11th, 2001) nor 
to play the blame game nor the I-told-you-so game, nor the Casandra 
prophesy game, but neither should we have historical amnesia. I have 
included as an addendum to this testimony, a snapshot of the public 
record showing how the same proposals to improve aviation security, 
since at least 1990, have been made over and over to the U.S. 
Government, only to be largely or completely ignored. These same 
security measures still remain to be done to secure American aviation 
and national security against terrorist attack.
    I would like to close with some important questions for this 
Committee, the U.S. Government and the American people:

--Will American democracy rise to the terrorist challenge this time?

--Or will we revert to the feckless pattern of the past, minimizing or 
    ignoring terrorism for the sake of short term commercial 
    convenience?

    As you hear the siren call of ``normalization'' please remember, 
even after Pearl Harbor and the German conquest of most of Europe, some 
powerful American and British industrialists and leaders sought trade, 
compromise and nearly business as usual with the enemy. Many others 
resisted common sense wartime security measures such as turning out the 
lights in coastal cities causing the loss of many merchant marine ships 
to submarine attacks. Americans have in the past often learned the hard 
way that enemies who declare war on the United States really mean it.
    If our form of government and way of life is to survive, you must 
get deadly serious about. aviation security and terrorism. I fear that 
a second attack could destroy the U.S. Capitol, the White House and 
other landmarks and would show our present security and government 
officials as too weak and incompetent to defend America's national 
security. And make no mistake, no new form of terrorism has ever not 
been repeated many times over.
    There is an old saying that says, ``God looks after babies, drunks 
and the United States of America.'' The luck of the USA ran out on 
September 11th, 2001. Now we must make our own luck, or face the 
consequences. Again thank you for the opportunity of testifying before 
you today. I would be welcome any questions.
                                 ______
                                 
                  Addendum to Testimony of Paul Hudson
    The following aviation security measures were recommended by 
Presidential Commissions or enacted since 1990 but never really 
implemented due primarily to aviation industry opposition:

      1) criminal history background checks for all persons with access 
to secure areas of airports.
      2) use of bomb detectors for checked luggage.
      3) passenger--checked luggage bag matching.
      4) upgrade security screener training (was 0-5 hours now about 
12, recommended to be 40 to 350).
      5) mail and cargo on passenger airliners to be screened for 
explosives.
      6) appointment of assistant secretary for Intelligence and 
Security (position has been left vacant).
      7) hardening of airframe and luggage containers to resist 
explosives.
      8) Policies and procedures to ensure that international terrorism 
reporting on air transportation are shared with DOT/FAA.
      9) Federal monetary benefits to victims and families of terrorist 
victims.
     10) Improve human intelligence gathering on terrorism.
     11) FAA certification of screeners and aviation security 
companies.

    Also the Federal Sky Marshall Program was essentially disbanded in 
the 1990's.

    The President's Commission on Aviation Security and Terrorism 
concluded in May 1990 (p. i) that ``the U.S. civil aviation security 
system is seriously flawed and has failed to provide the proper level 
of protection for the public.'' The Commission found the FAA ``to be a 
reactive agency--preoccupied with responses to events to the exclusion 
of adequate security planning in anticipation of future threats.'' The 
Commission also found that Pan Am had a history of security lapses 
before and after the bombing of Pan Am 103 in December 1988.
    For more detail see my and aviation security advocates testimony 
before congressional committees in 1989 and 1990, before the 
President's Commission on Aviation Security and Terrorism (1989-90), 
the White House Commission on Aviation Safety and Security (1996-98) 
and before the Congress in 1996-98, including the following:

     1) Testimony of Paul S. Hudson on behalf of the Families of Pan Am 
103/Lockerbie before the Subcommittee on Aviation of the Senate 
Commerce, Science and Transportation Committee, August 7, 1990, listing 
29 amendments to strengthen the then pending Aviation Security 
Improvement Act of which 4 or 5 were adopted. Measures not adopted 
included establishment of an outside review board for aviation security 
to ensure FAA/airline/airport compliance, closing the loophole 
authorizing undefined exemptions from security employment restrictions, 
requiring independent or public review of air carrier security 
standards and plans, minimum funding for aviation security R & D of 
$250 million per year, establishment of an Aviation Security 
Administration reporting to the Secretary of Transportation, mandating 
installation and use of explosive detection equipment when certain 
technical criteria were met, and requiring fair compensation to 
terrorist victims for economic and non-economic loss.

     2) Testimony of Paul S. Hudson on behalf of Families of Pan Am 
103/Lockerbie before the Senate Commerce, Energy and Transportation 
Committee, September 25, 1996.

    The key legislation is the Aviation Security Improvement Act of 
1990 and various amendments to that law. The key committees are the 
Senate and House Aviation Subcommittees, the Senate Commerce and House 
Transportation Committees, the Transportation Appropriation 
Subcommittees, House Foreign Affairs, Senate SC on Terrorism (Foreign 
Affairs), Judiciary Committees.

    The Chairman. Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. Gentlemen, I 
also appreciate your patience. Duane, let me start with you. 
We've been talking about federal air marshals and we want them. 
Federal air marshals can sit in two places, in fact, on an 
airplane. They can sit at or they can sit in the cockpit. We've 
divided those two very distinct parts of the airplane trying to 
secure one, in absolute terms, to make sure this cannot happen 
again in the form that it has. I saw you on national television 
say that nothing is not on the table. I forget what the 
question was in terms of the stun gun or of the firearm but in 
any event, there was nothing off the table and I was pleased 
about that and happy for that. The Federal Marshal AFT, with 
only 32 available in the country right now and with lots of 
money, there could be a lot of training but if the person isn't 
yet up to speed in experience, if in training he might be, or 
she, the shooting of a gun in the wrong place is catastrophic. 
So, knowledge of the plane and its systems is crucial. I cannot 
help but think that the, from a tactical point of view, from a 
visual point of view, from a psychological point of view that 
there is no, obviously, greater symbol of control than the 
pilot. There's also the visional advantage that the pilot has 
his back, or her back, to whoever it is hopefully cannot enter 
into the reconfigured cockpit as soon as that can be 
effectuated. My question to you is what do you see as the 
pluses and minuses of pilots with their back to the intruder, 
should that ever happen, and remember with all of the rural 
places we're talking about and the turbo props you're talking 
about folding often, folding doors as opposed to much more 
secure ones that you have on the larger airplanes. Your sense 
as to pilots' willingness, in view of other responsibilities 
they have and pilots' effectiveness in terms of having either a 
stun gun or other form of protection to dis-enable somebody who 
might get in.
    Mr. Woerth. Well, Senator, if I can make a simple 
statement, we can't be Sky King and Wyatt Earp at the same 
time. I mean, our principal duty is to fly the airplane but 
we're left with a situation right now until all of the adequate 
additional security measures of keeping bad guys off the 
airplane. We're already to the point where theirs a bad guy on 
the airplane, we've failed most of the system to that point. 
So, we are advocating in our testimony submitted to you here 
that we would at least like those non-lethal tasers or stun 
guns installed in the aircraft. We believe we could use those. 
But obviously the federal marshal program is going to be much 
more effective. We want law enforcement taking care of 
security. Pilots are trained to fly airplanes, not be law 
enforcement agents and we're looking, as our first priority, at 
other people in security and law enforcement to take care of 
firearms and take care of that form of security.
    Senator Rockefeller. In that there are two sections to the 
airplane and again, this is a matter of money and as yet 
untrained, completely untrained, unavailable personnel. Would 
that include having a marshal in the cockpit itself in the 
event of the failure of a door system and understanding that, 
that is going to take some time to put that into 7,000 
airplanes.
    Mr. Woerth. Sir, our anticipation is the federal marshal 
should be incognito, passenger inside, the passenger cabin.
    Senator Rockefeller. But not the cockpit.
    Mr. Woerth. But not the cockpit. A lot of it is a practical 
question. We know that even with a rapidly increasing number, 
hopefully, of these federal marshals, that the incognito aspect 
of it, the uncertainty on how many of them there are and where 
they are would be better use of them for a deterrent if 
perpetrators or hijackers are never quite sure which flight, or 
where this agent is. So, it is for that reason if he walks in 
the cockpit and sits down, they know where he is. I'm not sure 
how effective he will be. He will help us defend the cockpit 
but it can cost an awful lot of havoc.
    The Chairman. If the distinguished Senator would yield, 
that is what Glick and Bingham proved on that plane that was 
down in Pennsylvania because if they had been up in the cockpit 
or recognizable as marshals, they would have been done away 
with with the cord cutter long since but that Glick was a judo 
expert and old Bingham was just as big and they decided and 
they said so on the telephone, we're going to take them. And 
that's why you and I were saved or the White House was saved, 
one or the other. But definitely have them incognito.
    Senator Rockefeller. I will conclude with that. Captain 
Woerth, I just--The control center, absolute all psychological 
senses of the cockpit and short of the installation of the 
installation of the best possible door or the failsafe door to 
protect the pilot and therefore the cockpit and therefore the 
passenger and therefore the sense of confidence of the 
traveling public. I think the cockpit has to be a very, very 
secure place.
    Mr. Woerth. I agree with you, Senator Rockefeller and I 
think the pilots have to believe it is a very, very secure 
place.
    The Chairman. Very good. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. My question is 
going to be focused on technologies. I was reading very quickly 
through Captain Woerth's near term and long term 
recommendations here. All of us, along with the pilots clearly 
understand that we need to make sure that never again can an 
aircraft be used as a weapon. There are quite a few ideas, many 
of which you have in your recommendations here to make sure 
that the cockpit is like a vault that is only opened from the 
inside. Long haul flights may need lavatory services somehow in 
it or a double door that closes the lavatory if a pilot needs 
to use it. There are all these ideas about air marshals and I 
think that the air marshals are going to be part of our lives 
on commercial flights in the future. In fact, one of the 
Members of this Committee, Senator Hutchison, has a bill to 
look into that. Now, it seems to me in the area of technology 
that we do have the technological capacity on modern day 
aircraft to permit a pilot to turn over control of the aircraft 
to some remote site under a matter of duress. I was looking at 
your recommendation 17 where you're talking about biological 
chemical matters. That means you need to know what's going on. 
There needs to be sensors or maybe there also needs to be ways 
that you can immobilize people in the back. You also say in 
recommendation 18 that the FAA should immediately develop and 
implement air traffic control communication code for advising 
all pilots as far as radio contact. Now, I've heard of some 
research that would effectively limit where a flight may 
travel. There's a topographic computer model for the route that 
any flight could be built in and designate areas that are off 
limits. The limits could be at all altitude floor or ceiling. 
It could be a virtual fence around a city whether that's 
Washington, D.C. or Manhattan or the loop in Chicago. There 
could even be a virtual dome put into place over a building if 
that were the concern. It's my understanding that such a system 
of this kind would be very possible especially on our newer fly 
by wire aircraft. I would ask you, Captain Woerth, although I 
would be interested in Mr. Meenan's views as well, if you feel 
that such a concept, since you represent pilots, of the control 
authority transfer or automatic ground control avoidance 
technologies are feasible and practical?
    Mr. Woerth. They may be feasible but I do not believe 
they're practical. Certainly, not in the near term answers that 
the nation is looking for. They would most likely be used in 
the most sophisticated new fly by wire aircraft, whether that 
be Boeing or Airbus. That still leaves 5,000 other airplanes 
that would have to be retrofitted and may not be capable of 
employing that technology. So, I would think the amount of 
money that we would spend on the project, sir, I think into the 
security element up front, avoiding the problem after a direct 
airplane would be better spent. I do believe it is possible but 
I think as the Congress and the Administration prioritizes its 
resources and where they're going to put the money first, that 
is probably why it was farther down on our list of 
recommendations.
    Senator Allen. Since September 11th, costs are obviously 
still a concern but safety is the primary concern. I would like 
to see this technology as a way of helping pilots so that they 
can somehow push a button, and make communication with a 
location on the ground. The rest of that flight would be taken 
over remotely so hijackers, even if they do somehow get in, 
could not use the airplane as a weapon. We will have to explore 
this in our Subcommittee with Senator Wyden. Mr. Meenan, are 
your views similar to those of the Captain's?
    Mr. Meenan. I would concur fully with Captain Woerth. Many 
of these avionics and control solutions is something that need 
to be looked at but I think we need to focus much more 
immediately on the things we know we can do in the very near 
term.
    Senator Allen. Which is securing the cockpit.
    Mr. Meenan. Well, securing the cockpit is one of them. Sky 
marshals as we've all discussed is another and generally 
upgrading the security at airports through a federal program to 
take control of that.
    Senator Allen. Thank you.
    The Chairman. Very good. Senator Wyden.
    Senator Wyden. Just a couple of questions. If the 
government was responsible for security, wouldn't it be 
possible to move more quickly when it came to dealing with 
these issues? I mean, right now, as I understand it, you've got 
a regulated entity. You've got regulated companies and that is 
a big part of the problem with respect to the process of 
getting these matters out more quickly. Do any of you an 
opinion?
    Mr. Meenan. Very much so. Our view is very strongly that 
dealing with terrorism, there are seven tools at your 
disposal--diplomacy, economic sanctions, military action, court 
action, intelligence gathering, law enforcement, and the last 
line of defense, not the first, is counter measures security 
systems--things that we're talking about here. The government 
controls all of the first six. We have been asked in the past 
to control the seventh. We think the evidence is clear that 
that is not the way to go. This has to be under a unified, 
single point of control for the kind of speed you're talking 
about, Senator Wyden.
    Senator Wyden. My time is short. Do any of you disagree 
with what that answer entailed?
    Mr. Woerth. No.
    Mr. Barclay. Among our members, at the moment we're still 
trying to come up with a position on the screening issue and 
the only difference we agreed that it should come from the 
airlines. Some airports out there, Orlando and Tampa are two of 
them, that Senator Nelson visited, think it would be best if 
they used their local law enforcement people under a federal 
set of standards but still you would have law enforcement 
there. Most of our members agree that it is a federalization of 
the process would be best.
    Senator Wyden. Mr. Dillingham. Mr. Hudson. I want to ask 
about one other matter.
    Mr. Dillingham. Yes, Senator Wyden, we believe too that the 
less levels that you have in between control and action, the 
more rapidly you can get things accomplished.
    Senator Wyden. Mr. Hudson, any disagreement?
    Mr. Hudson. I would agree. The fact that we have private 
contractors, we have air lines and we have the government and 
we have airports. There's a communication problem. There's a 
confidence problem. We don't think the system is going to 
improve significantly. We have proposed a federal aviation 
security agency be created so that it can be brought up to the 
same standard as we have for other specialized federal law 
enforcement in national security agencies.
    Senator Wyden. Mr. Dillingham, I have a question for you. I 
have been reading on the floor of the United States Senate and 
in this Committee this morning essentially from 15 years of 
reports that you all have issued literally going back to that 
1987 report on certification of screeners and again and again, 
you have documented the delays and inaction and as I've said as 
well, now is not a time for a blame game and there's plenty to 
go around for various presidents and various congresses and 
various interest groups. What's your counsel to this Committee 
today so that now on this set of key questions, not just the 
screeners, but the other issues that we're looking at? What's 
your counsel for this Committee so that 15 years from now we're 
not going through essentially the same drill? For example, do 
you think it ought to be the role of this Committee to cut 
through some of the political turf battles which clearly held 
up some of the actions that were warranted? Should we step in 
at some point with respect to resolving some of the cost 
questions? What's your counsel so that 15 years from now we're 
not just going through this once again?
    Mr. Dillingham. Senator Wyden, I think that I would like to 
think that we have a sea change from what happened a week or so 
ago and that we won't be here six years from now or 15 years 
from now in the same situation but clearly we must understand 
that no security system is 100 percent safe and there's no 
guarantee that something like this or from another dimension 
won't happen again but it seems to me that everybody is on 
board now and the issues are at the margins but it is clear 
that everyone says we have to move now and not later.
    Senator Wyden. I guess I would tell you I'm still concerned 
because I went back and looked at all those reports and people 
were on board before when those recommendations were issued. 
They were almost always unanimous recommendations and I think 
my feeling is, and I want to talk to my colleagues, 
particularly the Chairman of the full Committee and the 
Chairman of the Subcommittee is that if the administration 
doesn't come back on this question of federalizing security 
functions with specifics pretty quickly, I hope that Senator 
Hollings and Senator McCain and Senator Rockefeller and Senator 
Hutchison, the bipartisan leadership of this Committee will 
work with all of you and the interested parties so that it is 
resolved. I don't see any other kind of path. We made it clear 
today. We're anxious to work with the administration and I 
would say my only non-negotiable point at this point only one 
non-negotiable point is to let this thing drag on as it has in 
the past. We've had plenty of well meaning people but the 
vulnerability slipped between the cracks and in order to do it, 
we're going to have to work closely with all of you. And I 
thank you, Mr. Chairman.
    The Chairman. Senator Boxer.
    Senator Boxer. Yes, I apologize for having to go out and 
meet some constituents. I have two questions. One of them is 
specifically to talk about pilot training many of you want to 
address them and then the second, I'm going to ask each of you 
if you were us, and forgetting any money concerns, is if that 
wasn't a question, what would the top one, two and three things 
be? If you've only gone one, that's fine, but just give me 
about those ideas. But before, I was thinking, Mr. Chairman, 
that I have supported with many of my colleagues, a check when 
people go to get a gun and it used to be a three day check. We 
check on them before they can get the gun. Now, we've got it 
down to a 24 hour check. We're using computers. Before they get 
a gun. Now, we have a situation where American planes have been 
used as missiles, weapons and I'm just thinking, pilots come, 
you know, potential pilots come from other countries and they 
go in and it doesn't seem to me there's much of a check. So, 
I'd like to know how you feel, and again depending on if you 
have the expertise on this, what's an idea? I would think we 
ought to have a check on each and every person who comes. I 
mean, I wouldn't profile anyone. I would just say, this is now 
a whole other ballgame and could you support something like 
that where we have a pretty good check and then if there's any 
reason to believe a problem, we would hold it off indefinitely 
until we cleared the individual to go to pilot school. Any of 
you want to talk about that? Captain, do you have a feeling on 
that?
    Mr. Woerth. Well, I think this will probably demonstrate my 
lack of knowledge in security and law enforcement which is why 
I want law enforcement agencies or a new agency we recommended 
be created to deal with law enforcement and security. I don't 
think the FAA is competent to do it and I don't think the 
airlines are competent to do it and I know I'm not competent to 
do it but I want the intelligence community and all those 
involved with law enforcement to be able to find these type of 
individuals so they do not get to the airport and if they do 
get to the airport, they don't get into my aircraft and if they 
get to the aircraft they never get into the cockpit. So, that's 
how I approach it.
    Senator Boxer. Well, I couldn't agree with you more. I 
think this is something for law enforcement and I think when 
the airlines are going to come before us later, one of the 
things I want to do is take that whole part of it away from 
them. And frankly, my own view, away from the FAA. It is a law 
enforcement issue we're dealing with and I personally think the 
FAA has not done well. Witness all these reports and I hope, 
Mr. Chairman, when you're looking at this whole issue of 
airport security, when we think about whose these screeners 
would work for, let's think about what their function is. Their 
function isn't keeping the skies clear and doing air traffic 
control. It's keeping criminals away from innocent people. So, 
I hope you'll think about that. It may be a difficult thing 
because it's a new way of thinking but, Captain, I agree. 
Anybody else have thoughts on this pilot question? Yes.
    Mr. Hudson. Senator, we recommend that steps need to be 
taken to secure the entire U.S. aviation system again 
infiltration by terrorists. There's over 40 trained pilots on 
the FBI's wanted list now out of the last terrorist incident. 
We know that half the hijackers of the 19 had at least some 
pilot training. In addition to the people that work in the 
airports and the airplanes, we think that passengers, pilots, 
aviation security, airport, airline employees and contractors 
must all be screened to ensure that suspected or wanted 
terrorists are not infiltrating our aviation system. Part of 
what happened last week is, I think, a lack of communication. 
Supposedly at least two of the hijackers were on a U.S. 
government terrorist watch list. I don't know if that's true 
but that's been in the news reports but none of them were 
flagged as far as we know of the 19.
    Senator Boxer. I'm just getting at a different point. I'm 
getting at a point in keeping them out of the flight schools. 
For example, when someone comes in and says, I don't want to 
learn to land and I don't want to learn how to take off, I just 
want to know how to steer, we ought to now know that that's 
something that we need to think about but, frankly, some of 
these people, we know that would never have gotten into these 
flight schools if they had to go through some kind of law 
enforcement check. Could I ask that last question. Could each 
of you give me don't pass the buck here please. What do you 
think and this is just a personal opinion. I'm not asking you 
to speak for anybody else. What could we do in this bill 
because frankly, Mr. Chairman, you're going to have to lead us. 
I'm sad to say that's what I think is going to have to happen. 
Now, why do I say I'm sad. Because what I heard before is, and 
I love them, a lot of holding back. I don't think we can hold 
back. I talked to too many people who were directly affected. 
I'm worried about them dealing with this, coping with this and 
I'm worried about our economic future when you need to get 
people. So, you're going to have to do this. So, I wonder if 
each of you can give me your top issues that you think we could 
do to make things safer, to restore confidence in the public. 
Top one, top two, top three or just top one. Let's start with 
Mr. Meenan.
    Mr. Meenan. Senator, I think first of all, as we've said, 
we think that federalizing the system is the place to start.
    Senator Boxer. Federalizing the safety.
    Mr. Meenan. The safety and security system. That probably 
needs some further exploration because rather than creating a 
traditional new federal organization, maybe there's a way to do 
it through some kind of government cooperation. Other kinds of 
mechanisms that might make more sense, but we've got to deal 
effectively with that safety issue in order to assure the 
public that it is safe to fly. I think the second two things 
are, somewhat off the subject and more pertinent to this 
afternoon, we've got to assure the stability, the financial 
stability of the airline industry because if they start 
falling, we're going to have even more problems on our hands 
and therefore, there is a dying, crying need for major cash 
infusion and loan guarantees as well as steps to be taken to 
deal with the liability concerns and the insurance issues that 
have arisen out of the incident of last week.
    Senator Boxer. Okay, very good. Captain?
    Mr. Woerth. I think the most important thing we can do to 
install public confidence and have a secure system now is to 
have the public believe and have it be true that the cockpit is 
a fortress, that that cockpit door is going to be so secure and 
designed so well that it cannot be penetrated and with the 
additional federal marshals on the airplane, that there is 
somebody who can take care of the cabin. When the public knows 
that, believes that, and it's true, we're going to have our 
airline system back. We're going to have our economy back.
    Senator Boxer. Thank you. Mr. Barclay.
    Mr. Barclay. I think I've got to give you four. We need to 
put more security on the airplane and I'll leave that to Duane 
to figure out. We need to professionalize the screeners in some 
federal sense or local law enforcement. We need to harden the 
perimeter of airports, both the perimeter of the entire airport 
and the perimeter around aircraft and I think finally, there's 
a fourth one that hasn't been talked about too much. The 
failure of our system was that we set up a system to catch 
criminals and rational people and one individual crazy. We 
didn't set up a security system in aviation to catch a special 
ops team of suicide pilots trained to do this and trained to 
try to get around anything we were doing. So, that's why it's a 
new day. We are now in almost a semi-military operation of 
defense and we have to account for that. Part of that will be 
we were, in any system we were out there on Monday that out of 
670 million passengers, we were looking for 18 suicide pilots 
who were trying to hid from us and they got on as regular 
passengers with the crudest of weapons and they wanted to use 
the airplane as a bomb. It was an almost unimaginable scenario. 
We now know it is imaginable. Knowledge is one of the most 
powerful weapons they carried on that airplane with them. What 
they were going to do the fourth airplane showed that once 
everybody knew what they were going to do, it wasn't going to 
work. So, we need to narrow that pool of 670 million. Of the 
670 million, about 90 million people who travel in the system 
are foreign nationals. We need to in a military operation we 
need to if we're going to fish for some of these folks, we need 
to make the ocean smaller and I think there are a number of 
things where we can use technology. We can use screening one 
time for people who want to volunteer for it because they 
travel a lot and then biometrics to make sure they are who they 
say they are when they're going through so we can focus our 
resources on the people we don't know traveling in the system 
and the people who are more dangerous potentially.
    Senator Boxer. Good. Mr. Dillingham.
    Mr. Dillingham. Senator Boxer, I think the initiatives that 
have been put in place since September 11th are sort of the 
immediate, and we should maintain those as we move towards a 
different paradigm for aviation security, in aviation security 
beyond just screening. Our work has shown that there are many 
gaps in the aviation security system from the outside to the 
ATC system just across the board. I think from that point, the 
point was made earlier on that once the bad guys are on the 
plane, you've almost lost the battle. There is a system in 
place, computer assisted passenger, CAPS is what it's called. 
And what it does is it, based on certain characteristics, it 
triggers extra scrutiny for the passenger. There are a number 
of criteria but can't be spoken about but to my knowledge, that 
database is not linked to law enforcement databases. It is not 
linked to those lists that other law enforcement agencies have 
so that a bad guy can get an airplane ticket and no one knows 
who that person is. It doesn't have to be that way. That needs 
to be done right away. And last.
    Senator Boxer. That's an excellent idea. I'd not heard that 
before.
    Mr. Dillingham. It's clearly something that can be done 
quickly. There are some issues that have to be worked but like 
I say, we're in a sea change now and again, we support a new 
paradigm for aviation screening and security all the way 
around.
    Senator Boxer. Mr. Hudson.
    Mr. Hudson. Senator, I have a number of things in my 
testimony but I'll boil it down to just one thing. Secure the 
cockpits. Do that in a matter of days, not weeks or months and 
if you do that, other things will start to fall into place and 
the system will recover . If you don't do that, Lord knows what 
is going to happen. We need, in our estimation, 30,000 
temporary air marshals. We have approximately one million law 
enforcement and police officers in this country, 2 million in 
the military. I'm told by the FAA it would give them one to 
three days of training to do this. We need to do it now. Not 
talk about well, maybe in the future, maybe on some random 
basis, etc., etc., The passengers will start to come back. If 
you don't do that, I fear that we're in a very bad spiral.
    Senator Boxer. Mr. Hudson, I could not agree with you more. 
Matter of fact, God bless you for saying that. I just think 
this panel has given us a roadmap and I hope that we'll be able 
to convince our colleagues to take it, follow it, because I 
think if we follow them, we're going to be okay.
    The Chairman. I agree 100 percent and I thank also Mr. 
Hudson and each of the panelists. When I invited the Secretary 
of Transportation last week I said, now, don't wait for 
hearings. I said I'm not trying to get hearings. I'm trying to 
get results. Some of the things are obvious. For one, the 
federalization, I want the panel to know I've been fighting a 
rear guard action to keep them from privatizing the 
controllers. You're not going to hear anybody put in a bill to 
privatize the controllers any more and I've been fighting. We 
had Secretary Pena with all these other secretaries, Secretary 
Card, all of them came up and said, federalize it and I've been 
fighting it for years. And Mr. Barclay, yes, they have thought 
of it. Tom Clancy, the famous mystery writer. He wrote a book 
five years ago, I think, A Rising Sun, or something that went 
right straight into the Capitol during a joint session and the 
President, the Vice President, the entire Congress was gone and 
a certain fellow took over the government and that kind of 
thing. I don't speak fancifully. The truth of the matter is 
this is the greatest intelligence failure we've ever had in 
history, in the history of our government. Terrorists took and 
blew up the World Trade Center eight years ago, killed six or 
eight people. I know they injured thousands. Thereafter, we had 
the Mogadishu and the same fellow tells us about it in Somalia. 
We had the proposition of the barracks there in Saudi Arabia 
and bin Laden bragged about it. Then we have the embassies in 
Kenya and in Tanzania and he said, whoopee then. Then he blew 
up the USS Cole just last October and said all year long, here 
in the year 2001, he had been saying, let's wait, we've got 
coming events. It's going to be a greater thing happening and I 
don't know how you ever get the attention of that crowd. And 
don't get me started on it. They want analysts now. I want cold 
intelligence. You've got to infiltrate. This war has got to be 
fought not in uniform but in raggedy clothes and without 
publicity. How you route them out and everything else like 
that. It is not a military action but in any event, you folks 
have been very patient. You favored the committee and I wanted 
to give you a chance going down the list just somewhat like 
Senator Boxer. If you've got anything you want to comment about 
that you've heard here this morning or that we ought to know 
about, we've got your statements. But, Mr. Meenan, did you want 
to make any comment? I don't want you to go over here and say, 
we waited all morning long and the fellow wouldn't even allow 
me to say what I wanted to say.
    Mr. Meenan. Senator, I think we have covered the issues 
pretty thoroughly this morning. As I said to Senator Boxer, I 
think the important things to do now are to deal with these 
security issues. The whole panoply of issues we've heard about 
and the best place to start that is with the federal government 
inserting itself because we need the majesty of the United 
States to deal with this issue. Secondarily, we need to save 
the airline industry because if we don't, it is not going to be 
around to have any of this make any difference.
    The Chairman. There isn't any question. That's why we've 
got a hearing here in less than an hour and its very important 
and you've got to make a judgment up front if we're going to 
save the airlines and we're going to cap it off for the 
airlines at a certain level. Otherwise, we're going to get into 
a limbo of everything that is coming up. Well, you've got to 
save this. We've got to save them in the first original 
instance. It is not just trial lawyers. It's corporate lawyers 
subrogated. Two big towers full of business executive, Mr. 
Barclay and with those lawyers, I know. I can give you a 
personal story about it but in any event, they're not going to 
think they're worth their pee unless they stop bringing claims 
and everything else. So, we've got to cap it off but Captain 
Woerth, do you have a comment?
    Mr. Woerth. I would like to emphasize, if it wasn't obvious 
in our testimony, the questions here we talked a lot about 
passenger aircraft and you made a point that it's not just 
passenger aircraft. I want to emphasize that that was on a 
United Flight and an American Flight. It could just as easily 
been Federal Express or UPS or DHL and our cargo pilots and our 
cargo system and everything to do with cargo needs the same 
level of scrutiny if this threat is going to be stopped with 
aviaition. So cargo is every bit as important as the passenger 
aircraft.
    The Chairman. Very good. Mr. Barclay.
    Mr. Barclay. Well, thank you and the security and safety 
has got to come first. Second, you just asked the Committee 
that since you're moving right into the other hearing, please 
keep in mind that airports, airlines have symbiotic 
relationship and the same thing that's happening to the 
airlines is happening out there at the airports. The costs have 
shot up to meet emergency regulations. The revenues are down 
and those local governments are struggling with trying to 
provide the new security. So, if you keep that in mind in the 
bills you put together, we would appreciate it.
    The Chairman. You're right. We have taken the poor sky cap 
at the curbside check in and put him on the bread line. Mr. 
Dillingham.
    Mr. Dillingham. Mr. Chairman, again, security is more than 
screeners and we also would like to suggest that now that we're 
going to be considering in your next panel finance related to 
airlines that this is an opportune time to think about the 
financing of the security aspect of it as well. And, again, as 
so many people have mentioned, if we can break the cycle and 
not come back again, it would be a good thing.
    The Chairman. Thank you very much. Mr. Hudson.
    Mr. Hudson. Mr. Chairman, I would just ask you to remember 
when you hear as we did a little bit this morning the calls to 
return to normalcy, the calls to relax security over what we 
had in the last week. Normalcy in the past has always meant 
return to complacency and vulnerability. We cannot let that 
happen again. Secondly, I'd ask you to keep in mind that 
normalcy in wartime is very different than normalcy in 
peacetime. We are essentially in a wartime situation and we 
have to change our mindset to reorient to that. Thank you
    The Chairman. Well, let me thank the panel very, very much 
on behalf of the Committee and the Committee will be in recess 
subject to the two o'clock call hearing this afternoon.
    [The hearing was adjourned at 1:20 p.m]

                                  <all>

</pre></body></html>
